<html>
<title> - EFFORTS TO INTRODUCE NON-NATIVE OYSTER SPECIES TO THE CHESAPEAKE BAY AND THE NATIONAL RESEARCH COUNCIL'S REPORT TITLED ``NON-NATIVE OYSTERS IN THE CHESAPEAKE BAY''</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 EFFORTS TO INTRODUCE NON-NATIVE OYSTER SPECIES TO THE CHESAPEAKE BAY 
AND THE NATIONAL RESEARCH COUNCIL'S REPORT TITLED ``NON-NATIVE OYSTERS 
                        IN THE CHESAPEAKE BAY''

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

           Tuesday, October 14, 2003, in Annapolis, Maryland

                               __________

                           Serial No. 108-67

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-844              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 14, 2003........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Allen, Dr. Standish K., Jr., Professor, Virginia Institute of 
      Marine Science, and Director, Aquaculture Genetics and 
      Breeding Technology Center.................................    15
        Prepared statement of....................................    18
    Anderson, James L., Ph.D., Professor, Department of 
      Environmental and Natural Resource Economics, University of 
      Rhode Island, Kingston, and Co-Chair of National Research 
      Council Committee on Non-native Oysters in the Chesapeake 
      Bay........................................................     4
        Joint prepared statement of..............................     6
    Boesch, Donald F., Ph.D., President, University of Maryland, 
      Center for Environmental Science, Cambridge, Maryland......    13
        Prepared statement of....................................    15
    Franks, Hon. C. Ronald, Secretary, Maryland Department of 
      Natural Resources..........................................    43
        Prepared statement of....................................    46
    Goldsborough, William J., Senior Scientist, Chesapeake Bay 
      Foundation.................................................    77
        Prepared statement of....................................    80
    Hanmer, Rebecca W., Director, Chesapeake Bay Program Office, 
      U.S. Environmental Protection Agency.......................    39
        Prepared statement of....................................    41
    Kern, Dr. Frederick G., III, Acting Chief, Coastal Resource 
      Health Branch, Centers for Coastal Ocean Science, National 
      Oceanic and Atmospheric Administration, U.S. Department of 
      Commerce...................................................     8
        Prepared statement of....................................    10
    Porter, Frances, Executive Director, Virginia Seafood Council    74
        Prepared statement of....................................    76
    Prettyman-Beck, Colonel Yvonne J., District Engineer, Norfolk 
      District, U.S. Army Corps of Engineers.....................    35
        Prepared statement of....................................    37
    Simns, Larry, President, Maryland Watermen's Association.....    70
        Prepared statement of....................................    73
    Wesson, James A., Ph.D., Department Head, Department of 
      Conservation and Replenishment, Virginia Marine Resources 
      Commission.................................................    53
        Prepared statement of....................................    56
    Whitlatch, Robert B., Ph.D., Professor, Department of Marine 
      Science, University of Connecticut, Groton, Member of the 
      National Research Council Committee on Non-native Oysters 
      in the Chesapeake Bay......................................     7
        Joint prepared statement of..............................     6


 OVERSIGHT FIELD HEARING ON THE EFFORTS TO INTRODUCE NON-NATIVE OYSTER 
   SPECIES TO THE CHESAPEAKE BAY AND THE NATIONAL RESEARCH COUNCIL'S 
       REPORT TITLED ``NON-NATIVE OYSTERS IN THE CHESAPEAKE BAY''

                              ----------                              


                       Tuesday, October 14, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                          Annapolis, Maryland

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:05 a.m., in 
the Joint Legislative Hearing Room, Maryland House of 
Delegates, Annapolis, Maryland, Hon. Wayne T. Gilchrest 
(Chairman of the Subcommittee) presiding.
    Present: Representative Gilchrest.
    Also Present: Adelaide C. Eckardt, Maryland Delegate.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everyone. The Subcommittee on 
Fisheries Conservation, Wildlife and Oceans of the Resources 
Committee will come to order.
    I want to thank all of you for coming this morning. We look 
forward to an informative exchange of information where we can 
all learn about the different aspects of the Chesapeake Bay 
ecosystem, the potential for oyster recovery of the native 
species, and what may happen with a myriad of possibilities for 
introduction of the Asian oyster.
    And we look forward to the panel of witnesses from the 
scientific community, the public service community in the form 
of State officials and the Corps of Engineers, and those men 
and women who make their living on the Bay. I would like to 
welcome all of our witnesses and members of the Maryland 
General Assembly at today's hearing.
    As native oysters have declined, the introduction of non-
native oysters into the Chesapeake Bay has been tested, 
contested and debated for many years.
    This hearing is a part of the ongoing and in-depth 
discussions I know all of you continue to have. I hope to learn 
much about each of your areas of expertise today and to get an 
update on the progress of both native oyster recovery and non-
native oyster recovery, aquaculture and in-water testing.
    As most of you know, I have always strongly supported 
efforts to recover the native oyster population in the Bay. It 
is crucial to the well-being of the entire Bay ecosystem. It is 
also important to the livelihood of our Maryland watermen, our 
restaurants, our shucking houses, and our coastal towns and 
fishing villages.
    I have not taken a position on the introduction of non-
native oysters into the Bay, but am concerned about the 
potential impact this may have on a fragile and troubled and, 
to a large extent, degraded ecosystem. Concerns include the 
impact this introduction may have on long-standing efforts to 
restore the native oyster.
    One of the goals of the Chesapeake 2000 agreements is to 
increase native oyster populations tenfold by 2010. Federal and 
State budgets are tight, and competition for funds between 
oyster programs could be counterproductive for both efforts. I 
also know that Maryland and Virginia oyster fisheries have 
dramatically declined, and this has been a bitter blow for our 
oyster industry and our Bay culture.
    Like all of us, I would like to see the abundance of 
oysters in the Bay reach historic proportions. As a European 
visitor, Francis Louis Michel, described: ``The abundance of 
oysters is incredible. There are whole banks of them so that 
the ships must avoid them. They surpass those in England by far 
in size, indeed they are four times as large.''
    This statement was made in 1701, and 300 years later we 
must use these words to inspire our oyster restoration efforts 
however we decide to proceed. And if we proceed methodically, 
and we are well informed and we understand the nature of our 
responsibility, perhaps in this room 300 years from now people 
will be blessing us for making the right decision.
    Maryland and Virginia are both heavily invested in the 
restoration of the Bay oysters and are now looking to non-
natives to help restore the fishery. However, the billion 
dollar price tag associated with invasive aquatic species 
across the Nation gives us pause and causes us to examine these 
activities in the Chesapeake Bay in a national precedent-
setting context.
    In March, we introduced the National Aquatic Invasive 
Species Act of 2003, H.R. 1080, which reauthorizes the National 
Aquatic Species Act. It proposes a screening program at the 
Federal level and grant support for State screening programs 
prior to the introduction of non-native aquatic species.
    This legislation is intended to help our Nation prevent the 
economic and environmental damage we are now experiencing as a 
result of the intentional and unintentional introduction of a 
relatively small number of species. And we need only look at 
Maryland, whether it is nutria or snakehead, to understand the 
potential damage of non-native species which actually have 
become invasives.
    Given that the Chesapeake Bay programs have applied a 
formal screening process for the introduction of the Suminoe 
oyster, its experience can be of valuable assistance to such 
introductions elsewhere. Maryland, Virginia and the Chesapeake 
Bay program, the Oyster Recovery Partnership, Federal agencies 
and their partners are all to be commended for their dedication 
to the health of the Chesapeake Bay and its oysters. They have, 
to date, been a model for the rest of the Nation in 
precautionary and cooperative management of a valuable and 
shared resource.
    We are pleased that we have a good representative mix of 
experts here today to present all sides of this historic 
debate, and, as always, all input is important. Together we may 
be able to chart a course that will recover Chesapeake Bay 
oysters and provide an abundant resource for everyone to enjoy 
and help in this most important endeavor to restore the 
Chesapeake Bay ecosystem upon which future generations can be 
blessed.
    At this point I want to thank the first panel and your 
expertise that we will share this morning. We have Dr. James 
Anderson, Professor, University of Rhode Island, Kingston, Co-
Chair of the National Research Council Committee on Non-native 
Oysters in the Chesapeake Bay; Dr. Robert Whitlatch, Professor, 
University of Connecticut, Groton, member of the National 
Research Council Committee on Non-native Oysters in the 
Chesapeake Bay; Dr. Frederick Kern, III, Acting Chief, Coastal 
Resource Health Branch, National Centers for Coastal Ocean 
Science, NOAA; Dr. Don Boesch, President, University of 
Maryland's Center for Environmental Science; and Dr. Standish 
K. Allen, Jr., Professor of Virginia Institute of Marine 
Sciences.
    Gentlemen, thank you for coming this morning. We will begin 
with Dr. James Anderson.
    [The prepared statement of Mr. Gilchrest follows:]

  Statement of The Honorable Wayne T. Gilchrest, a Representative in 
                  Congress from the State of Maryland

    I would like to welcome all of our witnesses to today's hearing. As 
native oysters have declined, the introduction of non-native oysters 
into the Chesapeake Bay has been tested, contested, and debated for 
many years. This hearing is just a part of the on-going and in-depth 
discussions I know all of you continue to have and I hope to learn much 
about each of your areas of expertise and to get an update on the 
progress of both native oyster recovery and non-native oyster 
aquaculture and in-water testing.
    As most of you know, I have always strongly supported efforts to 
recover the native oyster populations. It is crucial to the well-being 
of the entire Chesapeake Bay ecosystem. It is also important to the 
livelihoods of our Maryland watermen, our restaurants, our shucking 
houses, and our coastal towns.
    I have not taken a position on the introduction of non-native 
oysters into the Bay, and am extremely concerned about the potential 
impact that this may have on a fragile and troubled ecosystem and the 
environmental and economic impact of our declining native oyster. My 
concerns are shared, I know, and they include the impact that this 
introduction may have on our long-standing efforts to restore the 
native oyster. One of the goals of the Chesapeake 2000 agreement is to 
increase native oyster populations tenfold by 2010. Federal and state 
budgets are tight and competition for funds between oyster programs 
could be counterproductive for both efforts.
    I also know that the Maryland and Virginia oyster fishery has 
declined dramatically and that this has been a bitter blow for our 
oyster industry and our Bay culture. Like all of us, I would like to 
see the abundance of oysters in the Bay reach historic proportions as a 
French visitor to the area said: ``The abundance of oysters is 
incredible. There are whole banks of them so that the ships must avoid 
them. They surpass those in England by far in size, indeed they are 
four times as large.'' This was 1701 and 300 years later, we must use 
these words to inspire our oyster restoration efforts, however we 
decide to proceed.
    Maryland and Virginia are both heavily invested in the restoration 
of our native oyster and are now looking to non-natives to help restore 
this fishery. The billion dollar price tag associated with invasive, 
aquatic species across the nation should give us pause and cause us to 
examine activities in the Chesapeake Bay in a national, precedent-
setting context. I introduced the National Aquatic Invasive Species 
Act, H.R. 1080, which reauthorizes the National Aquatic Species Act and 
would, among many other things, provide authority for federal agencies 
and support for states to conduct screening programs prior to the 
introduction of such species. This language is in response to growing 
concern that invasive, non-native species are crippling local 
infrastructure, native fisheries, and budgets. The nation is watching 
the Chesapeake Bay, with one of the only formal processes similar to 
such a screening process, as it cautiously moves in this direction.
    Maryland, Virginia, the Chesapeake Bay Program, the Oyster Recovery 
Partnership, Federal agencies, and their partners are all to be 
commended for their dedication to the health of the Chesapeake Bay and 
its oysters. They stand as a model for the rest of nation in 
precautionary and collaborative management of a valuable and shared 
resources. I am pleased that we have a good representative mix of the 
experts here today to present all sides of this historic debate. As 
always, everyone's view is important and together we may be able to 
chart a course that will recover Cheapeake Bay oysters and provide an 
abundant resource for the future for everyone to enjoy.
    I look forward to hearing from all of our witnesses and I am sure 
this debate will continue even after today's hearing.
                                 ______
                                 

 STATEMENT OF DR. JAMES L. ANDERSON, PROFESSOR, UNIVERSITY OF 
 RHODE ISLAND, KINGSTON, CO-CHAIR OF NATIONAL RESEARCH COUNCIL 
     COMMITTEE ON NON-NATIVE OYSTERS IN THE CHESAPEAKE BAY

    Dr. Anderson. Thank you. My job is to give an extremely 
brief summary of the NRC report on Non-native Oysters in the 
Chesapeake Bay.
    As everyone in this rooms knows, oyster stock in the 
Chesapeake Bay has declined dramatically to less than 1 percent 
of its levels in the 19th century. Fishing pressure and habitat 
degradation from agriculture, industrial and residential 
pollution, deforestation, and oyster reef destruction have 
contributed to the decline.
    But in recent decades the diseases MSX and Dermo have been 
identified as the core reasons for further decline, and it 
should be noted that MSX is caused by a parasite that was 
introduced to the East Coast from Asia.
    Fisheries management efforts and various restoration 
programs have not been successful in restoring the oyster stock 
to date. The loss of the oyster has been devastating to the 
oyster industry and dependent communities, and those that 
remain in the oyster processing sector now depend on oysters 
brought from the Gulf of Mexico region and other areas for 
their economic survival. Furthermore, the loss of oysters has 
contributed to the decline in water quality and clarity.
    The introduction of the non-native ariakensis oyster from 
Asia has been proposed as a solution to these difficult 
problems. Indications are that it may grow well in the 
Chesapeake Bay. It is known to be resistant to MSX and Dermo. 
This proposal is not without precedent. For example, in France, 
the nonindigenous--I mean the indigenous--European flat oyster 
was devastated by a nonindigenous disease, and now the French 
industry is primarily dependent upon the non-native Pacific 
cupped oyster, C. gigas. In addition, non-native C. gigas and 
the Eastern oyster are both harvested in the Pacific Northwest. 
And, in fact, C. gigas is the dominant species harvested in the 
State of Washington.
    Our committee was asked to assess the existing research on 
oysters and other introduced species to determine if there is 
sufficient information to analyze the ecological and 
socioeconomic risks associated with the following three 
management options: One, to not introduce non-native oyster C. 
ariakensis at all; two, to allow for open water aquaculture of 
non-native infertile oysters; or, three, the introduction of 
reproductive non-native C. ariakensis oysters.
    The study revealed that, despite the positive result of 
some oyster introductions, some extremely negative consequences 
have been observed as well. A major risk of introducing non-
native oysters comes from pathogens, such as MSX, or the 
introduction of other animals or plants that may be attached to 
the oysters. In Australia and New Zealand, introduced non-
native oysters have displaced native oysters.
    We concluded that there are shortcomings and gaps in the 
basic research on the biology of C. ariakensis and the 
scientific community's understanding of the ecological 
consequences of introducing C. ariakensis. Economic and 
cultural research is also lacking, and the institutional and 
regulatory framework currently is inadequate to monitor and 
oversee non-native oyster introductions. Given these 
limitations, a formal risk analysis was not possible.
    However, in the judgment of the committee, option two, 
aquaculture of non-native sterile oysters represents an 
appropriate interim step that possesses less risk to the 
Chesapeake Bay and its dependent communities than either 
options one or three. However, limits and controls on the 
aquaculture practices must be implemented to minimize the risk 
of introducing pathogens and/or reproductive non-native oysters 
during the transitional phase. Option two may provide limited 
benefit to parts of the oyster industry, and it provides 
decisionmakers with added information required to make future 
decisions.
    Moreover, this option allows more time for innovative, 
science-based efforts to restore the native populations. Option 
1, not allowing any introduction, fails to address industry 
concerns and will not result in proved understanding of the 
ramifications of non-native oysters. It may also increase the 
risk of rogue or uncontrolled introductions.
    Option 3, the direct introduction of non-native oysters, is 
not advised given the limited knowledge of the biology of C. 
ariakensis and potential irreversible consequences.
    The committee cautions the decisionmakers that there is no 
quick fix to the Chesapeake Bay, and that all of these 
solutions will take time. I would like to thank you for the 
opportunity to testify and would be glad to answer any 
questions.
    [The prepared joint statement of Dr. Anderson and Dr. 
Whitlatch follows:]

Joint Statement of James L. Anderson, Ph.D., Co-Chair of the Committee 
   on Nonnative Oysters in the Chesapeake Bay, Ocean Studies Board, 
   National Research Council, The National Academies, and Professor, 
Department of Environmental and Natural Resource Economics, University 
    of Rhode Island, Kingston; and Robert Whitlatch, Ph.D., Member, 
  Committee on Nonnative Oysters in the Chesapeake Bay, Ocean Studies 
     Board, National Research Council, The National Academies, and 
  Professor, Department of Marine Science, University of Connecticut, 
                                 Groton

    Good morning Mr. Chairman and members of the Subcommittee. Thank 
you for this opportunity to speak to you about the proposed 
introduction of the nonnative oyster Crassostrea ariakensis. Our names 
are James Anderson from the University of Rhode Island and Robert 
Whitlatch from the University of Connecticut and we are members of the 
committee that recently released the report Nonnative Oysters in the 
Chesapeake Bay, the culmination of a study conducted with the oversight 
of the NRC's Ocean Studies Board. As you know, the National Research 
Council is the operating arm of the National Academy of Sciences, 
National Academy of Engineering, and Institute of Medicine, and was 
chartered by Congress in 1863 to advise the government on matters of 
science and technology.
    The oyster stock in the Chesapeake Bay has declined dramatically. 
Harvest is now about one percent of what it was at the end of the 19th 
century. Fishing pressure and habitat degradation resulting from 
agricultural, industrial and residential pollution, deforestation, and 
oyster reef destruction have contributed to the decline. In recent 
decades, however, the diseases MSX and Dermo have been identified as 
the core reasons for further decline. It should be noted that MSX is 
caused by a parasite that was introduced to the East Coast from Asia. 
Fisheries management efforts and various restoration programs have not 
been successful in restoring the oyster stock to date. The loss of the 
oyster has been devastating to the oyster industry and its dependent 
communities. Those that remain in the Chesapeake oyster-processing 
sector now rely on oysters that are brought in from the Gulf of Mexico 
region and other areas for their economic survival. Furthermore, the 
loss of oysters has contributed to declines in water quality and 
clarity.
    The introduction of the non-native Suminoe oyster, or Crassostrea 
ariakensis, from Asia has been proposed as a solution to these 
difficult problems. Indications are that it may grow well in the 
Chesapeake and it is known to be resistant to MSX and Dermo. This 
proposal is not without precedent. For example, in France the 
indigenous European flat oyster was devastated by disease and now the 
French industry is based primarily on the non-native Pacific cupped 
oyster, or C. gigas, which was initially imported from Japan. In 
addition, non-native C. gigas and the eastern oyster C. virginica, are 
both harvested in the Pacific Northwest. In fact, C. gigas is now the 
dominant species harvested in Washington State.
    Our committee was asked to assess the existing research on oysters 
and other introduced species to determine if there is sufficient 
information to analyze ecological and socioeconomic risks associated 
with the following three management options: one, not introducing non-
native C. ariakensis oysters at all; two, open-water aquaculture of 
non-native, infertile oysters; or three, the introduction of non-native 
reproductive, oysters.
    Our study revealed that, despite the positive results of some 
oyster introductions, some extremely negative consequences have been 
observed as well. A major risk of introducing a non-native oyster comes 
from pathogens, such as MSX, or the introduction of other animals or 
plants that may be attached to oysters. And in Australia and New 
Zealand, introduced non-native oysters displaced native oysters.
    We concluded that there are shortcomings and gaps in the basic 
research on the biology of C. ariakensis and in the scientific 
community's understanding of the ecological consequences of introducing 
C. ariakensis into the Chesapeake Bay. Economic and cultural research 
is also lacking with relation to introduction of C. ariakensis, 
including evaluation of production and management systems. In addition, 
the institutional and regulatory framework is currently inadequate to 
monitor and oversee non-native oyster introductions. Given these 
limitations, a formal risk assessment is not possible.
    In the judgment of the committee, option two, aquaculture of non-
native sterile oysters, represents an appropriate interim step that 
possesses less risk to the Chesapeake Bay and its dependent communities 
than either options one or three. However, limits and controls on 
aquaculture practices must be implemented to minimize the risk of 
introducing pathogens or reproductive non-native oysters during this 
transitional phase. Option two may provide limited benefit to parts of 
the oyster industry and it provides decision makers with the added 
information required to make future decisions. Moreover, this option 
allows more time for innovative, science-based efforts to restore 
native oyster populations. On the other hand, option one, not allowing 
any introduction, fails to address industry concerns and will not 
result in improved understanding of the ramifications of non-native 
introductions. It may also increase the risk of rogue or uncontrolled 
introductions. Option three, or the direct introduction of reproductive 
non-native oysters, is not advised given the limited knowledge base on 
C. ariakensis and the potential for irreversible consequences of 
introducing a reproductive non-native oyster into the Chesapeake Bay.
    The committee cautions decision makers and observers that it is 
unlikely that there exists any ``quick fix'' to the Chesapeake oyster 
situation. It is also unrealistic to expect that the oyster industry 
and the Chesapeake Bay water quality could ever be fully returned to 
conditions found in the past. It must be remembered that the many 
problems in the Chesapeake Bay, including the plight of the oyster, 
have been the result of more than a century of fishery, land use, and 
environmental mismanagement by both the public and private sectors. 
However, continued commitment to responsible management and research 
could ultimately yield significant benefits to the Bay economy, as well 
as its environment and cultural heritage.
    Thank you for the opportunity to testify. We would be happy to take 
any questions the Committee might have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Anderson. Dr. 
Whitlatch.

STATEMENT OF DR. ROBERT B. WHITLATCH, PROFESSOR, UNIVERSITY OF 
 CONNECTICUT, GROTON, MEMBER OF THE NATIONAL RESEARCH COUNCIL 
     COMMITTEE ON NON-NATIVE OYSTERS IN THE CHESAPEAKE BAY

    Dr. Whitlatch. Thank you. I would like to briefly reiterate 
several points that my colleague has made and that have been 
articulated also in the committee report.
    It is well recognized that environmental and economic 
issues related to the introduction of non-native oysters in the 
Chesapeake Bay are fraught with considerable uncertainty. Since 
the potential risk and benefits of introducing a species are 
difficult to quantify, it is not surprising that various 
interest groups differ in the value of deliberately introducing 
a species.
    I think we all agree, however, that once a species is 
introduced in an uncontrolled manner it is virtually impossible 
to control its spread. Marine ecosystems have few natural 
boundaries which reduce the movement of species, and the 
species which may be desirable in one location may not be 
desirable in other locations.
    I live in the State of Connecticut, where our oyster 
industry is doing quite well, thank you. We are concerned that 
this is not a regional issue, but should be viewed as a 
national issue. Obviously the concerns about Chesapeake Bay are 
important, but we should view this in a more national means.
    The committee's recommendation to adopt what we think is a 
well reasoned, but conservative approach to the issue of the 
introduction; namely, introducing using reproductively sterile 
individuals in limited field trails, is an important 
recommendation because it allows two things, one of which we 
can gain information on the biology of the species and how it 
potentially interacts with the Chesapeake Bay ecosystem. And 
using this approach also provides the opportunity for further 
development of integrated science-based approaches to the 
restoration of native oyster populations in the Bay.
    Well, what can Congress do? Firstly, in order to accomplish 
the goal that is one of our recommendations, is that we need to 
establish a long-term commitment of resources in order to study 
the species and how it will interact with the Bay ecosystem. 
Funds need to be provided to the science community and to 
resource managers so the appropriate information can be 
obtained to better understand how the species will interact 
with the Bay ecosystem.
    This is not simply a recommendation from a research 
scientist to say give us more money to do research. But as my 
colleague stated, the disease problem, one of the disease 
problems in the Bay right now was due to introduction of a non-
native parasite, and there are many other examples in the world 
where non-native species have been affected by native parasites 
and also non-native parasites.
    The second recommendation is there needs to be established 
appropriate biosecurity protocol procedures in order to ensure 
that any studies that use a species in the Bay minimize the 
risk of establishment of wild populations of the non-native 
species.
    These resources are needed not only to educate the science 
community in terms of trying to understand how to deal with the 
species, but also to educate watermen and other individuals 
that are working with the species in the Bay in order to 
establish appropriate biosecurity protocols in order to ensure 
minimizing the potential of the species in the Bay.
    Thank you--not in order to minimize the potential of the 
species in the Bay, I am sorry, in order to minimize the 
potential spread of the species in an uncontrolled manner in 
the Bay.
    Mr. Gilchrest. Thank you very much, Dr. Whitlatch.
    Next is Dr. Frederick Kern, III. Thank you, sir.

STATEMENT OF DR. FREDERICK G. KERN, III, ACTING CHIEF, COASTAL 
  RESOURCE HEALTH BRANCH, NATIONAL CENTERS FOR COASTAL OCEAN 
    SCIENCE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Kern. Thank you, Chairman Gilchrest. My name is Fred 
Kern, and I am a Research Fishery Biologist at the NOAA 
Cooperative Laboratory in Oxford, Maryland. I must point out it 
is located in one gem of a Congressional District.
    Mr. Gilchrest. Can you say that again, sir?
    Dr. Kern. It is located in one gem of a Congressional 
District.
    Mr. Gilchrest. Oh. Thank you.
    Dr. Kern. Most recently the Chesapeake Bay Program panel, 
ad hoc panel, reviewed the findings of the NRC report and 
reported to the Chesapeake Bay Program and to the Norfolk 
District of the Army Corps of Engineers on how the NRC 
recommendations would affect the current permit of the Virginia 
Seafood Council to carry out its experimental test of triploid 
Suminoe C. ariakensis oysters.
    My comments today address NOAA's role of native oyster 
restoration and the NOAA perspective on the NRC report. On 
native oyster restoration, restoring the oyster populations in 
the Chesapeake Bay is a long-term venture. It is a job of 
immense scope.
    Historic oyster grounds in the Chesapeake Bay once 
encompassed over 400,000 acres. Recent bottom surveys of 
certain parts of the Bay suggest that oyster habitat is 
severely degraded across all but the smallest fraction of those 
historic acres. Although oyster disease and habitat degradation 
are the biggest impediments to oyster restoration, other 
factors associated with human activities and land use, such as 
high sediment rates, poor water quality, increased frequency 
and severity of freshets, are also involved.
    In the last 2 or 3 years, some large scale efforts have 
been initiated that already have begun to show signs of 
success, especially in areas of moderate salinity regimes.
    NOAA currently supports the native oyster research and 
restoration work, totaling more than $4 million annually. 
Restoration work is focused on increasing oyster substrate and 
rearing spat for placement on rehabilitated bottom habitat.
    On regional policy on the non-native species, the NRC 
report identified the lack of specific authorities to control 
non-native species introductions as a major inadequacy in the 
existing regulatory frameworks.
    Most States in the U.S. require a permit to introduce a 
non-native species, but have no specific guidelines, 
procedures, or penalties associated with intentional 
introductions. To respond to the need for regional coordination 
on non-native species introduction, the Chesapeake Bay Program 
developed the policy in 1993 amongst the participating States 
and cooperative units. Under this policy proposed new 
introductions must be submitted for review by the ad hoc panel 
comprised of representatives from State and Federal agencies as 
well as scientific experts.
    Since 1997, this ad hoc panel has reviewed several 
proposals and permits submitted by the State of Virginia. Most 
of these permits were approved, providing specific biosecurity 
requirements that were incorporated into the projects.
    Regarding NOAA support for non-native oyster research, NOAA 
Sea Grant Office and several State sea grant programs have 
funded research on the biological and ecological 
characteristics of C. gigas and C. ariakensis. The National Sea 
Grant Program continues to fund long-term genetic programs to 
develop more resistant C. virginica oysters.
    Recognizing the current need for better scientific data on 
C. ariakensis, NOAA has responded by directing 1.4 million 
toward research on the species in Fiscal Years 2002 and 2003.
    On the National Research Council report, last year NOAA 
joined several other agencies and institutions in sponsoring 
the study of non-native oyster issues by the NRC. In conducting 
the study, the NRC synthesized the available data from research 
and case studies of non-native oyster introductions around the 
globe. This synthesis represents the most comprehensive review 
of non-native oyster introductions and the consequences to 
date.
    Dr. Anderson identified the three options in which they 
were reviewed and their choice of option number two, conduct 
open water aquaculture of triploid nonindigenous oysters to 
continue the needed research to answer the questions that were 
raised in their report.
    The NRC study also calls attention to several important 
misconceptions regarding the introduction of C. ariakensis. The 
NRC found little scientific support for these myths that have 
shaped public discourse on this subject. I won't go into the 
five myths, but they should be reviewed.
    At the present time, NOAA believes that the following steps 
are necessary and appropriate for moving forward in an informed 
decision on ariakensis:
    One, develop a highly focused, short-term research plan 
that will answer the key biological and ecological questions 
identified by the NRC panel.
    Two, develop biosecurity protocols for all in-water 
deployments of triploid C. ariakensis.
    Three, clarify the proposal by Maryland and Virginia to 
introduce reproductive diploid C. ariakensis.
    And, four, perform a full risk assessment and alternative 
analysis.
    Thank you for allowing me the opportunity.
    [The prepared statement of Dr. Kern follows:]

  Statement of Frederick G. Kern, III, Acting Chief, Coastal Resource 
Health Branch, Center for Coastal Environmental Health and Biomolecular 
Research, National Centers for Coastal Ocean Science, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on recent efforts to introduce non-native oyster 
species to the Chesapeake Bay and on the National Research Council's 
report entitled ``Non-native oysters in the Chesapeake Bay.'' My name 
is Fred Kern, and I am a Research Fishery Biologist at the NOAA 
Cooperative Laboratory in Oxford, Maryland, and have been associated 
with the laboratory for more than 35 years. My research speciality 
addresses shellfish diseases, and I have represented NOAA on a variety 
of committees and panels that address issues of introducing non-native 
organisms. I have chaired the Chesapeake Bay Program's (CBP) ad hoc 
panels that review proposals by the Program's partners to introduce 
non-native oysters to the open waters of Chesapeake Bay.
    Most recently the panel reviewed the findings of the National 
Research Council's (NRC) report, ``Non-native oysters in the Chesapeake 
Bay,'' and reported to the Bay Program and the Norfolk District of the 
Army Corps of Engineers on how the NRC's recommendations would affect 
the current permit for the Virginia Seafood Council to carry out its 
experimental test of triploid Suminoe (C. ariakensis) oysters in the 
Chesapeake Bay. My comments today address NOAA's role in native oyster 
restoration and NOAA perspectives on the NRC's report.

Native Oyster Restoration
    Restoring the native oyster population in the Chesapeake Bay is a 
long-term venture. It is also a job of immense scope. Historic oyster 
grounds in the Chesapeake Bay once encompassed over 450,000 acres. 
Recent bottom surveys in certain parts of the Bay suggest that oyster 
habitat is severely degraded across all but the smallest fraction of 
those historic acres.
    The Chesapeake 2000 Agreement sets the goal of a tenfold increase 
in native oysters by 2010, relative to a 1994 baseline. It has been 
estimated that 15,000 acres must be restored to reach this goal. 
Although oyster diseases and habitat degradation are the biggest 
impediments to oyster restoration, other factors associated with human 
activities and land use--such as high sedimentation rates, poor water 
quality, and increased frequency and severity of freshets--are involved 
as well.
    Contemporary restoration efforts began in the 1990s with small 
projects that were experimental in nature. While this work provided 
significant advancements in our understanding of how to restore oyster 
habitat and ``jump start'' oyster populations by seeding rehabilitated 
bottom with hatchery spat, the scope and geographic scale of the work 
was insignificant relative to the large areas of degraded oyster 
habitat in need of rehabilitation. In the last two to three years some 
large-scale efforts have been initiated that are already beginning to 
show signs of success, especially in areas with a moderate salinity 
regime.
    NOAA currently supports native oyster research and restoration work 
totaling more than $4M annually (Table 1). Restoration work is focused 
on increasing oyster substrate and rearing spat for placement on 
rehabilitated bottom habitat. These objectives are furthered through 
funding of applied research and development of cooperative partnerships 
among federal agencies, state agencies, research institutions, and non-
profit groups. Significant funding has also been directed toward 
increasing the capacity and efficiency of hatchery production. 
Complementary oyster disease research funding continues to address 
disease vector mechanisms and management strategies, including the 
development of potentially disease-resistant strains of native oysters. 
Through cooperative projects, NOAA divers provide monitoring and 
assessment expertise to validate project results, and NOAA ship-based 
charting technology assists in identifying bottom substrate types and 
appropriate project sites.

Regional Policy on Non-Native Species
    Most states in the U.S. require a permit to introduce a non-native 
species, but have no specific guidelines, procedures, or penalties 
associated with intentional introductions. To respond to the need for 
regional coordination on non-native species introductions the 
Chesapeake Bay Program developed the ``Chesapeake Bay Policy for the 
Introduction of Non-Indigenous Aquatic Species'' in 1993. Although this 
policy is non-binding, it was approved and signed by the Governors of 
Virginia, Maryland, Pennsylvania, Delaware and West Virginia, the Mayor 
of the District of Columbia, the Administrator of EPA (representing the 
EPA as well as other federal agency partners) and the Commissioner of 
the Chesapeake Bay Commission. Under this policy, proposed 
introductions must be submitted for review by an ad hoc panel comprised 
of representatives from the state and federal agencies as well as 
scientific experts. Since 1997, this ad hoc panel has reviewed several 
proposals submitted by the State of Virginia (see attachment).

NOAA Support for Non-native Oyster Research
    The NOAA National Sea Grant Office and several state Sea Grant 
programs have funded research on the biological and ecological 
characteristics of C. gigas and C. ariakensis. National Sea Grant 
continues to fund a long-term genetic research program to develop a 
more resistant C. virginica oyster.
    Recognizing the current need for better scientific data on C. 
ariakensis, NOAA responded by directing $1.4M toward research on this 
species in Fiscal Years 2002 and 2003 (Table 1). For example, three 
research projects in FY03 were funded through NOAA's Sea Grant Oyster 
Disease Research Program. However, this Request for Proposals has a 
two-year funding cycle, and the next anticipated RFP cycle would be in 
2005.

National Research Council Report
    Last year, NOAA joined several other agencies and institutions in 
sponsoring a study of non-native oyster issues by the National Research 
Council (NRC). In conducting its study, the NRC synthesized available 
data from research and case studies of non-native oyster introductions 
around the globe. This synthesis represents the most comprehensive 
review of non-native oyster introductions and their consequences to 
date (more specific conclusions attached). I would like to highlight 
some of the study's findings.
    The NRC panel focused its study on three options:
    <bullet>  Option 1: Prohibit introduction of non-native oysters.
    <bullet>  Option 2: Conduct open water aquaculture of triploid non-
native oysters.
    <bullet>  Option 3: Introduce reproductive diploid oysters.
    The panel recommended Option 2 as an interim measure that could 
provide some immediate relief for certain segments of the oyster 
industry, as well as a way to safely study this species' biology within 
Chesapeake Bay in order to obtain the scientific data required for a 
risk assessment. Option 1 was not recommended because of the risk of a 
possible rogue introduction, which might be more likely if government 
agencies are perceived as taking no action to address the industry's 
plight. Option 3 was not recommended because ``the irreversibility of 
introducing a reproductive non-native oyster and the high level of 
uncertainty with regard to potential ecological hazards make Option 3 
an imprudent course of action.''
    The adequacy of the existing regulatory frameworks to address non-
native oyster introduction also was addressed at length in Chapter 8 of 
the NRC report. With respect to federal authority, the applicability of 
federal consistency provisions of the Coastal Zone Management Act 
(CZMA) will not apply unless there is both an application to issue a 
federal license or permit and an enforceable policy concerning the 
introduction of non-native species into state waters included in an 
affected state's federally-approved Coastal Management Program.
    The NRC study also calls attention to several important 
misconceptions regarding introduction of C. ariakensis: ``In evaluating 
the scientific evidence bearing on the potential risks and benefits of 
introducing a non-native oyster into the Chesapeake Bay, the committee 
finds relatively little scientific support for many of the common 
assumptions that have shaped public discourse on this issue.'' The 
report identifies five such ``myths.''
    <bullet>  Myth I: Declines in the oyster fishery and water quality 
can be quickly reversed.
    <bullet>  Myth II: Oyster restoration, whether native or non-
native, will dramatically improve water quality in Chesapeake Bay.
    <bullet>  Myth III: Restoration of native oyster populations has 
been tried and will not work.
    <bullet>  Myth IV: Crassostrea ariakensis will rapidly populate the 
Bay, increasing oyster landings and improving water quality.
    <bullet>  Myth V: Aquaculture of triploid Crassostrea ariakensis 
will solve the economic problems of a devastated fishery and restore 
the ecological services once provided by the native oyster.
    NOAA endorses the NRC report and its recommendations. We find the 
report to be of the highest scientific caliber. NOAA also concurs with 
the NRC's conclusion that there is not adequate scientific information 
about Crassostrea ariakensis to support a full risk assessment at this 
time. As the Nation's ocean and coastal science agency, NOAA is 
committed to supporting the research needed to better inform this 
important decision.

Next Steps
    At the present time, NOAA believes the following steps are 
necessary and appropriate for moving forward to achieve an informed 
decision on C. ariakensis. The first three steps can be taken 
simultaneously; however, NOAA believes the fourth step is dependent 
upon completion of the first three.
    1.  Develop a highly focused, short-term research plan that will 
answer the key biological and ecological questions identified by the 
NRC panel. NOAA has recommended that the Scientific and Technical 
Advisory Committee (STAC) of the Bay Program develop this plan. STAC 
has indicated willingness to undertake this task. With adequate 
resources, STAC could produce the research plan over the course of a 
few months. NOAA stands ready to coordinate the implementation of this 
plan across multiple academic institutions and research facilities as 
soon as it is completed.
    2.  Develop biosecurity protocols for all in-water deployments of 
triploid C. ariakensis, including both research and industry 
aquaculture. As recommended by the NRC panel, these protocols should be 
patterned after the Hazard Analysis Critical Control Point (HACCP) 
approach currently used in the field of food safety, and should include 
the ten points listed in the NRC report. We have begun working with our 
federal agency partners and NOAA's national and state Sea Grant 
programs to facilitate the formation of a panel of national experts on 
the topic of biosecurity to accomplish this step.
    3.  Clarify the proposal by Maryland and Virginia to introduce 
reproductive diploid C. ariakensis.
    4.  Perform a full risk assessment and alternatives analysis. The 
federal and state agencies involved (ACOE, NOAA, EPA, USFWS, MD, and 
VA) have agreed to cooperate in preparing an Environmental Impact 
Statement (EIS) to address the States' joint proposal. NOAA looks 
forward to serving as a Cooperating Agency on this EIS. We suggest this 
effort move forward by initially addressing the alternatives, with 
comprehensive risk assessment to follow at a later date when sufficient 
scientific information becomes available.
    This concludes my testimony. I would like to thank the Chairman and 
the Members of the Subcommittee for giving me the opportunity to 
testify today. I would be happy to answer any questions you may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9844.001
                                 
    Mr. Gilchrest. Thank you, Dr. Kern. Dr. Boesch.

         STATEMENT OF DR. DONALD F. BOESCH, PRESIDENT, 
    UNIVERSITY OF MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE

    Dr. Boesch. Chairman Gilchrest, thank you for the 
opportunity to address you today on the important issue of the 
Chesapeake Bay and oysters, the very species for which this 
great estuary was named.
    I head the University of Maryland Center for Environmental 
Science, an organization that has developed science for living 
resource management for 78 years now. We have worked on oyster 
biology and conservation from the very start. In fact, science 
has mingled with oyster management for even longer periods of 
time, going back into the 19th century with Professor Brooks at 
Johns Hopkins. Unfortunately, had the science findings and 
recommendations of our ancestor scientists been heeded we might 
not be here today.
    But here we are. We are faced with this well-considered 
recommendation of the National Research Council panel. My 
colleagues and I stand ready to work with the State and Federal 
agencies and the stakeholders in addressing the questions 
raised by the NRC report in a careful and credible way.
    The University of Maryland Center for Environmental Science 
has been at the forefront of efforts to restore populations and 
habitat of the native eastern oyster since 1994. Dr. Kern 
referred to the NOAA sponsorship of those efforts. Our 
scientists developed the scientific theory behind the key 
element of the Maryland Oyster Roundtable action plan, which 
designates oyster recovery areas into which the importation of 
diseased oysters is restricted and in which active rebuilding 
of reefs is pursued.
    Scientists for the Maryland Department of National 
Resources and watermen have learned much in the process, 
leading to management approaches that avoid worsening the 
spread of the Dermo disease, establish permanent oyster 
sanctuaries and seed oyster reserves in which harvest is 
eventually allowed.
    These efforts have been locally successful in areas in 
which the other oyster disease, MSX, does not occur. In this 
regard, we are more fortunate than in Virginia in that we have 
extensive areas of low salinity habitat in Maryland, which is 
only threatened by MSX in occasional dry years. Rates of 
acquisition of Dermo disease by disease free young oysters 
planted on fresh shell beds are greatly reduced compared to 
other areas in which oyster production is supplemented by 
repletion of naturally occurring, but disease carrying oysters. 
The growth rates on these restored oyster bars have ranged from 
an inch to an inch-and-a-half per year. The oysters grow 
vertically, providing home to substantially greater populations 
of associated animals.
    The accompanying photograph, which I have attached to my 
testimony, shows 5-year-old oysters in the Chester River, 
growing in the Chester River from a reef restored by the Army 
Corps of Engineers in 1997 and 1998. What you will see is a 
dense colony of oysters, each five or more inches long, at a 
density of 100 to 400 per square meter.
    The efforts to restore the native oysters, Eastern oysters, 
have been successful, as I said, only on a local scale. Disease 
mortality at high salinities remains a problem, and the scale 
of the restoration effort to date has been modest compared to 
the scale of the problem. The successes that we have realized, 
however, would have not been possible without the greatly 
expanded production of disease-free spat at the Center's oyster 
culture facility at our Horn Point Laboratory. We have doubled 
the production each year, with over 150 million spat-on-shell 
produced in 2003.
    The just opening Aquaculture and Restoration Ecology 
Laboratory, which we hope, Congressman, you will visit soon, it 
is just about to open, at Horn Point, which is also located in 
the First Congressional District, will greatly increase our 
capacity as we work together with the Oyster Recovery 
Partnership, an amazing organization that does all of the heavy 
lifting, both literally and figuratively, and the Maryland 
Department of Natural Resources, the Corps of Engineers, and 
NOAA. The new laboratory facility also has unique quarantine 
facilities that will allow our scientists to work on oyster 
diseases in non-native oyster species under near natural 
conditions without the risk of accidental introduction.
    The previous speakers have commented on scientific and 
management issues related to the Suminoe oysters as addressed 
in the NRC report. I will not say much more about that, other 
than to indicate that my colleagues and I are committed to 
responsible and probing research on the key questions 
identified in the NRC report under appropriate levels of 
biosecurity.
    Working together with Dr. Allen and his colleagues at 
Virginia Institute of Marine Science, we have already begun 
some of this research, and look forward to working with 
responsible agencies and scientists throughout the region as 
the challenging questions of introduction is addressed.
    Thank you.
    [The prepared statement of Dr. Boesch follows:]

Statement of Donald F. Boesch, Ph.D., President, University of Maryland 
         Center for Environmental Science, Cambridge, Maryland

    Chairman Gilchrest and members of the Subcommittee, thank you for 
the opportunity to address you today on the important issue of the 
Chesapeake Bay and oysters--the very species for which this great 
estuary was named.
    I head the University of Maryland Center for Environmental Science, 
an organization that has developed science for living resource 
management for 78 years now. We have worked on oyster biology and 
conservation from the very start--in fact, science has mixed with 
oyster management even before that extending to the days of Professor 
Brooks at Johns Hopkins University. Unfortunately, had all of the 
scientific findings and recommendations been heeded we would not be in 
the predicament we are today. But here we are, with a fresh set of 
well-considered recommendations from the National Research Council. My 
colleagues and I stand ready to work with state and federal agencies 
and the stakeholders in addressing the questions raised in the NRC 
report in a careful and credible way.
    The University of Maryland Center for Environmental Science has 
been at the forefront of efforts to restore populations and habitats of 
the native Eastern Oyster since 1994. Our scientists developed the 
scientific theory behind the key element of the Maryland Oyster 
Roundtable action plan, which designates Oyster Recovery Areas into 
which the importation of diseased oysters is restricted and in which 
active rebuilding of reefs is pursued. Scientists, the Maryland 
Department of Natural Resources, and watermen have learned much in the 
process, leading to management approaches that avoid worsening the 
spread of the Dermo disease, establish permanent oyster sanctuaries, 
and seed oyster reserves in which harvest is eventually allowed.
    These efforts have been locally successful in areas in which the 
other oyster disease, MSX, does not occur. In this regard we are more 
fortunate than in Virginia in that we have extensive areas of low-
salinity habitat, which is only threatened by MSX during occasional dry 
years. Rates of acquisition of Dermo disease by disease-free young 
oysters planted on fresh shell beds are greatly reduced compared to 
other areas in which oyster production is supplemented by repletion of 
naturally occurring, but disease-carrying seed oysters. Growth rates on 
these restored oyster bars range from an inch to an inch-and-a-half per 
year. The oysters grow vertically producing the complex structure of a 
natural reef, providing home to substantially greater populations of 
associated animals. The accompanying photograph shows five-year-old 
oysters from a reef restored by the Army Corps of Engineers in 1997 and 
1998. What you see is a dense colony of five-year-old oysters, each 
five or more inches long and at a density of 100 to 400 per square 
meter.
    The efforts to restore native Eastern Oysters have been successful 
on only a local scale at this point. Disease mortality at higher 
salinities remains a problem and the scale of the restoration effort 
has to date been modest. The successes that have been realized, 
however, would have not been possible without the greatly expanded 
production of disease-free spat by the Center's oyster culture facility 
at our Horn Point Laboratory. We have doubled production each year, 
with over 150 million spat-on-shell produced in 2003. The just opening 
Aquaculture and Restoration Ecology Laboratory at Horn Point will 
greatly increase our capacity as we work together with the Oyster 
Recovery Partnership--an amazing organization that does all the heavy 
lifting, both literally and figuratively--and the Department of Natural 
Resources, Corps of Engineers and NOAA. The new laboratory facility 
also has unique quarantine facilities that will allow our scientists to 
work on oyster diseases and non-native oyster species under near-
natural conditions without the risk of accidental introductions.
    The previous speakers have commented on scientific and management 
issues related to the Suminoe oyster. I will not say much more other 
than to indicate that my colleagues and I are committed to responsible 
and probing research on the key questions identified in the NRC report. 
We have already begun some of this research and look forward to working 
with the responsible agencies and scientists in other states as the 
challenging question of introduction is addressed.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Boesch. Dr. Allen.

      STATEMENT OF DR. STANDISH K. ALLEN, JR., PROFESSOR, 
              VIRGINIA INSTITUTE OF MARINE SCIENCE

    Dr. Allen. Good morning. I would like to move forward with 
this from this NRC report. So my testimony focuses on the scope 
of use of these so-called sterile or triploid  ariakensis in 
the Chesapeake Bay. That is, within the recommendation to 
deploy diploids only by the NRC report, there is a wide scope 
of possible activity with varying levels of attendant risk. In 
general, the more valuable the information sought for research 
or aquaculture, the larger the risk, even using triploids. At 
the current level of risk aversion in the community, that is, 
extremely risk averse, the level of useful information is 
potentially low for both research and aquaculture.
    Full assessment of the biological and ecological characters 
of C. ariakensis.
    Mr. Gilchrest. I am sorry, Dr. Allen,  I don't mean to 
interrupt, but I just want to make sure I understood your last 
statement.
    The recommendation from NRC, which I think is number two, 
you are saying would not be very helpful in understanding 
this--the process of using ariakensis in the Chesapeake Bay and 
its ramifications?
    Dr. Allen. My thesis is that there is a tremendous range of 
things that we can do under this particular recommendation, and 
I intend to amplify that range. I am saying that if we limit 
the range extraordinarily through restrictions on trials, then 
the information we are capable of gaining are consequently 
limited, and the information we can gain from it. Let me try to 
expand.
    Mr. Gilchrest. Thank you.
    Dr. Allen. Clearly the biological and ecological characters 
of C. ariakensis are difficult to evaluate. It is made all of 
the more difficult by the Catch-22 of intentional 
introductions, which is that you can't know the true impact of 
an introduction until you have actually made it, and you can't 
make an introduction until you can predict the environmental 
impact.
    In the case of shellfish introductions of the past, a full 
evaluation, at least an ecological one, was absent. 
Introduction was primarily based on economic considerations. 
For the most part, and as reviewed by the NRC report, these 
introductions became economically important and generally 
ecological innocuous. But we are in a different era now, one 
more cognizant of the downside of introduced and non-native 
species. We are also in a different era of technology vis-a-vis 
shellfish genetics, which allows us to take an intermediate 
course between no introduction and complete introduction. That 
intermediate course invokes the use of triploids as a tool for 
ecological and economic evaluation of non-native introduction 
so that it is not irreversible.
    In my testimony, written testimony, I summarize the major 
research recommendations by NRC and suggested approaches for 
their empirical determination. More than half of the issues 
that need attention can be addressed by using sterile progeny 
in the field as a proxy for diploids.
    Answers to research and other categories requires some 
aspect of reproductive biology to be fully operational, such as 
reproductive output in various environments or recruitment 
dynamics. Some research can be limited to laboratory work, with 
the rather large caveat that lab studies cannot always be 
extrapolated to relevance in the field. Some research, like 
evaluation of population genetics, is completely doable in the 
lab.
    The NRC report clearly indicates that adoption of a careful 
approach to open water triploid aquaculture should be 
considered an interim action to provide researchers an 
opportunity to obtain critical data on non-native oysters for 
risk assessment. I am not sure that the report envisioned the 
full potential of triploid experiments for this purpose.
    It seems to me that they framed the recommendation for open 
water aquaculture on, quote, the inclusion of parallel 
ecological experiments designed to generate information 
critical to evaluating the risks that triploids won't lead to 
diploid population, unquote.
    More directed ecological research, not necessarily 
resembling or associated with commercial aquaculture, is 
possible; that is, there is a range of experiments that could 
be designed using triploids that have no relationship to how 
triploids may be grown in commercial aquaculture.
    Envision an experiment designed to test the ecological 
function of C. ariakensis reefs, for example. Hatchery 
production of culch could be produced and placed into one or 
more estuaries with or without C. virginica interspersed and 
community structure examined over the course of several years. 
New year classes of triploids could be, quote-unquote, 
recruited to the reef by subsequent hatchery spawns and 
deployment, all of the while obviating colonization, or at 
least decreasing its risk to diminutive levels for the sake of 
gaining the information.
    Such creative experiments using triploid, not diploid, C. 
ariakensis could be enormously instructive. While research with 
triploids is highly promising as an alternative to diploid 
studies, it is not risk free. At the present time, however, it 
is my opinion that the regulatory environment is too risk 
averse to entertain anything other than highly restrictive 
trials.
    As in research, there is a tremendous opportunity to learn 
of the economic potential of aquaculture by a slightly less 
risk averse environment. For example, deployment on-bottom with 
triploids that could be dredged at market size would yield 
information on the viability of this species to standard 
practices in use for C. virginica. It would yield information 
on the hardiness of this species for fisheries use, 
anticipating the possibility of a diploid introduction for 
fisheries purposes. On-bottom trials could indicate the 
feasibility of extensive repletion aquaculture, already 
practiced by the State of Maryland, of triploids. More 
interestingly, trials of this sort, carefully integrated with 
scientists, could yield fishery, aquaculture and ecological 
data simultaneously, but not without some risk.
    Currently VIMS is embarked on a unique collaboration with 
the industry, the Army Corps of Engineers, Virginia's Center of 
Innovative Technology, and the Virginia Marine Resources 
Commission in a comprehensive trial of about 1 million triploid 
C. ariakensis.
    In short, scientific evaluation of reproduction, disease 
incidence, reversion, comparative growth and economic impact 
have been coupled with the commercial scale trials of 
triploids. I have suggested some avenues of integrated research 
above. It would be helpful to encourage such programs as well 
as finding mechanisms to enable interstate collaboration among 
Virginia, Maryland and North Carolina, by providing resources 
and allowing reasonable levels of risk.
    Thank you very much.
    [The prepared statement of Dr. Allen follows:]

Statement of Standish K. Allen, Jr., Director, Aquaculture Genetics and 
   Breeding Technology Center, Professor of Marine Science, Virginia 
        Institute of Marine Science, College of William and Mary

Thesis of this Testimony
    Recently the National Research Council (NRC) of the National 
Academy of Sciences released their report ``Non-native Oysters in the 
Chesapeake Bay.'' In it was a thorough analysis of existing data for C. 
ariakensis and recommendations for specific research needs. The report 
also evaluated three management options for C. ariakensis given the 
breadth and quality of existing research on this species. The three 
options were: (1) no use of non-native oysters; (2) open water 
aquaculture of triploid oysters; and (3) introduction of reproductive 
diploid oysters.
    Of these three choices, the report concluded that ``[T]he risks of 
proceeding with triploid aquaculture in a responsible manner, using 
best management practices, are low relative to some of the risks posed 
under the other management options.''
    They went on to indicate that contained aquaculture of triploid C. 
ariakensis provided an opportunity to further evaluate the risk of 
introducing non-natives by serving as a proxy for the reproductive form 
of the oyster. Contained aquaculture of triploids also allows 
exploration of the potential for extensive triploid-based aquaculture.
    My testimony focuses on the scope of use for triploid C. ariakensis 
in the Chesapeake Bay. That is, within the recommendation to deploy 
triploids only, there is a wide scope of possible activity with varying 
levels of attendant risks. In general, the more valuable the 
information sought for research or aquaculture, the larger the risks, 
even using triploids. At the current level of risk aversion in the 
community (i.e., extremely risk averse), the level of useful 
information is potentially low for both research and aquaculture.
Statement of conflict of interest
    I share co-authorship of a patent on tetraploid technology obtained 
in my previous appointment at Rutgers University. The patent was 
obtained because of the broad utility of tetraploids in shellfish 
aquaculture and before its application to the current situation (i.e., 
before the development and application of tetraploidy to C. ariakensis) 
in Chesapeake Bay.

Brief background on triploidy in C. ariakensis
    Field research on the Asian (Suminoe) oyster, C. ariakensis, began 
in 1998 at the Virginia Institute of Marine Science (VIMS) in response 
to a resolution from the Virginia Legislature to initiate 
investigations on alternative species. All field trials have employed 
sterile triploids. Initial research indicated promising performance in 
C. ariakensis in a variety of salinities for growth and disease 
resistance (Calvo et al., 2001). Research on this species is still 
ongoing at VIMS. With harvests of C. virginica at record lows, there is 
intense pressure to submit to the introduction of this non-native 
species. VIMS, and specifically the Aquaculture Genetics and Breeding 
Technology Center (ABC), has been working on options for the use of C. 
ariakensis in a non-reproductive form: We have developed the technology 
for creating 100% sterile triploids in anticipation C. ariakensis might 
be useful in research, grown in commercial aquaculture, or both.
    Triploid aquaculture is enabled by the development of tetraploid 
oysters (Guo and Allen 1994b). Tetraploids have four sets of 
chromosomes. Since the complement of chromosomes in a tetraploid is 
divisible by two, which is essentially what meiosis accomplishes during 
gamete formation, tetraploids are fertile. Moreover, gametes produced 
from tetraploids contain two sets of chromosomes. (Normal reproduction 
in diploids yields gametes with a single set of chromosomes.) 
Therefore, one highly efficient method of making triploid oysters is to 
breed tetraploids with diploids in the hatchery (Guo et al. 1996). 
Triploids created in this way are referred to as genetic triploids. The 
major manifestation of triploidy in oysters is the disruption of normal 
reproductive physiology, rendering triploids functionally sterile 
(Allen, 1986; Allen and Downing, 1990; Guo and Allen, 1994a; Erskine, 
2003).
    Despite the effectiveness of creating triploids using tetraploids, 
the process is not perfect. There are three aspects of the biology of 
triploids that engender some risk for establishing reproductive 
populations.

Fertility--Triploids produce gametes but are generally considered 
        sterile
    Reproductive potential of triploid Crassostrea gigas has been 
studied extensively for a number of reasons, ranging from documentation 
of their sterility for commercial purposes (Allen and Downing, 1990) to 
estimation of their reproductive capacity for population control (Guo 
and Allen, 1994a). Estimation of reproductive likelihood in triploid 
oysters was not quite as simple as the case for fish (cf. Allen et al., 
1986). Triploid Pacific oysters do, in fact, make significant numbers 
of eggs and sperm (Allen and Downing, 1990). However, it is fair to 
say--based on the principals of meiosis generally and the information 
we have specifically from Pacific oysters--that triploidy will be 
similarly effective as a reproductive control measure for C. 
ariakensis.
    Our analysis of reproductive potential of triploid Pacific oyster 
revealed that although gametes from triploids were fully capable of 
fertilization, aneuploid progeny resulted (Guo and Allen, 1994a). When 
triploids were crossed with themselves, the ploidy of resulting embryos 
was 2.88n on average, that is, hypotriploid. Survival of fertilized 
eggs to metamorphosis and settlement was only about 0.0085%. More 
recent data showed that triploid males are about 1000-fold less fecund 
than diploid males; triploid females about 20 times less fecund. So, 
although triploid oysters are not sterile in terms of gamete 
production, their reproductive potential is extremely low, by all 
practical measures, 0.

Fidelity``100%'' triploids
    Until recently, the production of spawns of 100% triploids seemed 
all but impossible. This is because the state of the art for making 
triploids involved an induction procedure in which the newly fertilized 
egg is poisoned with an antibiotic, usually cytochalasin B (CB), to 
cause the failure of cytokinesis during the elimination of the second 
polar body (PB2) (Allen et al., 1989). The chromosome contained in the 
polar body contributes the third chromosome set to the embryo. Because 
the treatment (whether CB or anything else) has to be coordinated with 
the elimination of the second polar body and because PB2 elimination in 
a population of newly fertilized eggs is subject to inherent variation, 
some eggs escape treatment and remain diploid. This imprecision gives 
rise to broods of oysters with varying proportions of triploids. For 
perfect biological containment, pure triploid populations are 
necessary.
    In summer of 1993, Dr. Ximing Guo and I were successful in creating 
the first viable tetraploid bivalves, specifically C. gigas (Guo and 
Allen, 1994b). Tetraploids, crossed to diploids, are very effective in 
producing large numbers of pure triploids. Fecundity of tetraploid 
females seems relatively high, only slightly lower than diploids (Guo 
et al., 1996). Fecundity of males is sufficient to fertilize about 50 
million eggs with a single 2-3'' male. Survival of 4n x 2n crosses 
(both reciprocals) in the larval stage were at least as high as the 
diploid controls, and two orders of magnitude higher than triploids 
produced by standard induction procedures. These initial data indicate 
that it is feasible to create 100% triploids using a tetraploid 
breeding population.
    Since this work on C. gigas, subsequent work at VIMS has shown that 
the production of triploids is not exactly 100%. In a 2000 year class 
of ``100%'' triploids for industry trials in Virginia, 4 diploid 
(normally reproductive) oysters were found among about 3400 examined 
(0.12%). Two spawns in 2003 indicated 4 diploids among 3000 (0.13%) and 
2 diploids among 3004 examined (0.07%). Thus as a general rule, we can 
say that ``100%'' triploid spawns to date are actually about 99.9% 
triploid. While this is still very good, say, compared to induced 
triploids, it is not perfect. Furthermore, when even a very low 
probability of diploid occurrence is multiplied by large numbers of 
oysters--e.g., 1,000,00 or 100,000,000--substantial numbers of normal 
diploids can obtain (see below).

[GRAPHIC] [TIFF OMITTED] T9844.002


Stability--reversion and mosaics
    Certified triploid C, gigas were deployed in Delaware and 
Chesapeake Bays in 1993. After about 9 months of exposure, we found a 
relatively high proportion of mosaics--that is, oysters with both 
diploid and triploid cells in the somatic tissue--among our triploid 
oysters. The occurrence of mosaics themselves is not particularly 
surprising since the triploid induction process (then based on 
induction) effectively poisons newly dividing embryos. Abnormal 
progeny, such as mosaic individuals with two cell types, might be 
expected as a matter of course.
    The surprising result was that the frequency of mosaics in several 
triploid populations increased over time, suggesting that some 
triploids have a tendency to lose chromosome sets. We have called this 
process reversion.
    The classic definition of mosaicism is the presence of two or more 
cell types in the same organism. In our case, it is the presence of 
triploid and some other cell type(s) within the same oyster. This other 
cell type is generally diploid, although (i) whether or not the 
``diploid'' cells contain balanced sets of chromosomes is unknown; (ii) 
there can be more than one other cell type, as has been recently found 
in our lab among tetraploid oysters; and (iii) some mosaic conditions, 
like that found in the gonad of triploids, is natural because of the 
process of meiosis. The presence of mosaics among triploid populations 
is generally unappreciated for two major reasons. First, it requires 
some level of sophistication in ploidy analysis, for example, flow 
cytometry (FCM), to find mosaics. With FCM, the frequency distribution 
histograms of mosaics appear as distinct ploidy types, usually triploid 
and something else. The second reason mosaics have gone unnoticed is 
that they generally occur in very low frequency (e.g., 5%), although if 
sample size is large enough they always seem to be found.
    In recent evaluations of populations of triploids, both induced and 
genetic, shows that the process of reversion is quite slow, taking a 
year or so to begin affecting the population (Zhou, 2002). The process 
is progressive, however, such that populations of triploids left for 
longer periods of time produce more and more mosaics. The frequency of 
mosaics ranges from 2-5% in the first year, perhaps reaching about 10% 
by year three. The frequency of reversion in genetic triploids is about 
1/3 that of induced triploids. The salient risk in the process of 
reversion is whether or not the ``unstable'' triploids will eventually 
yield reproducing oysters. To date, there has been no evidence that 
normal reproduction occurs in mosaics. This risk is especially low in 
animals less than, or equal to, typical market size (3'') (Chandler et 
al, 1999).

Application of triploidy to recommendations by the National Research 
        Council report
Application to research
    Full assessment of the biological and ecological characters of C. 
ariakensis for the purpose of evaluating the risk of introduction is 
clearly a difficult task. It is made all the more difficult by the 
Catch-22 of intentional introductions: You can't know the true impact 
of an introduction until you have actually made it; you can't make an 
introduction until you can predict the environmental impact. In the 
case of shellfish introductions of the past, a full evaluation--at 
least an ecological one--was absent. Introduction was primarily based 
on economic considerations. For the most part, and as reviewed in the 
NRC report, these introductions became economically important and 
generally ecologically innocuous.
    But we are in a different era now, one more cognizant of the 
downside of introduced and non-native species. We are also in a 
different era of technology, vis a vis shellfish genetics, which allows 
us to take an intermediate course between ``no introduction'' and 
``complete introduction.'' That intermediate course invokes the use of 
triploids as a tool for ecological and economic evaluation of non-
native introduction before it is irreversible.
    The table below summarizes the major research recommendations made 
by NRC and suggested approaches for their empirical determination. More 
than half of the issues that need attention can be addressed by using 
sterile (triploid) progeny in the field as a proxy for diploids. 
Answers to research in other categories require some aspect of 
reproductive biology to be fully operational, such as reproductive 
output in various environments or recruitment dynamics. Other research 
can be limited to laboratory work, with the rather large caveat that 
lab studies cannot always be extrapolated to relevance in the field. 
And some research, like evaluation of population genetics of the 
species, is completely doable in the lab.

[GRAPHIC] [TIFF OMITTED] T9844.003


    The NRC report clearly indicated that adoption of a careful 
approach to open water triploid aquaculture should be considered an 
interim action to provide researchers an opportunity to obtain critical 
data on non-native oysters for risk assessment. I'm not sure that the 
report envisioned the full potential of triploid experiments for this 
purpose. It seems to me that they framed the recommendation for open 
water aquaculture on the ``inclusion of parallel ecological experiments 
designed to generate information critical to evaluating the risk that 
triploid aquaculture will eventually produce a diploid population.'' 
More directed ecological research, not necessarily resembling or 
associated with commercial aquaculture, is possible. That is, there is 
a range of experiments that could be designed using triploids that have 
no relationship to how triploids may be grown in commercial 
aquaculture.
    Envision an experiment designed to test the ecological function of 
a C. ariakensis reef, for example. Hatchery produced spat on cultch 
could be produced and placed into one or more estuaries, with or 
without C. virginica interspersed, and community structure examined 
over the course of several years. New year classes of triploids could 
be ``recruited'' to the reef by subsequent hatchery spawns and 
deployment, all the while obviating colonization, or at least 
decreasing its risk to diminutive levels for the sake of gaining the 
information. Such creative experiments using triploid, not diploid, C. 
ariakensis could be enormously instructive.
    While research with triploids is highly promising as an alternative 
to diploid studies, it is not risk free. (The risk of reproduction 
among triploids was briefly discussed above.) At the present time, 
however, it is my opinion that the regulatory environment is too risk 
averse to entertain anything other than highly restrictive trials. 
Perhaps that stems in part from the NSC report's admonition that 
``stringent regulations will be necessary to ensure that aquaculture of 
triploid C. ariakensis does not result in the establishment of a self-
reproducing population...'' Ensure is a powerful word.
Application to aquaculture
    In fact, the NRC report used a number of descriptors to describe 
the scope of aquaculture recommended by the panel: they include 
``ensure,'' ``contained,'' ``confined,'' ``careful,'' ``responsible,'' 
and ``open water.'' Depending on interpretation, these terms could 
entail different levels of risk (see below). How do we define that 
level? What is reasonable? What is acceptable?

[GRAPHIC] [TIFF OMITTED] T9844.004


    For the industry aquaculture trials recently approved in Virginia, 
the level of permissibility has been to ``ensure''--ensure that 
aquaculture does not result in a self-sustaining population. In 
addition to the conditions placed on the growers themselves, which 
includes double containment of oysters, bonding, and additional 
investments, there has been a host of other conditions placed on the 
trial that can only be satisfied with stringent sampling regimes 
accomplished by researchers, in this case VIMS. At this phase in the 
evolution of C. ariakensis trials, these provisions seem appropriate. 
However, it is probably unreasonable to think that this level of 
restriction on aquaculture can yield meaningful economic data, other 
than marketing information. That is to say, the expense to growers for 
raising oysters greatly exceeds what might be expected with lesser 
restriction. With highly restrictive aquaculture, it will be impossible 
to show economies of scale that would accrue if there were, for 
example, no restrictions. In short, it will be difficult to realize the 
considerable economic potential of this species.
    No one expects ``no restrictions,'' for the time being, but there 
seem to have been some expectations in the NRC report for limited 
success in aquaculture. They listed some of the benefits of open water 
aquaculture as determining viability of aquaculture, aquaculture 
employment, and retention of fishery benefits to the Bay. So, which of 
the descriptors (i.e., what levels of risk) apply to these expectations 
and how open water can open water aquaculture be?
    As in research, there are tremendous opportunities to learn of the 
economic potential of aquaculture by a slightly less risk averse 
environment. For example, deployment on-bottom with triploids that 
could be dredged at market size would yield information on the 
viability of this species to standard practices in use for C. 
virginica. It would yield information on the heartiness of this species 
for fisheries use, anticipating the possibility of a diploid 
introduction for fisheries purposes. After all, there is a general 
assumption that the introduction of this oyster will provide a similar 
fishery to C. virginica. On bottom trials could indicate the 
feasibility of extensive, repletion aquaculture--already practiced by 
the State of Maryland--of triploids. An on-bottom trial might yield 
information on density dependent growth. More interestingly, trials of 
this sort, carefully (Is this what the NRC report meant by this word?) 
integrated with scientists, could yield fishery, aquaculture and 
ecological data simultaneously--but not without some risk.
The ``H-bomb'' effect
    It seems that one of the tacit assumptions among those who 
enthusiastically oppose non-native trials is what I call the ``H-bomb 
view'' of risk. There seems to be a feeling that any reproduction at 
all stemming from open water aquaculture is the ``big one,'' the final 
consequence. But in fact, reproduction episodes stemming from triploid 
trials (or for that matter, open water triploid aquaculture) will be 
much more gradual and are not necessarily cataclysmic. What might 
happen if there was some reproduction as a consequence of research or 
commercial aquaculture?
    For one thing, recruitment likely would be severely hampered by 
impediments to colonization (the NRC reports calls it ``barriers to 
successful introduction'') such as, water quality, lack of substrate, 
sedimentation, habitat loss, and suitability of C. ariakensis to 
Chesapeake Bay. If populations did establish, what is likely to be 
their size, considering that triploids were used and security was 
breached by a potentially very small number of individuals? Would not 
the very process of ``escape'' give rise to research opportunities? Are 
reproduction episodes truly un-eradicable? Could eradication be favored 
with careful placement of these trials in specific estuaries? If 
eradication was ``ensured,'' could small populations of diploids be 
used to gather data?

Integration of research and commercial trials
    I bring up these issues because the need to understand the risks 
and benefits--for fisheries and aquaculture--probably is going to 
involve the need for more aggressive trials yielding critical data in a 
timely fashion. Perhaps it is time to pay serious attention to well-
integrated programs.
    Currently, VIMS is embarked on a unique collaboration with the 
industry, the Army Corps of Engineers, Virginia's Center for Innovative 
Technology and the Virginia Marine Resources Commission in a 
comprehensive trial of about 1,000,000 triploid C. ariakensis. In 
short, scientific evaluation of reproduction, disease incidence, 
reversion, comparative growth (with triploid C. virginica), and 
economic potential have been coupled with the commercial scale trials 
of triploids. I have suggested some other avenues of ``integrated'' 
research above. It would be helpful to encourage such programs, as well 
as finding mechanisms to enable interstate collaboration among 
Virginia, Maryland and North Carolina, by providing resources and 
allowing reasonable levels of risk.

References
Allen, Jr., S.K. 1986. Gametogenesis in three species of triploid 
        shellfish: Mya arenaria, Crassostrea gigas, and C. virginica. 
        In K. Tiews (ed.) Selection, Hybridization and Genetic 
        Engineering in Aquaculture, Proceedings of a World Symposium, 
        Schriften der Bundesforschungsanstalt fur Fischerei Hamburg 
        Band 18/19, Berlin.
Allen, Jr., S.K., Downing, S.L., and Chew, K.K. 1989. Hatchery Manual 
        for Producing Triploid Oysters. University of Washington Press, 
        27 pp.
Allen, S.K., Jr., and S.L. Downing. 1990. Performance of triploid 
        Pacific oysters, Crassostrea gigas: gametogenesis. Can. J. 
        Fish. Aquat. Sci. 47: 1213-1222.
Calvo, G.W., M.W. Luckenbach, S.K. Allen, Jr., and E.M. Burreson. 2001. 
        Comparative field study of Crassostrea ariakensis (Thunberg, 
        1793) and Crassostrea virginica (Gmelin, 1791) in relation to 
        salinity in Virginia. J. Shellfish. Res. 20: 221-229.
Chandler, W., A. Howe and S.K. Allen Jr. 1999. Mosaicism of somatic and 
        gametic tissues in Crassostrea gigas and C. ariakensis. J. 
        Shellfish Res., 18: 29 (abstract).
Erskine, A.J. 2003. Gametogenesis in genetic triploid C. ariakensis. 
        M.S. Thesis, Virginia Institute of Marine Science, 129 pp.
Guo, X. and S.K. Allen, Jr. 1994a. Reproductive potential and genetics 
        of triploid Pacific oysters, Crassostrea gigas. Biol. Bull. 
        187: 309-318.
Guo, X. and S.K. Allen, Jr. 1994b. Viable tetraploid in the Pacific 
        oyster (Crassostrea gigas Thunberg) produced by inhibiting PB I 
        in eggs from triploids. Mol. Mar. Biol. Biotechnol. 3: 42-50.
Guo, X., G.A. DeBrosse, and S.K. Allen, Jr. 1996. All-triploid Pacific 
        oysters (Crassostrea gigas Thunberg) produced by mating 
        tetraploids and diploids. Aquaculture 142: 149-161.
Zhou, M. 2002. Chromosome set instability in 1-2 year old triploid 
        Crassostrea ariakensis in multiple environments. M.S. Thesis, 
        Virginia Institute of Marine Science, 69 pp.'
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Allen. In your proposal, your 
scope of research, based on the National Research Council's 
recommendations, do you have a timeframe for understanding some 
of the critical questions as far as pathogens are concerned, 
and whether or not these  ariakensis will become invasive?
    Dr. Allen. Regarding the pathogen issue, we have conformed 
to a series of protocols that have been recommended by the 
International Council for the Exploration of the Seas, which is 
designed specifically to minimize or reduce as much as humanly 
possible the introduction of diseases from outside the area.
    Mr. Gilchrest. So that can be done before the triploids are 
actually put in the water?
    Dr. Allen. That has already been done, Mr. Gilchrest. We 
have practiced that in order to get the animals presently in 
the field.
    Regarding the other issue, that is the $64 million 
question, is what level of risk can we accept without allowing 
the ultimate introduction of this animal by accident? And, at 
present, we are relying on models that been produced by members 
of our faculty at VIMS, Dr. Luckenbach and Dr. Mann, to 
evaluate the likelihood that reproduction may be a by-product 
of some of these triploid trials.
    We are basically applying every tool that we have at our 
disposal to minimize these risks and still gain the 
information. I think that is the point, is we can't gain the 
information risklessly.
    Mr. Gilchrest. But at this point, so that I understand, 
VIMS is moving forward with  ariakensis to continue to use the 
triploid to evaluate its impact on whether or not it will be 
invasive and to see if it is, in fact, compatible with the 
Chesapeake Bay ecosystem and that you are not recommending a 
diploid introduction?
    Dr. Allen. VIMS's official policy on this issue, which was 
issued almost 2 years ago, is that at this time we do not 
support a diploid introduction, but that triploid aquaculture, 
carefully designed to gather information, can be fostered with 
the use of biosecurity. It is basically parallel to what the 
NRC report said.
    Mr. Gilchrest. Is your goal, then, to refine a triploid 
introduction to be solely used for aquaculture, or is part of 
your goal to see whether or not ariakensis can be compatible 
with the ecosystem so eventually the diploid oysters would be 
introduced?
    Dr. Allen. The goal of the current research that we are 
embarked on is to develop this triploid aquaculture idea to its 
fullest potential and reduce the risk as much as possible. I 
don't think it is for one institute or another to say 
unilaterally that this is a good thing for introduction.
    We have already said that diploids are not appropriate at 
this time, and we would, I am sure, join in the research to 
evaluate that, given the appropriate resources. But our goal 
right now is specifically to try to focus on the industry 
problem of lack of resources and to provide an alternative 
while not making an introduction at the same time, which is a 
big task, but we are making some progress in that way.
    Mr. Gilchrest. So at this point you are not involved in 
research determining whether ariakensis as a diploid 
introduction would be invasive?
    Dr. Allen. My lab personally is not. But the other members 
of VIMS, particularly Mark Luckenbach, who directs the Eastern 
Shore lab, has been working in that arena as well. But it is 
basically a question of limitation of resources. We are 
applying precious State funds to do what work is available at 
the present time.
    Mr. Gilchrest. Do you have a timeframe for when your 
research will have some final conclusions so that ariakensis 
triploid aquaculture can go full steam ahead in Virginia?
    Dr. Allen. I don't believe that we are setting any 
deadlines for ourselves. We are just trying to iterate the 
improvements in the sterile technology to try to make it as 
safe as possible. There is sort of two levels that we are 
working from here.
    One is the level of trying to make the technology perfect, 
which is, you know, kind of hard to do, and the other is the 
level of risk that we are allowed to take in implementing the 
technology. And I think it is my overall thesis that that level 
of risk tolerance is very low right now, and there is somewhere 
to meet in the middle that could yield greater information and 
more productive economic evaluations for the industry.
    Mr. Gilchrest. I see. Thank you.
    Dr. Boesch, are you involved in similar research projects 
specific to triploid for aquaculture use only? Are you involved 
in any research that deals with the potential introduction of 
diploid  ariakensis into the Maryland waters of the Chesapeake 
Bay?
    Dr. Boesch. Yes, Mr. Gilchrest. We, until very recently, 
the Maryland State policy was very risk averse, to use Dr. 
Allen's term, about  ariakensis research, and that has changed 
of late. And we have now initiated several projects, one 
working very closely with Dr. Allen, which is essentially an 
extension of work they are doing there with the industry of 
outplanting--not outplanting, but in controlled devices 
planting sterile triploids into Maryland waters.
    Our scientists have, like Dr. Allen indicated, have gone 
through a process of getting an agreement and permit authority 
to do this work. In addition to that, we are staging, we are 
able to do laboratory work on diploid animals in a biosecure 
environment to answer some questions regarding their 
reproductive biology, and also with a new research project just 
underway, to understand the degree to which some important 
predators of oysters, of the native oyster, might be a 
controlling factor on the Suminoe oyster as well.
    That is done in the controlled environment in the 
laboratory. We have just been--had a meeting with the 
Department of Natural Resources to look at the NRC report 
recommendations concerning the questions one would have to 
address, you know, to make that decision, and we have been 
exchanging ideas with the Department about the priorities of 
that research, emphasizing the key issues that would make or 
break a decision. What are the adverse, potentially adverse 
consequences? Addressing some of the potential of the non-
native oyster, not only in aquaculture but in ecological 
restoration, using these criteria to prioritize the work and 
discuss with them how that research can be done.
    But you have to understand that our work, in contrast to 
Dr. Allen's, is just beginning on Suminoe oysters, because of 
this change of policy that I referred to.
    Mr. Gilchrest. So you feel that the University of Maryland 
is a little bit behind VIMS in understanding  ariakensis as far 
as the aquaculture is concerned, the introduction of triploids 
versus diploid is concerned?
    Dr. Boesch. They have been working on this issue for longer 
than we have for sure. So they have more experience.
    Mr. Gilchrest. Do you feel that your relationship with the 
Department of Natural Resources and the State of Maryland, 
which will ultimately to a large extent make this decision, 
triploid versus diploid, is integrated well, you have a good 
relationship with the State as far as what priorities are 
concerned?
    Dr. Boesch. I think we do. As I indicated, we have 
recently, just as of last week, had some dialog with them about 
the priorities, and our role with the University is to be 
supportive in working with the departments, the State 
departments, but also to be independent in the conduct of 
research and in the conclusions and recommendations that we 
draw from that research. So I think there is a good 
understanding of that.
    But to foster that relationship, and to also use our 
resources wisely, for example, the Department has come to us 
and offered help to support our new research facility of the 
oyster culture facilities and so on, put some of their 
resources into that so we can jointly work on not only the 
questions of Suminoe oyster introduction or aquaculture, but 
also, and very importantly, advance the state of knowledge that 
we have been able to gain on the reestablishment or 
rehabilitation of native oyster populations.
    Mr. Gilchrest. Is there any feeling that research on non-
native oysters is taking money away from research on native 
oysters, and is there in your judgment some real possibility 
that in the future native oysters, virginica, can be disease 
resistant?
    Dr. Boesch. On the first question, I would say that is a 
general concern that I have heard voiced, that the great 
attention on the Suminoe oyster will consume all of the 
resources so we will not advance our understanding, scientific 
understanding, and also our restoration activities on native 
oysters.
    So far that hasn't happened. I think we have to guard 
against it, and I think the NRC report has a firm 
recommendation on that, to continue to work on native oyster 
disease issues and restoration.
    With respect to the second question, our center, in 
cooperation and collaboration with Dr. Allen and folks at VIMS 
and our colleagues at Rutgers University, have for several 
years now been engaged in extending Dr. Allen's work on disease 
resistant strains of--strains of native oysters that are 
resistant to either MSX or Dermo or both, and we are continuing 
to advance that research.
    And we have been particularly engaged in working with Dr. 
Allen and using some of those disease resistant oysters, native 
oysters in various outplantings and field trails in various 
parts of Maryland with mixed success. They can do reasonably 
well under management situations in which they are challenged 
primarily with Dermo. But if there is heavy MSX infection, 
there is a bit greater survival but it is still pretty severe. 
But it is still a work in process. And I think Dr. Allen, I am 
sure, this is sort of his life's work, and we are still 
optimistic about that line of research.
    Mr. Gilchrest. Now, I am not asking for a deadline, but is 
there a timeframe upon which the potential for understanding a 
particular strain of virginica to be resistant to MSX and 
Dermo, and under what context might that be? For example, do 
native oysters seem to do a lot better when they are on reefs 
close to the surface as opposed to oyster bars? Do they do 
better the larger they are when they are in the process of 
reproduction? And a timeframe for when we might see some 
progress where we actually have oyster reefs with native 
oysters in large numbers in the Chesapeake Bay?
    Dr. Boesch. Disease resistant? We are still working with 
disease resistant strains. If it is OK, Dr. Allen is the expert 
on this. I am not.
    Dr. Allen. We are basically trying to find an oyster that 
will work. I mean, that is why we left the wild oyster in favor 
of an oyster that has been selectively bred to become disease 
resistant in hopes that that oyster will be more successful in 
recruiting its young to the system than the wild oyster is, 
which by the way is not very successful at doing that. The non-
native oyster represents simply another alternative in that 
possible selection of candidates for this particular purpose.
    Mr. Gilchrest. Can a non-native oyster and the native 
oyster interbreed?
    Dr. Allen. They can fertilize each other, but they don't 
form viable progeny. So there is--but, by the way, if they 
could, we would be embarked on a program now to hybridize the 
two of them and improve our native oyster by bringing in some 
of the effective genes that the non-native oyster seems to 
have. And that is an approach that is standard aquacultural 
selection techniques. But I think it is important to realize 
here that, whether it is the non-native oyster or it is a 
selectively bred native oyster on this very slow course of 
selective breeding, they are both two artificial solutions over 
and above what we have already been used to.
    In other words, we are replacing the wild oyster with an 
entirely artificial oyster one way or the other. So as to a 
timeframe, which was your original question, you have got to 
realize that the process of selective breeding can yield an 
improvement between 5 and 10 percent per generation over and 
above the last. And you can understand that that is a 
relatively slow progress for the native oyster selection; 
whereas, the non-native starts with a level of disease 
resistance that we only wished our oysters had.
    And so, you know, the race between these two, the non-
native has already won, and we are dealing with this issue of 
whether it is a wise choice or not. The race that we are doing 
for the native oyster is one to try to make it effective before 
we make it moot.
    Mr. Gilchrest. Dr. Anderson, would you agree with the 
statement that the non-native oyster,  ariakensis, the Asian 
oyster, after some period of study, as a result of the near 
elimination of the native species, would be an appropriate 
course to take after some of the issues are vetted as far as 
pathogens and some idea of invasive, that a diploid  ariakensis 
would be an appropriate action course to take for Virginia and 
Maryland?
    Dr. Anderson. Well, first of all, I would like to say that 
there is no doubt that these institutions can do the research 
to get the information to improve our ability to make the 
decision as to how extensively we use either sterile or 
nonsterile oysters,  ariakensis.
    However, I think basically it is a value judgment when it 
comes to that point. You get more and more information, but at 
some point you decide, do you want this oyster in the Bay? And 
you may be able to say, well, we can put it in the Bay without 
disease. We can put it in the Bay so there is no introduction 
of, shall we say, hitchhikers or other species, and we can, you 
know, more or less manage it.
    But the final decision really starts to be a value 
judgment. Do you really want a new oyster in the Bay?
    Mr. Gilchrest. Dr. Whitlatch, can you tell us whether or 
not--you said you were from Connecticut?
    Dr. Whitlatch. Yes.
    Mr. Gilchrest. I suppose the oyster industry up there is 
the Long Island Sound.
    Dr. Whitlatch. Yes, it is.
    Mr. Gilchrest. And you seemed to say that you had some 
concern with the introduction of  ariakensis in the Chesapeake 
Bay because it might pose a regional problem, including Long 
Island Sound?
    Dr. Whitlatch. I think that, if the Suminoe oyster becomes 
reproductively viable in the Chesapeake Bay, it is only a 
matter of time before it will spread to other estuaries along 
the East Coast, and so while we look at this as initially a 
regional issue; you know, what is the well-being of the oyster 
industry in the Chesapeake Bay, I think this should be viewed 
more as a national issue.
    The species has all of the life history attributes of what 
we would think an invasive species should have. It grows fast, 
it has high reproduction, it has a number of modes of being 
dispersed, both naturally and by humans, and so it is, as I 
said, a matter of time before the species has a strong 
potential of being found throughout other parts of the 
Northeast region.
    Mr. Gilchrest. I guess this question would be to anybody. 
Where did this Asian oyster come from? Where has it been 
introduced before? Has it been successful? Has it--I think I 
read somewhere last night, it was in somebody's testimony, 
perhaps it was in NRC, that the introduction into--or someone 
said it here this morning--the introduction into Australia and 
New Zealand has been not successful.
    Was that the introduction of ariakensis, or was that the C. 
gigas?
    Dr. Whitlatch. The ariakensis was used in research purposes 
in Oregon, at the Oregon State University Marine Laboratory, in 
the mid-1970's as a potential new aquaculture species. There 
were several attempts to introduce the species into several 
embayments in Oregon, and to this date there are no wild 
populations. It has notsuccessfully reproduced in those 
embayments.
    Dr. Whitlatch. The general wisdom is that the temperatures 
in that environment are too cold for it to reproduce. There 
were oysters from that same stock that were introduced that 
were brought in from China to Oregon that were then brought 
into France. And, for again, for research purposes. However, 
the species became--was very vulnerable to a parasite and it 
was not--has no longer been considered for aquaculture 
purposes.
    Mr. Gilchrest. So that was ariakensis?
    Dr. Whitlatch. Yes.
    Mr. Gilchrest. And that was introduced in Oregon but the 
water temperature wasn't compatible--
    Dr. Whitlatch. Yes.
    Mr. Gilchrest.--in France, but they had a problem with 
parasites that it wasn't compatible with. But at this point, 
does it appear, based on the last few years of research, that 
ariakensis is compatible with the temperature and the parasites 
in the Chesapeake Bay or don't we know that yet?
    Dr. Whitlatch. Limited. There has been a lot of laboratory 
studies done on its temperature salinity requirements and in 
the Bay. And it looks, to date, using that laboratory 
information, that it could survive and reproduce in most of the 
salinities and temperature regimes in which the native oyster 
exists.
    Mr. Gilchrest. Do you have a native oyster in the Long 
Island Sound?
    Dr. Whitlatch. Yes, C. virginica.
    Mr. Gilchrest. Oh. So it is the same.
    Dr. Whitlatch. Same species, yes.
    Mr. Gilchrest. And you don't have MSX and Dermo up there?
    Dr. Whitlatch. We do have those problems, but not to the 
same degree that Virginia and Maryland have.
    Mr. Gilchrest. Why is that?
    Dr. Whitlatch. That is an excellent question. I don't know 
the answer to that.
    Mr. Gilchrest. So it is not--I am sure that the Long Island 
Sound is as--what is the salinity?
    Dr. Whitlatch. It is more like Virginia's salinity.
    Mr. Gilchrest. And the MSX and Dermo is not?
    Dr. Whitlatch. There are problems. We have had outbreaks in 
the past, but for some reason, they have not persisted at the 
same degree of intensity as you have them in the State of 
Virginia and Maryland.
    Mr. Gilchrest. Is your oyster industry mainly aquaculture?
    Dr. Whitlatch. It is virtually all aquaculture. It is 
leased bottom aquaculture relying on natural set of the spat 
fall. The spat are collected on shell culch, and then moved to 
leased tracts of land where they are cultured until they are 
ready to market.
    Mr. Gilchrest. Dr. Allen, will Virginia--and maybe this is 
more appropriate for the next panel. And Dr. Boesch as well. 
The kind of oyster industry in Connecticut, I would assume is 
vastly different than the oyster industry in the Chesapeake 
Bay, both Virginia and Maryland. So are there--is there a 
process that we would have to go through if we chose to a 
greater extent to use aquaculture? Is there a potential for 
that to be successful in Virginia and Maryland the way it is in 
Connecticut?
    Dr. Allen. My opinion here is that aquaculture is the way 
in which the Chesapeake Bay will realize resource in the 
immediate future, in the mid-future, maybe not in the long-term 
future, depending on revitalization of natural stocks, and if 
aquaculture were to be given a shot here in Chesapeake Bay, you 
need an oyster, of course, and that is why the people are 
attracted to the non-native. But you also need a regulatory 
environment that enables that. It is more--it is closer to that 
enablement in Virginia because of the history of leased bottoms 
there than it is to Maryland. But even there we need more 
regulatory authority and mechanisms to allow the farming of the 
Bay in a way that they do it in many other parts of the world 
very successfully.
    Mr. Gilchrest. Thank you.
    Dr. Boesch.
    Dr. Boesch. I would agree, in fact, every, I believe every 
successful oyster commercial production aquaculture, production 
around the world is based on aquaculture of some sort. It could 
be of the type that Dr. Whitlatch mentioned where there is a 
natural spat set in some areas, and then the shell of the 
oysters are removed before they are grown out. That occurs in 
Connecticut. It occurs in some sort of combination in the very 
successful oyster industry in Louisiana. Many parts of the 
world.
    Other parts of the world supplement the natural 
recruitment, which sometimes there is none, with hatchery 
production and then they are grown out in the field, either on 
racks or on bottom. So those opportunities exist, and I think 
they have to be part of the solution as we deal with trying to 
increase the commercial output potential of the native oyster 
as well as we move forward.
    We need some innovation in terms of how we manage that into 
the future. And there are traditional obstacles, you know, 
policy obstacles that prevent that as Dr. Allen indicated.
    Mr. Gilchrest. Thank you. Dr. Kern, virginica in the Long 
Island Sound, vervus virginica in the Chesapeake Bay, do you 
have any idea why one is more resistant to MSX and Dermo than 
the other? Is it that the strain of those diseases is weaker in 
Long Island Sound? And can, as Dr. Allen suggested, it is not a 
question of--well, Dr. Allen probably didn't suggest this. I 
might ask this question. Can you mate Long Island Sound 
virginica with the Chesapeake Bay native oysters? Has that 
already been done? Does that show any promise to resistance?
    Dr. Kern. There have been a number of studies that have 
looked at various resistances, specifically to perkinsus. There 
are different races, the Gulf Coast races of C. virginica. You 
have to realize that until the Chesapeake Bay interruption I 
guess that C. virginica is the temperate coral reef system for 
the United States. It extends from Maine to Mexico. When we 
lose oysters, we don't just necessarily lose oysters, we lose 
all of the organisms associated with an oyster reef. And there 
has been a great deal of movement of oyster seed back and forth 
through hatcheries and exchange of materials.
    So the various oysters strains are there, but there is not 
a lot of difference between the two. There are areas in New 
England when MSX was probably introduced through the movement 
of seed oysters or what have you that suffered severe 
mortalities. But due to the fact that they are hatchery-based 
aquaculture private industry for the most part, they can 
basically control their stocks, remove them, replace them, 
start all over again, put them on their own bottoms and remove 
them. We are talking about a paradigm shift here in Maryland to 
be able to go from a natural production of oysters and 
harvesting to a hatchery-based aquaculture system. I mean, you 
are talking apples and oranges here when you are talking--you 
are comparing the two. And that is what is going on in New 
England and Connecticut and even Maine and the Gulf Coast. It 
is--they are much more oriented toward aquaculture.
    Mr. Gilchrest. So you are saying that there is a--the 
paradigm for the Chesapeake Bay at this point, and I guess this 
would be a good question for the next panel, is hatchery 
produced vs. harvesting wild produced oysters. And is that an 
inevitable shift?
    Dr. Kern. I have a sign in my office that says it is the 
ecosystem, stupid. And I want to go back to that point where it 
is the fact that the oysters in Chesapeake Bay are facing a 
system that did not exist 300 years ago. The nutrient loads, 
the siltation loads, everything else that is going on on top of 
that produced a system which is not conducive to producing 
oysters. I don't care whether it is ariakensis or C. virginica. 
They have to have adequate substrates in order to settle. They 
have to have water clean enough to be able to filter so they 
don't drown in their own pseudo feces. They have to have a 
quality of shell structure to be able to settle on.
    You get away, around all that, by putting them in trays in 
aquaculture systems and growing them out in the laboratory and 
putting them overboard. But at what cost? I mean, you are 
increasing the overall handling and everything else. There is 
a--the system has to be able to pay for itself. It hasn't been 
adapted in Chesapeake Bay. But I, just on an off note, that if 
ariakensis diploids are trying to find a place in the Choptank 
River where they used to be, they would have a difficult time 
finding the oyster bed that is not choked with siltation.
    Mr. Gilchrest. So there is a great deal more work that 
needs to be done prior to a thriving oyster population 
filtering the Bay in a few days. And that is an understanding 
of the ecosystem, based on human activity and how the Bay has 
been degraded over a century or more. Are those--well, I could 
keep asking this panel questions. I think I will close with 
this question though and ask any one of you that wants to ask 
it or answer it, in this paradigm shift in the State of 
Maryland, wild oyster harvest vs. hatchery raised oysters, are 
we at a fork in the road, do you think, that we have one or the 
other? Can there be a mix of that in the Chesapeake Bay, and if 
it is all hatchery raised, what are the benefits to the other 
organisms in the ecosystem versus the benefits of natural 
oyster reefs?
    Dr. Boesch. I may be foolish enough to try to answer that 
question. I think the answer if you gave me those three 
choices, it is probably a mixture. For example, the production 
that we have had from the hatchery at Horn Point this year, 
given the kind of mortality you see after the spat are planted, 
would actually still yield more harvestable oysters in 2 years, 
2 to 3 years than we are able to harvest for the last several 
years for the whole State. So the potential of producing viable 
commercial culture of oysters if the economics are right, you 
know, your cost has to be, as Dr. Kern has indicated, the cost 
has to be less than the value of the commodity is there.
    Having said that, hatchery production is not going to, in 
and of itself, replenish the natural environment or natural 
habitat of oysters. It can help. It can help by jump-starting 
the process, by creating an oyster reef, creating the 
structure. But the success of that over the long time is going 
to be dependent upon the natural recruitment from surviving 
oysters. And so we will have good years when we have good 
recruitment and we will have bad years and in the future 
because the oysters are sort of at the margin of where they 
were historically in terms of size of their population. The 
other very important thing that Dr. Kern indicated is the 
limitation of available habitat. You asked whether we can 
restore oysters so they can again filter the Bay in 3 days.
    I think the answer to that is clearly not in your and my 
lifetime. The oysters that once existed in the Chesapeake when 
Europeans arrived here, those reefs took thousands of years to 
develop. Thousands of years to develop. They were very 
extensive physically. They were very extensive vertically. And 
those were destroyed by our wanton harvest strategies, 
initially. Removed not only oysters, but removed the very 
habitat, the coral reefs of the east coast, as Dr. Kern 
indicated in the process. If this Suminoe oyster or engineered 
oyster, native oyster is successful, it is not going to rebuild 
that structure, that habitat the organism themselves create 
overnight. It is going to take similarly centuries to do that.
    Mr. Gilchrest. Dr. Allen.
    Dr. Allen. Thank you. I would like to reiterate that the 
course of commercially based hatchery produced aquaculture and 
restoration are not mutually exclusive. They actually go quite 
well hand in hand. And there is no reason why you can't have a 
viable industry based on aquaculture that has been built by 
entrepreneurial dollars as well as having a publicly focused 
restoration program at the same time. It is a question of 
whether or not the aquaculture operations can be made 
commercially viable, which I think it is clear it can't be with 
the native oyster the way it is, wild, so it is either going to 
be a selectively bred one or an alternative one, either as a 
diploid or a triploid. It doesn't matter. But they are not 
mutually exclusive.
    Mr. Gilchrest. Dr. Anderson.
    Dr. Anderson. I would just like to say, I think ultimately 
the Bay has to--the oysterman industry has to manage sort of as 
a portfolio and I would like to back up with--
    Mr. Gilchrest. What industry did you say was a portfolio?
    Dr. Anderson. The oyster industry. Basically you have to 
look at the technologies as a portfolio of options, and one 
should not preclude the others, and I think a lot can be 
learned from aquaculture in terms of disease resistance for 
enhancement or re-establishment of the native. But it can work 
the other way. And the other thing, it is not really an either/
or. There is a continuum in aquaculture. And in Connecticut, 
most of their oysters come from a wild set and there are wild 
harvesters that get a lot of those seed oysters to be put on 
the sites and then there is very minimal aquaculture there. 
There are not big racks floating all over Connecticut. You can 
ski over the oyster sites and things like that. So on the other 
hand, there could be all kinds of racks and gear in the water 
and intensive hatchery stuff. And I think you really have to 
look at the solution as a portfolio. It is not like one goes 
and the other stays.
    Mr. Gilchrest. I see. Thank you very much. I guess this 
definitely will either be a question or a comment. You don't 
have to answer it. Dr. Boesch said that the development of 
oyster reefs in the Chesapeake Bay happened over thousands of 
years and created a bay that John Smith knew. If we move, and 
it is likely I suppose that we will, to a different genetic--an 
oyster that is, to some extent, non-native or genetically 
altered by us so that it is disease resistant and a fairly 
flourishing, we hope, economically viable hatchery-raised 
aquaculture industry in the Chesapeake Bay which offers some 
ecosystem help to water quality, if--I suppose the next 
question I would have, do we give up on trying to fully restore 
the Chesapeake Bay, and do we say because of human population, 
it can never be what it was in the past, or is another 
possibility an oyster reef corridor in the Bay for the purpose 
of the ecosystem for filtering water for home for other 
organisms which can be the principle upon which the rest of the 
aquaculture industry can draw the interest from?
    So is there any thought in this process of creating 
corridors from the mouth of the Bay up to the Susquehanna River 
for the purpose of, you know, just reconnecting this ecosystem?
    Dr. Boesch. Well, a few years ago, scientists from research 
institutions throughout the Bay region, including mine as well 
as VIMS, got together to assess the prospects of oyster 
restoration. We weren't at that time talking about the Suminoe 
oysters. The native oysters. And out of that, and some thought 
by a lot of people came this concept. I wouldn't characterize 
it as a corridor, but a sort of constellation, if you will, of 
sanctuaries, an oyster sanctuary which would be built and 
managed and never be harvested. But that would produce 
offspring, you know, would produce a genetic selection 
naturally, and also help reseed the other areas. And then 
around that would be essential reserves which would be managed 
oyster areas which would be harvested.
    So that may be something close to the concept that you 
mention. It wouldn't necessarily, you know, extend down the 
length of the Bay. But it would be located in certain, you 
know, well-managed areas in which there is again a 
constellation of a sanctuary and then reserve areas that are 
managed for harvest.
    Mr. Gilchrest. So that is an ongoing process right now.
    Dr. Boesch. That is a recommendation. And--
    Mr. Gilchrest. Is that a recommendation to the Chesapeake 
Bay program or a recommendation to--
    Dr. Boesch. We named this the Chesapeake Bay Research 
Consortium, which is a consortium of the research institutions 
at the request, actually of the then-secretaries of natural 
resources of Maryland and Virginia.
    Mr. Gilchrest. Has that recommendation been acted upon?
    Dr. Boesch. Well, in some ways it has, because in 
Maryland's program we have gone--it hasn't been the same way 
geographically. But in Maryland--has since then, in its oyster 
recovery program, designated sanctuaries. You know, in fact, 
with Congressional support, these sanctuaries have been 
developed and then we have these other areas which we are 
replenishing with disease-free hatchery produced seed oysters, 
but the intent of which is that those will ultimately be 
available for harvest. In fact, there was a strategy that is 
based upon if we see the disease incidence grow so that we 
expect mortality of those oysters, then they will be open to 
harvest at that time, so the oysters can be removed before they 
succumb.
    So there are lots of approaches like that that are 
essentially managing with nature that allow you to preserve 
some bits of the earth for their biodiversity values and 
instructional values and the like, while at the same time, 
managing other parts of the environment in consort with that.
    Mr. Gilchrest. Thank you very much.
    Dr. Allen.
    Dr. Allen. Well, if I understand your question correctly, I 
think what I heard you say is can we give up on the other Bay 
cleanup efforts and establish this oyster corridor.
    Mr. Gilchrest. No. I don't think I meant to say give up on 
any clean up efforts.
    Dr. Allen. Good.
    Mr. Gilchrest. That includes what we do on the land. That 
includes what we receive from Ohio, from power plants.
    Dr. Allen. But, you know, certainly the NRC report made the 
point that you know it isn't just oysters that are going to 
make a significant improvement. It is the overall, all the 
issues put together and, you know, corridor or no corridor, all 
the other cleanup has to go or the Bay is dead, of course.
    Mr. Gilchrest. I think that everything has to be integrated 
and instead of making priorities, that we are now going to take 
a look at aquaculture and triploid oysters, and we put all our 
efforts into that or somebody puts all their efforts into 
diploid oysters, I don't think this would be worthy of those of 
us in public service or in scientific institutions because of 
the full array of issues, whether it is more construction, more 
impervious surfaces, more air deposition, more commercial 
recreational fishing, agriculture, power boats in shallow 
fragile estuaries, the full range of issues, I think, need to--
I don't think we have the benefit of picking or choosing what 
we are going to prioritize. I guess it is time now that we 
looked at this in the big picture and understand the details of 
the big picture.
    Well, gentlemen, thank you very much. This has been very 
informative. Our next panel is Colonel Yvonne J. Prettyman-
Beck, District Engineer, Norfolk District, U.S. Army Corps of 
Engineers. Welcome Colonel; Ms. Rebecca Hanmer, Director, 
Chesapeake Bay Program Office, U.S. Environmental Protection 
Agency; Honorable Mr. C--I should say Dr. Ronald Franks. Dr. 
Franks, Secretary, Maryland Department of Natural Resources. 
Welcome Ron; Dr. James A. Wesson, Department Head, Conservation 
Replenishment Department, Virginia Marine Resource Commission
    Mr. Gilchrest. Thank you all very much for coming this 
afternoon. We look forward to your testimony. It is 12:30. I 
guess we have been going for about an hour and 15 minutes or 
so. So I think what I will do I will announce at the end of 
this panel, unless I see a different opinion, we will take a 
10-minute break at the end of this panel just to pace the 
hearing. Thank you all very much for coming. We look forward to 
your testimony on this fascinating and critical issue. Colonel 
Prettyman-Beck, you may go first, ma'am.

    STATEMENT OF COLONEL YVONNE J. PRETTYMAN-BECK, DISTRICT 
    ENGINEER, NORFOLK DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Colonel Prettyman-Beck. Yes, sir. Mr. Chairman and members 
of the Subcommittee, I am currently District Engineer for the 
U.S. Army Corps of Engineers, Norfolk District. With me today 
is Christina Coarreale, Claire O'Neill and Jeff Lorenz of the 
Baltimore Engineer District, and Peter Kube and Doug Martin of 
the Norfolk District. We are here today representing the 
Honorable John Paul Whitley, Assistant Secretary of the Army 
for Civil Work. We are very proud of the restoration work we 
have accomplished to date, as well as our future plans. My 
objective during this testimony will be to provide you with an 
overview of the Chesapeake Bay native oyster recovery program 
and a brief assessment of the proposed introduction of non-
native oyster species to the Chesapeake Bay and its 
tributaries.
    A copy of the Corps of Engineers October 2001 testimony has 
been provided as an exhibit. As previously testified, our 
planned formulation is based on coordination and consultation 
among many project partners and stakeholders, Federal and State 
resource agencies, watermen, Chesapeake Bay Foundation, 
academics, community-interested citizens, as well as nonprofit 
groups, such as the Oyster Recovery Partnership, Virginia 
Seafood Council, Lynnhaven 2007 and others. The plan includes 
the creation of new oyster reefs, rehabilitation of non-
productive reefs, development of seed-producing reefs, planting 
of disease tolerant seed oysters and follow-on project 
monitoring. Subsequent to the Corp's 2001 testimony, the 
Norfolk District has completed the Tangier/Pocemoke Sound 
project in Virginia waters. This involved the construction of 
158 acres of oyster reefs and the seeding of 30 million disease 
tolerant spat on shell.
    Total cost for construction seeding and monitoring in the 
Virginia portion of the project area to date is $2.9 million. 
We are currently monitoring the project site to determine 
sustainability of the young oysters and to determine if changes 
in the management of the newly created reefs are necessary. 
Future projects planned within the Commonwealth of Virginia 
include the Great Wicomico and the Piankatank and Lynnhaven 
Rivers. Additionally, the Baltimore District has been funding 
oyster restoration at a cost of approximately $1 million a year 
for 2002 and 2003.
    Our focus in Maryland is mostly toward the development of 
sanctuaries. In addition, the Baltimore District has directed 
funding toward harvest reserves that will allow limited 
harvest. During 2002, 95 acres of shell and 35 million spat 
were planted in the Choptank and Patuxent Rivers. In 2003, 85 
acres and 120 million spat were also planted. Future projects 
planned within the State of Maryland include the Chester and 
Choptank Rivers. We are currently developing a master plan for 
the Chesapeake Bay oyster restoration programs. The draft plan 
is scheduled to be completed in Fiscal Year 2004 with approval 
in Fiscal Year 2005.
    The purpose of the master plan will be to guide future 
development in the Bay, provide a focus for policy and 
decisionmaking and to map the way for oyster restoration of the 
Chesapeake Bay. My assessment of the Chesapeake Bay native 
oyster recovery program is positive. Data collected from 
monitoring and analysis of this data indicates the native 
oyster restoration is working. We are seeing historical record-
setting spat set on new constructed reefs seeded with disease 
tolerant oyster seed. We are also seeing increases in the 
survivability of young oysters that indicates the new breeds of 
native oysters are increasing their disease tolerance, 
representing the beginning metrics for success.
    My testimony will now focus on the non-native Suminoe 
oyster, C. ariakensis. In the spring of 2002, the Virginia 
Seafood Council applied for a permit under section 10 of the 
rivers and harvest and section 404 of the Clean Water Act to 
introduce a million non-native triploid sterile Asian oysters 
into the waters of the Chesapeake Bay and the ocean. After a 
thorough multi-agency evaluation of the proposal, which 
resulted in major changes to the project, a permit was issued 
to the Virginia Seafood Council in the spring of 2003. The 
permit contains 15 rigorous conditions that minimize the risk 
of accidental release of a reproducing population of non-native 
oysters.
    The oysters are now in the water and are being raised by 
eight experienced seafood growers using a variety of 
aquaculture grow-out methods. During the permit evaluation 
process, the Corps agreed with other Federal, State and private 
agencies, that an environmental impact statement to evaluate 
the impacts of future large-scaled introductions of Asian 
oysters into the Bay would be needed. The State of Maryland and 
Commonwealth of Virginia have proposed to introduce and 
establish a reproducing self-sustaining population of non-
native oysters into the Chesapeake Bay to improve the 
ecological health of the Bay and revitalize the oyster 
industry.
    Opinions vary with regard to the idea of introducing Asian 
oysters in the Bay. At one end of the spectrum are those who 
are opposed to any introduction of non-native species based on 
history of unintended and sometime disastrous consequences 
associated with introductions of other non-native species over 
the years. This group believes the obvious safe choice is not 
to allow the Asian oyster to be introduced but to continue and 
augment native oyster restoration efforts. At the other end are 
those who believe the Asian oyster is the last best chance for 
not only reviving the commercial oyster industry in the 
Chesapeake but for also restoring the Bay's historic water 
quality.
    To this group, introduction of reproductive Asian oysters 
is the obvious answer for both the economic and environmental 
reasons. And every day of delay, while additional studies are 
conducted, represents another wasted opportunity. Right now, we 
simply do not know what the long-term effects of introducing 
reproductive Asian oysters in the Bay would be. This was the 
conclusion of the recently released National Academy of 
Sciences report, which was to recommend for additional study. 
The report indicated proposals to offset the decline of native 
oysters in the Chesapeake Bay by introducing a reproductive 
population of oysters from Asia should be delayed until more is 
known about the potential environmental risk.
    In the meantime, carefully regulated aquaculture of sterile 
Asian oysters could help the industry and generate information 
necessary for assessing the risks of future large-scale 
introductions. The NAS report and Federal Agency Committee of 
the Chesapeake Bay program has validated the approach the Corps 
has taken to date by its authorization of restricted control 
aquaculture project designed to not only help an ailing oyster 
industry, but to generate valuable scientific research to help 
answer future questions. In summary, the Corps of Engineers, 
with the help of our sponsors, Federal, State and local 
agencies and many stakeholders is committed to aggressively 
restoring the native oyster to the Chesapeake Bay per existing 
Congressional authority and funding.
    Mr. Chairman, on behalf of the U.S. Army Corps of 
Engineers, we would like to thank you and the Committee and 
Congress for this opportunity to speak on this important issue.
    Mr. Gilchrest. Thank you very much, Colonel Prettyman-Beck.
    [The prepared statement of Colonel Prettyman-Beck follows:]

    Statement of Colonel Yvonne Prettyman-Beck, District Engineer, 
             Norfolk District, U.S. Army Corps of Engineers

    Mr. Chairman and Members of the Subcommittee: I am Colonel Yvonne 
Prettyman-Beck, District Engineer, Norfolk District. With me today is 
Ms. Christina E. Correale, Chief, Operations Division, Baltimore 
District. We are here today representing the Honorable John Paul 
Woodley, Assistant Secretary of the Army for Civil Works. I am pleased 
to represent the Army and the Corps of Engineers on this important 
matter.
    I appreciate the opportunity to inform you of the Corps' activities 
in support of the Chesapeake Bay oyster restoration efforts. I am very 
proud of the restoration work that the Baltimore and Norfolk Districts 
have accomplished to date in waters of the Chesapeake Bay and its 
tributary rivers. I am looking forward to seeing more positive results 
as our completed projects continue to provide their benefits, and as 
new projects come on-line in support of oyster restoration.
    My objective during this testimony is to provide you with an 
assessment of the Chesapeake Bay Native Oyster Recovery Program 
starting with a summary of the last testimony given to this body, a 
report on actions conducted by the Corps and others since that 
testimony was given, and plans for the next time frame. I will also 
present a brief overview of another facet of the program that involves 
the proposed introduction of a non-native oyster species to the 
Chesapeake Bay and its tributaries.
    On 22 October, 2001, my predecessor, Colonel David Hansen, District 
Engineer of the Norfolk District, and LTC Scott Flanigan, Deputy 
District Engineer of the Baltimore District, provided this Subcommittee 
testimony on the Chesapeake Bay Native Oyster Recovery Program. A copy 
of that testimony is provided to you as an exhibit.
    In 1995 Congress directed the U.S. Army Corps of Engineers to 
improve the Chesapeake Bay's native oyster population and appropriated 
funds to initiate a project. Congress directed this action due to the 
rapid decline in the Bay's native oyster population that had reached a 
level of less than 2% of what it was 100 years earlier. In addition, 
oyster harvests in the mid-1990's were only 1/8 of the harvest of a 
decade earlier. The precipitous decline is attributed to over 
harvesting, sedimentation, pollution, and disease. Not only has the 
region's water-based economy been impacted, but the Chesapeake Bay has 
been depleted of natural filtering organisms that are critical to the 
sustenance of a healthy and vibrant marine ecosystem, particularly in 
the major tributaries such as the Potomac, Rappahannock, Patuxent, 
Choptank, Chester, Lynnhaven, Great Wicomico, and James Rivers.
    The Corps authorization for the current native oyster restoration 
program is included in Section 704(b) of WRDA 1986 (Chesapeake Bay 
Oyster Restoration), as amended. Originally the authorization was 
limited to the Maryland portion of the Chesapeake Bay, but was later 
modified to include the Virginia watershed. The Federal funding 
authorization limit is currently $20 million. Cost sharing is required 
under the program, with the non-Federal sponsors providing 25 percent 
of the project costs. The sponsors may meet their cost sharing 
responsibilities through in-kind services. The program's non-Federal 
sponsors are the Maryland Department of Natural Resources and the 
Virginia Marine Resources Commission
    As previously testified, the Chesapeake Bay Oyster Recovery Program 
was formulated based on coordination and consultation among many 
project partners and stakeholders, Federal and State resource agencies, 
watermen, the Chesapeake Bay Foundation, the academic community, 
interested citizens, as well as non-profit groups such as Oyster 
Recovery Partnership, VA Seafood Council, Lynnhaven 2007, etc. The 
oyster restoration plan includes the creation of new oyster reefs, 
rehabilitation of non-productive reefs, development of seed-producing 
reefs, planting of disease tolerant seed oysters, and follow-on project 
monitoring. The use of disease tolerant strains of the native oyster 
such as DEBY and CROSBreed will be used.
    Subsequent to the Corps October 2001 testimony, the Norfolk 
District completed the Tangier/Pocomoke Sound project in Virginia 
waters. This involved the construction of 158 acres of oyster reefs and 
the seeding of 30 million disease tolerant spat on shell. This is the 
largest single seeding to date for ecosystem restoration within the 
Commonwealth of Virginia. Total cost for construction, seeding, and 
monitoring in the Virginia portion of the project area to date is $2.9 
million. We are currently monitoring these sites to determine 
sustainability of the young oysters and to determine if changes in 
management of newly created reefs are necessary.
    The next restoration area within the Commonwealth of Virginia is 
located in the Great Wicomico River, a tributary on the west side of 
the Chesapeake Bay. The scope of work for this project includes the 
construction of new reefs and the seeding of the new and existing reefs 
with 5-million disease tolerant large adult brood stock oysters. These 
reefs will become ``breeder reefs'' producing hundreds of millions of 
disease tolerant spat-on-shell oysters that will be used for seeding 
future projects within the Chesapeake Bay. The decision document has 
been approved and the Project Cooperation Agreement is now being 
coordinated with the Commonwealth of Virginia. We anticipate the start 
of reef construction and oyster seeding during the spring/summer of 
2004. The cost of the Great Wicomico River project is currently 
estimated at $2.4 million.
    Future projects planned within the Commonwealth of Virginia include 
the Painkatank and Lynnhaven Rivers. We are currently coordinating 
project scopes of work with the sponsor, VIMS, Chesapeake Bay 
Foundation, Lynnhaven 2007, and others.
    Since the October 2001 testimony the Baltimore District has been 
funding oyster restoration at a cost of approximately one million 
dollars a year for 2002 and 2003. Our focus in the Maryland portion of 
the project area is mostly towards the development of sanctuaries. In 
addition, the Baltimore District has directed funding towards harvest 
reserves that will allow limited harvest. During 2002, the total area 
planted with shell was 95 acres. This included 15 acres of sanctuary 
and 60 acres of harvest reserves in the Choptank River and 5 acres of 
sanctuary and 15 acres of harvest reserve in the Patuxent River. During 
2002, the total spat planted was 35 million. In 2003 the area planted 
with shell totaled 85 acres. This area included 20 acres of sanctuary 
and 15 acres of harvest reserves in the Chester River, and 35 acres of 
sanctuary and 15 acres of harvest reserve in the Choptank River. The 
total spat planted in 2003 was 120 million. The Maryland Department of 
Natural Resources is our local cost-sharing sponsor and is doing 
similar activities to the extent of $350,000 per year.
    Our plans for future activities, in the Maryland portion of the 
project area, will be to pursue restoration opportunities throughout 
the bay with our focus being the Chester and Choptank Rivers to help 
meet the oyster habitat goal of the 2000 Chesapeake Bay Agreement 
(which calls for a 10-fold increase in oyster biomass by the year 
2010). Previous project activities have been in the Chester, Choptank, 
Severn, Magothy, and Patuxent Rivers, and the Smith Island area.
    We are currently developing a Master Plan for the Chesapeake Bay 
Oyster Restoration Program. The draft plan will be completed in FY-04 
with approval in FY-05. The purpose of the master plan will be to guide 
future development of oyster restoration efforts in the Bay, provide a 
focus for policy and decisionmaking, and to map the way for oyster 
restoration of the Chesapeake Bay.
    My assessment of the Chesapeake Bay Native Oyster Recovery Program 
is positive. Data collected from monitoring and analysis of this 
program indicates that native oyster restoration is working. We are 
seeing historical record-setting spat set on new constructed reefs 
seeded with disease-tolerant oyster seed. We are also seeing increases 
in the survivability of young oysters that indicates the new breeds of 
native oysters are increasing their disease tolerance. These are the 
beginning metrics for success.
    My testimony will now focus on the non-native Suminoe oyster, 
Crassostrea ariakensis.
    In the Spring of 2002, the Virginia Seafood Council applied for a 
permit under Section 10 of the Rivers and Harbors Act and Section 404 
of the Clean Water Act, to introduce a million, non-native, triploid, 
(sterile) Asian Oysters (Crassostrea ariakensis) into the waters of the 
Chesapeake Bay and the Ocean. After a thorough multiagency evaluation 
of the proposal, which resulted in some major changes to the project, a 
permit was issued to the Virginia Seafood Council, in the Spring of 
2003 authorizing the deployment. The permit contains 15 rigorous 
conditions that minimize the risk of an accidental release of a 
reproducing population of non-native oysters. The oysters are now in 
the water and are being raised by 8 experienced seafood growers using a 
variety of aquaculture grow-out methods.
    During the permit evaluation process, the Corps agreed with other 
Federal, state and private agencies to prepare an Environmental Impact 
Statement (EIS) under the National Environmental Policy Act (NEPA) to 
evaluate the impacts of future large-scale introductions of Asian 
oysters into the Bay. The State of Maryland and Commonwealth of 
Virginia have proposed to introduce and establish a reproducing, self-
sustaining population of non-native oysters into the Chesapeake Bay to 
improve the ecological health of the Bay and to revitalize the oyster 
industry.
    Opinions vary with regard to the idea of introducing Asian oysters 
into the Chesapeake Bay. At one end of the spectrum are those who are 
opposed to any introduction of non-native species, based on the history 
of unintended, and sometimes disastrous consequences associated with 
introductions of other non-native species over the years. This group 
believes the obvious safe choice is to not allow the Asian oyster to be 
introduced, but to continue and augment native oyster restoration 
efforts. At the other end are those who believe that the Asian oyster 
is the last best chance for not only reviving the commercial oyster 
industry in the Chesapeake, but also for restoring the Bay's historic 
water quality. To this group, introduction of reproductive Asian 
oysters is the obvious answer for both economic and environmental 
reasons, and every day of delay while additional studies are conducted 
represents another wasted opportunity.
    The Chesapeake Bay is an economic and ecological asset of national 
importance. Decisions affecting the Bay are too important to be made 
precipitously. Right now we simply do not know what the long-term 
effect of introducing reproductive Asian oysters into the Bay would be. 
This was the conclusion of the recently released study of the National 
Academies of Science (NAS) and their recommendation was for additional 
study. The report indicated that proposals to offset the decline of 
native oysters in the Chesapeake Bay by introducing a reproductive 
population of oysters from Asia should be delayed until more is known 
about the potential environmental risks. In the meantime, carefully 
regulated aquaculture of sterile Asian oysters could help the oyster 
industry and generate information necessary for assessing the risks of 
future large-scale introductions. The NAS report and the Federal 
Agencies Committee of the Chesapeake Bay Program has validated the 
approach the Corps has taken to date by its authorization of a strictly 
controlled aquaculture project designed to not only help an ailing 
oyster industry but generate valuable scientific research to help 
answer future questions. The National Academies of Science recommended 
that additional study is needed before a decision is made whether or 
not to introduce reproductive Asian oysters into the Bay.
    In closing, the Corps of Engineers, with the help of our sponsors, 
federal, state and local agencies, and many stakeholders, is committed 
to aggressively restoring the native oyster to the Chesapeake Bay per 
existing Congressional authority and funding.
    Mr. Chairman, on behalf of the Corps of Engineers, I would like to 
thank you, the Committee and Congress for the opportunity to testify 
today on these important issues.
                                 ______
                                 
    Mr. Gilchrest. Ms. Hanmer.

 STATEMENT OF REBECCA HANMER, DIRECTOR, CHESAPEAKE BAY PROGRAM 
          OFFICE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Hanmer. Thank you. Good morning. My name is Rebecca 
Hanmer, and I am director of the EPA's Chesapeake Bay Program 
Office. I appreciate the opportunity to appear before you today 
and I have with me Mike Fritz, who is our Living Resources 
Program Coordinator. In our Chesapeake Bay program master plan, 
which is the Chesapeake 2000 agreement, the Executive Council 
made a commitment to achieve at a minimum, a tenfold increase 
in native oysters in the Chesapeake Bay by 2010. This 
commitment is focused on native oysters and is a keystone of 
our program. Thanks to increased funding from the Congress, the 
Army Corps of Engineers, and NOAA, collaborating with Maryland 
and Virginia, we are now implementing restoration projects that 
are orders of magnitude larger than the earlier pilot projects. 
We have a long way to go. But we believe we are making progress 
and should continue to accelerate native oyster restoration 
efforts.
    In the Chesapeake Bay program, our framework for 
considering introduction of non-native oysters is the 
Chesapeake Bay policy for the introduction of non-indigenous 
aquatic species adopted by the Chesapeake Executive Council in 
1993. It says, in part, it shall be the policy of the 
jurisdictions in the Chesapeake Bay basin to oppose the first-
time introduction of any non-indigenous aquatic species unless 
environmental and economic evaluations are conducted, and that 
risks are acceptably low. This policy was motivated by our 
experience with other intentionally introduced species which 
turned out to be very harmful.
    EPA, like other Federal agencies, also has obligations 
under the 1999 Presidential Executive Order 13112 regarding 
invasive species. Specifically we may not authorize fund or 
carry out actions that we believe are likely to cause or 
promote introduction or spread of invasive species unless we 
have determined that the benefits of such actions clearly 
outweigh the potential harm.
    As you know, Mr. Chairman, the EPA joined with others to 
support a study by the National Resource Council, and we 
received an excellent report. As the NRC points out, there is 
no quick fix, no silver bullet and no shortcut, not for the 
oyster industry or for water quality restoration. We agree with 
the management option that was chosen by the report. We agree 
with the conclusion that it is currently not predictable--
possible to predict the effect of introducing reproductive C. 
ariakensis on the ecology of Chesapeake Bay and that the 
irreversibility of introducing a reproductive non-native oyster 
and the high level of uncertainty with regard to potential 
ecological hazards makes an imprudent course of action.
    EPA has joined with other Bay program partners and the 
Corps of Engineers to support preparation of a full 
environmental impact statement before any deployment of 
reproductively capable C. ariakensis into bay waters. A strong 
scientific analysis is a necessary precondition for sound 
decisionmaking and will be vital to a strong environmental 
impact statement.
    The adequacy of existing regulatory frameworks for non-
native oysters introduction was also addressed in the NRC 
report, including applicability of Clean Water Act sections 404 
and 402, which are subject to the purview of EPA. These and 
other potential areas of Federal and State jurisdictions will 
be evaluated during the development of the environmental impact 
statement. We also look forward to the environmental impact 
statement as a mechanism for evaluating alternatives including 
importantly native oyster aquaculture as an alternative that 
has received too little attention to date.
    In closing, Mr. Chairman, I want to comment on the 
importance of the Chesapeake Bay program as an institution. The 
NRC report suggested that the Bay program's precautionary 
approach to introduction of non-native species could serve as a 
model for elsewhere in the country. The 1993 policy, the report 
says, is consistent with the precautionary approach to non-
native introductions in its requirement for environmental and 
economic evaluations to be conducted in order to assure that 
risks associated with first-time introductions are acceptably 
low. It illustrates a clean list approach to introductions 
which the NRC committee generally recommends for all levels of 
decisionmaking about non-native introductions.
    Mr. Chairman, we will continue to pursue a precautionary 
approach with our partners as we move forward with careful 
study of contained C. ariakensis aquaculture until the 
evaluation review and risk limitation requirements of our Bay 
policy are met. EPA believes that the Chesapeake Bay program 
partners should oppose the introduction of non-native oysters 
in the Chesapeake Bay beyond what is currently being done on an 
experimental basis.
    Meanwhile we look forward to collaborating with our 
partners on an environmental impact statement to continue the 
evaluation of the benefits, risks and consequences of and 
alternatives to non-native oyster introduction. We appreciate 
the opportunity to testify and I will be happy to answer any 
questions that you have.
    Mr. Gilchrest. Thank you very much, Ms. Hanmer.
    [The prepared statement of Rebecca Hanmer follows:]

 Statement of Rebecca Hanmer, Director, Chesapeake Bay Program Office, 
                  U.S. Environmental Protection Agency

    Good morning and thank you, Mr. Chairman. My name is Rebecca 
Hanmer. I am the Director of the Environmental Protection Agency's 
(EPA's) Chesapeake Bay Program Office. I appreciate the opportunity to 
be here today to discuss efforts to introduce non-native oyster species 
to the Chesapeake Bay and the National Research Council's (NRC's) 
report titled ``Non-native Oysters in the Chesapeake Bay.''
    In the Chesapeake 2000 agreement, the Chesapeake Executive Council 
made the following commitment: ``By 2010, achieve, at a minimum, a 
tenfold increase in native oysters in the Chesapeake Bay, based upon a 
1994 baseline.'' This commitment is focused on native oysters. While 
our collective effort to develop and implement a Chesapeake Bay Program 
comprehensive bay-wide oyster management plan is behind schedule, we 
have a draft plan, the principal guidelines of which are being 
implemented by Federal and State agencies engaged in native oyster 
restoration. Our oyster restoration initiative is now emerging from a 
phase of experimentation and pilot project, and is entering a phase of 
accelerated implementation with an adaptive management approach. Thanks 
to increasing funding from the Congress, the Army Corps of Engineers, 
in collaboration with Maryland and Virginia, is now engaging in the 
implementation of restoration projects that are orders of magnitude 
larger than the earlier pilot projects. We have a long way to go, but 
we believe we should stay the course.
    In the Chesapeake Bay Program, our framework for the consideration 
of the introduction of non-native oysters is another document signed by 
the Chesapeake Executive Council, the 1993: ``Chesapeake Bay Policy for 
the Introduction of Non-Indigenous Aquatic Species.'' The Chesapeake 
Bay Program's policy is simply stated as follows:
        ``It shall be the policy of the Jurisdictions in the Chesapeake 
        Bay basin to oppose the first-time introduction of any non-
        indigenous aquatic species into the unconfined waters of the 
        Chesapeake Bay and its tributaries for any reason unless 
        environmental and economic evaluations are conducted and 
        reviewed in order to ensure that risks associated with the 
        first-time introduction are acceptably low.''
The establishment of this policy was motivated by our experience with 
other intentionally introduced species, including nutria and mute 
swans, which are among the six most harmful aquatic species in the 
region for which we are very near completion of basin-wide control 
plans.
    EPA also has obligations under Executive Order 13112 regarding 
Invasive Species (February 3, 1999). Specifically, we may not 
authorize, fund, or carry out actions that we believe are likely to 
cause or promote the introduction or spread of invasive species in the 
United States or elsewhere unless we have determined, and made public 
our determination, that the benefits of such actions clearly outweigh 
the potential harm caused by invasive species, and that all feasible 
and prudent measures to minimize risk of harm will be taken in 
conjunction with these actions.
    As you know, Mr. Chairman, in the interest of obtaining an 
independent, objective and expert assessment of the risks and potential 
benefits of the introduction of non-native oysters, EPA joined with 
others to support a study by the National Research Council. We received 
an excellent report and I submit it for the record as part of my 
written testimony.
    The NRC report identifies five commonly held ``unrealistic 
expectations and common misconceptions'' also called ``myths,'' which I 
believe we should keep in mind. I would summarize the useful messages 
derived from those myths as follows: There is no quick fix, no silver 
bullet, no shortcut, not for the oyster industry and not for water 
quality restoration. And native oyster restoration is not an exercise 
in futility, we should continue our aggressive pursuit of new 
technologies, good stock, and new methods, always remembering that this 
will be a long-term project.
    The report also provides conclusions with respect to the three 
options the study committee was asked to evaluate.
    <bullet>  Option 1. Status quo, no introduction of non-native 
oysters. The report emphasizes the risk that a prohibition on any 
activity with non-native oysters could lead to a harmful illegal 
release. I suggest that it may be important to proactively educate 
members of the oyster industry that oyster restoration is going to be a 
long-term project with any species, while developing economic 
alternatives for watermen and others in the industry (e.g., engagement 
in restoration).
    <bullet>  Option 2. Open water aquaculture of triploid oysters. The 
report concludes that ``contained aquaculture of triploid C. ariakensis 
provides an opportunity to research the potential effects of extensive 
triploid-based aquaculture or introduction of reproductive non-native 
oysters on the ecology of the Bay and offers some additional economic 
opportunities for the oyster industry and the watermen.'' The report 
supports the track we are currently following, although it may be 
necessary to define acceptable project size limits and continually 
improve the nature of the strict control protocols as we proceed.
    <bullet>  Option 3. Introduction of reproductive diploid oysters. 
The report concludes that ``it is not possible to predict if a 
controlled introduction of reproductive C. ariakensis will improve, 
further degrade, or have no impact on either the oyster fishery or the 
ecology of Chesapeake Bay.'' And says: ``In sum, the irreversibility of 
introducing a reproductive non-native oyster and the high level of 
uncertainty with regard to potential ecological hazards make Option 3 
an imprudent course of action.'' I agree with that conclusion.
    The Chesapeake Bay Program partners are vitally engaged on this 
issue. Under the terms of a joint agreement, the partners agreed to 
undertake an Environmental Impact Statement (EIS) prior to any decision 
to go ahead with Option 3. That process has now begun.
    The Bay Program prides itself on its reliance on sound science to 
guide all our activities. That is why we called for and helped 
underwrite the cost of the National Research Council's study. 
Similarly, we have asked our Scientific and Technical Advisory 
Committee to establish a panel of experts to develop the research plan. 
A strong scientific analysis is a necessary pre-condition for sound 
decision making and will be vital to a strong EIS.
    The adequacy of existing regulatory frameworks to address non-
native oyster introduction also was addressed at length in Chapter 8 of 
the NRC report. With respect to federal authority, the applicability of 
Clean Water Act Sections 404 and 402 are subject to the purview of the 
EPA. The critical issue with respect to Section 404 jurisdiction is 
whether an introduction would involve the discharge of dredged or fill 
material. Appropriately, the Army Corps of Engineers asserted 404 
jurisdiction over the Virginia Seafood Council proposal because the 
proposal clearly involved the in-water discharge of dead shell material 
(i.e, fill) to establish a hard substrate on which to place some of the 
experimental oysters. What is less clear is whether introduction of 
oysters without the discharge of dead shell material would involve a 
discharge of fill material at all. Similar to the Army Corps of 
Engineers, EPA would need to see the details of a specific proposal 
before the applicability of Section 404 could be determined. For 
purposes of interagency consistency, we have asked the Corps to consult 
with EPA before they make any project-specific determination in this 
regard.
    In closing, Mr. Chairman, I want to comment on the importance of 
the Chesapeake Bay Program as an institution with important potential 
in the consideration of this issue. The NRC report also suggested that 
Chesapeake Bay Program's 1993 policy, and the ad hoc advisory panel 
review process under that policy, could serve as a model for elsewhere 
in the country. ``The 1993 policy,'' the report says, ``is consistent 
with a precautionary approach to non-native introductions, e.g., in its 
requirement that environmental and economic evaluations be conducted in 
order to ensure that risks associated with first-time introductions are 
acceptably low.'' ``Also'' the report continues, ``the 1993 policy 
illustrates a 'clean list' approach to introductions, an approach which 
the committee generally recommends for all levels of decision-making 
about non-native introductions as contrasted with the 'dirty list' 
approach. Under the 1993 policy, and many State laws, introductions of 
non-native species are prohibited unless specifically approved. 
Utilizing a clean list is a key step in implementing a precautionary 
approach.''
    Mr. Chairman, we will continue to pursue a precautionary approach 
with our partners in the Chesapeake Bay Program as we move forward with 
careful oversight and study of contained aquaculture, as supported by 
the NRC report. Based on the numerous findings and policy and research 
recommendations of the NRC report, it is clear that we still have work 
to do to fulfill the evaluation, review, and risk minimization 
requirements of the 1993 Chesapeake Bay Program policy. Therefore, in 
keeping with the 1993 policy, we conclude that until those requirements 
are met, Chesapeake Bay Program partners should oppose the introduction 
of non-native oysters in Chesapeake Bay beyond what is currently being 
done on an experimental basis. Meanwhile, in order to meet the 
evaluation and review requirements, we look forward to collaborating 
with our partners on an Environmental Impact Statement to continue the 
evaluation of the benefits, risks and consequences of--and alternatives 
to--non-native introduction. We are all committed to working together, 
which will serve the partnership of the Chesapeake Bay Program well in 
the EIS process.
                                 ______
                                 
    Mr. Gilchrest. Delegate Eckardt just walked in. I don't 
know if, Addie, you want to come up to the dais and ask 
questions. We have this and one more panel left, but you are 
welcome to come up. Dr. Franks. Welcome.

    STATEMENT OF HON. C. RONALD FRANKS, SECRETARY, MARYLAND 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Franks. Thank you, Mr. Chairman. Thank you for inviting 
me to testify on this critical issue facing the State of 
Maryland, Virginia and the Chesapeake Bay. Oysters have been a 
keystone species here for as long as we have documented history 
of the Bay and today, restoration of an oyster population in 
the Bay is a top priority for the Department of Natural 
Resources and Governor Ehrlich. Restoration of oysters, 
restoration of bay grasses and the reduction of nutrients are 
the three critical activities comprising the cornerstone of 
Maryland's Bay restoration efforts.
    Today, I would like to provide you with a brief overview of 
Maryland's past and continuing efforts to restore native 
oysters, and why we believe it is time to evaluate the 
introduction of a second oyster species that should be part of 
our bay restoration efforts. The importance, both ecologically 
and economically, of restoring a viable population of oysters 
to the Chesapeake Bay, cannot be overstated. Nevertheless, if 
we are to take this road, it must be done in a responsible and 
timely manner.
    Environment. Oysters provide specific ecological benefits 
for the Bay. When abundant they provide the Bay's foundation 
linking other species together and enriching the ecosystem. A 
healthy population of oysters is to the Chesapeake Bay as 
healthy trees to our landscape. Without these essential 
components that filter pollutants and ensure healthy habitat 
for other living things, their respective ecosystems cannot 
fully function and these benefits critical to other living 
communities are lost.
    The end result is a fundamental change in the ecosystem. 
And I will underline that. Which today for the Bay means an 
ecosystem dominated by algae and bacteria, rather than by 
oysters and bay grasses. The result, degraded water quality, 
clarity and habitat. Today, Maryland's oyster industry is 
economically extinct. The Chesapeake Bay is no longer 
considered a viable source of oysters for the national or even 
local market. These financial realities impact harvesters 
processors, shippers, restaurants and family businesses.
    The oysters we eat in Maryland today are being imported 
from the Gulf Coast to meet the local market demand. We expect 
this year's harvest to fall below last year's 53,000-bushel 
low, and we are seeing watermen continue to drop out of the 
fishery.
    In 1999, there were 2,520 harvesters. In 2004, we estimate 
that less than 200 will harvest oysters today. Over the past 12 
to 15 years, many restoration initiatives have been undertaken 
based upon a recommendation from scientists and 
environmentalists. The aquatic reef habitat restoration plan 
was implemented in 1993 to set aside thousands of acres of 
bottom habitat for rehabilitation as oyster reef sanctuaries.
    The Maryland Oyster Roundtable of 1993, that still exists 
today, recommended shell and seed plantings, hatchery 
development, fish, management and sanctuary creation to reverse 
the decline. The 1999 scientific consensus document that was 
written by Maryland, Virginia and other marine scientists 
supported these and other recommendations. It served as the 
scientific voice and foundation of the 2000 Chesapeake Bay 
agreements which made a commitment to restore oysters to 10 
times their 1994 level by 2010.
    Yet, in spite of this tremendous commitment to oyster 
restoration, the bi-state efforts under the Chesapeake Bay 
program have not increased numbers or the biomass of oysters in 
the Chesapeake Bay. Actually, as measured by the oyster biomass 
index, the levels are below the all-time low baseline of 1994. 
Every opportunity currently known has been attempted or made 
available to increase the biomass of C. virginica, but so far 
we have been unsuccessful. In fact, 8 million State and Federal 
dollars will be spent in Fiscal Year 2004 on Chesapeake Bay 
oyster restoration. And, since 1994, a total of nearly $41 
million has been spent in Maryland alone with no measurable 
Bay-wide success.
    When considering the future of the native oyster population 
and the efforts to restore it, we must be realistic and base 
our strategy on what we know. There are no cures for the 
diseases MSX and Dermo that are killing the native oyster 
population. The areas where disease becomes entrenched never 
sees the disease abate, and the oyster beds never improve to 
pre-disease levels. The best science has been applied to 
restoration with less than positive outcomes.
    Most scientists agree that it will take many decades to 
make any real progress in restoring native oysters to the 
Chesapeake Bay if it can be done at all. Everyone, scientists 
government, watermen, citizens, does agree that the Bay needs 
an oyster that can survive and multiply. The only question is 
if it will be our native oyster or an introduced species. C. 
ariakensis is a current--is in a proposal that is on the table 
to potentially introduce in oyster, the Oregon strain of the 
oyster to the Chesapeake Bay. Here is where that proposal 
stands.
    In July, 2003, Virginia's DNR Secretary and I submitted a 
request to the U.S. Army Corps of Engineers in Norfolk to 
coordinate the evaluation and the introduction of this second 
species of oysters to the Bay through the preparation of 
environmental impact statement. Since that time, both 
departments have been working with the Corps to do the 
preparatory work necessary for this comprehensive and extensive 
public review of our proposal.
    A formal planning meeting is scheduled to convene tomorrow, 
Thursday, that will include the U.S. Army Corps of Engineers, 
U.S. Environmental Protection Agency, U.S. Fish and Wildlife 
Service, NOAA, and representatives from Virginia and Maryland 
to begin the process of preparing an EIS. Preparation of this 
EIS will be aided by the recently issued National Academy of 
Sciences report, including the funding of a specific research 
directed to the questions and uncertainties identified therein.
    A central function of the EIS will be to analyze the risk 
of unknown or unanticipated consequences to introducing a non-
native oyster in the Chesapeake Bay. The Commonwealth of 
Virginia has already begun research and experimentation with 
this non-native species which has been raised in Oregon waters 
for the last 30 years. Results of the Virginia experiments to 
date indicate this species is resistant to diseases decimating 
the Bay's native oysters and can adapt very readily to the 
Chesapeake Bay ecosystem. And it has the potential to thrive 
here.
    There is some question on the part of the Corps as to 
whether we have the legal jurisdiction to conduct an EIS on C. 
ariakensis, recognizing that Maryland, and hopefully Virginia, 
is willing to conduct a State EIS that include the same 
parameters as the Federal EIS process. Mr. Chairman, a common 
goal has brought us here today and we, like you, have one 
priority, and that is the restoration of the Chesapeake Bay. 
And while we, like you, understand that true Chesapeake 
restoration is an ecosystem approach that relies on several 
components, including nutrient reduction and bay grass 
restoration, we are fully focusing today on the oyster.
    We estimate the cost of the EIS and non-native research to 
be approximately $3 million over the next 12 to 18 months, and 
we believe there is urgency in completing it. Congress has 
recognized the need funding the Bay restoration programs and 
has directed Federal agencies to assist us. We are very 
appreciative of the support we have received to date and ask 
that judgment be held until all the science is in.
    We invite our Federal agencies to partner with us in 
completing a full unbiased assessment of the risks involved and 
the benefits to be gained. Again, thank you for the opportunity 
to appear. We look forward to a full and informative public 
dialog on our proposal and a balanced decision that will serve 
our environment and our citizens resulting in a healthy 
productive Chesapeake Bay. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Thank you, Dr. Franks.
    [The prepared statement of Ronald Franks follows:]

        Statement of The Honorable C. Ronald Franks, Secretary, 
                Maryland Department of Natural Resources

    On behalf of the Department of Natural Resources, the Governor, and 
the State of Maryland, thank you for the opportunity to testify today 
and for your interest in the Chesapeake Bay.
    The Chesapeake Bay oyster is the cornerstone of the Bay's ecology 
and water quality, serving as the Bay's main filtration system and rich 
habitat for many other species. Tragically, the Bay's oyster population 
has been decimated by disease, which has crippled the Bay's ability to 
filter nutrients entering its waters through watershed runoff and 
waste-water treatment discharges. As a result, restoring the Bay's 
oyster population is an essential element of the Ehrlich 
Administration's plan to improve the quality of the Bay's waters. While 
the ecological and economic importance of oysters cannot be overstated, 
attempts to overcome diseases, such as Dermo and MSX, continue to fail. 
At this time an alternative, disease-resistant oyster, such as the 
Crassostrea ariakensis, is the only viable option for scientists and 
policymakers to effectively and efficiently restore the Bay's oyster 
population.
OYSTER HISTORY SINCE THE 1900s
    The history of oysters in Chesapeake Bay is closely tied to our 
national efforts to conserve and manage natural resources. During the 
decade of the 1910s, the state took action to reverse the decline in 
oyster harvesting: Maryland conducted experimental seed and shell 
plantings and took regulatory action that would eventually form the 
backbone of oyster management in Maryland.
    During the 1920s, just as the harvest declines were being reversed, 
a typhoid outbreak in the major population centers of Chicago, New York 
and Washington, that was attributed to oysters, received a lot of 
negative publicity and resulted in oyster sales crashing. During this 
period, the oyster market was also undergoing a long-term, gradual 
shift from a mass-market dietary staple to more of a luxury food item. 
Additionally, the Chesapeake Biological Laboratory was established, and 
two major engineering projects affecting the hydrology of the Upper 
Chesapeake Bay were completed: Conowingo Dam and the conversion of the 
Chesapeake & Delaware Canal to a water-level shipping route.
    During the 1930s, oyster harvests were affected by the Great 
Depression and by competition from cheaper seafood brought about by 
improved transportation and refrigeration. As the nation emerged from 
the Depression, oyster harvests in Chesapeake Bay climbed to their 
highest point in almost 20 years.
    During the 1940s and World War II, a large number of watermen left 
their boats for U.S. military service. Oyster harvests declined, but 
the Chesapeake Bay remained the dominant source of oysters in the 
United States.
    During the 1950s, the oyster parasite Dermo was discovered in 
Maryland. Also, a series of hurricanes caused considerable damage that 
severely depressed oyster reproduction.
    During the 1960s, Maryland began large-scale planting of old shell, 
and harvests increased to the highest since the 1930s in spite of 
oyster disease outbreaks.
    During the 1970s, a series of natural catastrophes and changes in 
the industry set the stage for a tailspin from which oyster abundance 
and the oyster harvest have yet to recover. As a result of more than 
half-a-decade of reduced salinities, a nearly complete spat-set failure 
occurred during this decade. The Virginia oyster industry declined 
sharply as a result of disease, which, in turn, increased harvesting 
pressure in Maryland to meet the demand for oysters.
    During the 1980s, several years of low rainfall allowed oyster 
diseases to return with a vengeance, and MSX and Dermo both became 
chronic infections on most oyster bars in the state. The mid-1980s were 
a pivotal point for the oyster. In 1987, the Maryland oyster harvest 
declined to below one million bushels, the lowest harvest since the 
mid-nineteenth century, and in 1988, harvests plummeted even further--
by more than 60 percent from 1987 levels to 363,000 bushels. The 
dockside value fell from $16 million in 1987 to $7 million in 1988. 
Since 1988, oysters have continued their decline with far fewer bushels 
harvested in the years thereafter. An Executive Order in 1985 
established the Maryland Bay Cabinet to coordinate Bay recovery 
programs to improve water quality and Bay health.
    In the 1990s, the oyster harvest declined to a 150-year low in 
spite of a series of record high spat falls. The mortality of mature 
oysters approached 90 percent, which severely reduced the benefits that 
the record spat falls provided. We also saw the creation and signing of 
the Chesapeake 2000 Agreement, which established new goals for the 
reduction of nutrients and restoration of oysters and Bay grasses. The 
price tag for restoration of the Bay is now estimated at $18.7 billion, 
with Maryland's portion being $6.8 billion.
PRESENT DAY: DEFINING THE PROBLEM
    It is clear that we are at a pivotal point in Bay restoration 
efforts, particularly the restoration of the Bay through an abundant 
population of self-reproducing oysters. In spite of a massive effort 
and expenditures of tens of millions of state and federal dollars to 
restore native oyster populations, populations are now one-half of what 
they were in 1994, a reference year for rebuilding oyster populations. 
The oyster diseases Dermo and MSX are a dominant influence, and unless 
they are substantially controlled--and no evidence suggests that they 
can be--the trend and the outlook for the native oyster is bleak. There 
is little reason for optimism and even less evidence that we are making 
any progress in defeating these oyster diseases.
    A look at the historical data reveals a crucial trend. Oyster 
harvests remained between 2 million and 4 million bushels from 1920 to 
1982, thereby showing the ability of the Chesapeake Bay to support an 
abundant population in balance with a significant fishery.
    However, that is not now the case. As a result of more than 15 
years of disease pressure, Maryland has a record-low oyster population 
estimated to be less than 1 percent of historic levels. MSX and Dermo 
have expanded in range and prevalence, reaching record-high levels 
farther up the Bay and tributaries, depending on the year. In 2002, the 
average oyster-mortality rate for Maryland was 58 percent, and many 
areas experiencing 80- to 100-percent mortality. The typical mortality 
rate without disease pressure is 10 percent or less. This difference is 
vital and critical to our restoration efforts. Oyster survival is key 
to establishing an abundant oyster population in the Bay.
    One problem is the intense disease conditions that prevent the 
sporadic natural sets of young oysters from realizing their potential 
to sustain the population for the long term. As the spat grow to become 
larger oysters, diseases kill them by the ages of 3 to 4 years, thereby 
mitigating their ecologic and economic benefits. Unlike spat or young 
oysters, larger and older oysters produce more brood, filter more 
water, and create more valuable hard-bottom habitat critical to the 
growth of oyster bars. Conversely, low mortality rates allow successive 
year classes, or spat sets, to live many years and to develop abundant 
populations upon the oyster bars.
    Against this background and history, the Commonwealth of Virginia 
began research and experimentation with the non-native species 
Crassostrea ariakensis, which has been raised in Oregon waters for the 
last 30 years but was originally from Southeast Asia. Results of the 
Virginia experiments to date indicate that this species of oyster is 
resistant to the diseases decimating the native oysters, can adapt very 
readily to the Chesapeake Bay, and has the potential to thrive in the 
Chesapeake Bay.
    The decline of the oyster makes it all the more imperative to 
recall its ecological and economic importance:
    <bullet>  Ecological Importance
    Oysters provide specific ecological benefits for the Bay, but these 
benefits have declined to insignificance due to the loss of oysters. 
Only by restoring an abundant population can we restore these 
ecological functions.
    Oyster populations are a keystone species when they are in 
abundance, linking other species together and enriching the Bay's 
ecology. A healthy population of oysters is to the Chesapeake Bay as 
healthy trees are to a forest. Without these essential components, the 
respective ecosystems do not fully function, and the benefits that 
extend to, and are critical to, other living communities in the 
ecosystems are minimal to nonexistent. The ultimate result is a 
fundamental change in the ecosystem. The Bay's ecosystem today is 
dominated by algae and bacteria rather than by oysters and SAV, 
resulting in degraded water quality and poor water clarity.
    Oysters create hard-bottom habitat that is essential to many 
sessile, attached organisms such as mussels, barnacles, bryozoans, and 
anemones, which filter the water and provide food for larger animals. 
The hard, shelly habitat is also important for many small organisms, 
such as mud crabs, blennies, gobys, and worms, that require the niches 
provided by the shells and oyster clumps. These organisms attract 
larger organisms, such as blue crabs and commercial and recreational 
fin fish, illustrating that oyster reefs are an important component of 
the Bay's food web.
    Oysters and other filter feeders eat algae and sequester silt, 
clearing the water. They remove algae, eat it, and convert it to 
biomass, reducing nutrients in the water column. Nutrient enrichment 
and algae blooms are two of the Bay's major problems that were 
especially prevalent this year. By clearing the water and reducing 
nutrients, oysters, when in great abundance, could help Bay underwater 
grasses.
    It has been estimated by leading oyster scientists that the once-
abundant pre-1870 oyster population required only about 3 days to 
filter a volume of water equivalent to the Bay's volume. By 1988, that 
changed to 325 days; today, our remnant population requires an 
estimated 700 days.
    Scientists generally agree that it will take decades, if it can be 
done at all, to increase the number of C. virginica to ecological 
significance.
    <bullet>  Economic Issues
    The oyster industry is economically extinct, impacting harvesters, 
processors, shippers, restaurants, and family businesses. Oysters are 
being imported into Maryland by processors and restaurants from the 
Gulf Coast and the West Coast to meet the local market demand. 
Chesapeake Bay is no longer considered a viable source of oysters for 
the national market.
    DNR expects the harvest to fall below last year's 53,000 bushels 
and oystermen to continue dropping out of the fishery. In 1999, there 
were 2,520 harvesters, followed by 915 in 2002 and 437 in 2003. For 
2004, it is estimated that less than 200 will harvest oysters. Maryland 
processors have already suffered and will continue to decline. There 
were 58 in 1974, they fell to 20 in 1990, and only a handful are left 
now.

OUTLOOK FOR NATIVE OYSTERS & RESTORATION
    The long-term goal of the Chesapeake Bay Program to restore an 
abundant and a healthy Chesapeake Bay oyster population is essential. 
Attaining a self-sustaining oyster population is necessary to provide 
ecological benefits significant enough to reach the water-quality 
improvement goals prescribed for the Chesapeake Bay, as well as to 
improve the Bay's fishery.
    Restoration efforts must address the entire Bay and not just the 
improvement of a few sites, or even many sites. Restoration is not 
repeatedly restocking these sites time and time again to replenish 
failed efforts. None of the efforts address the disease solution 
because there is no cure. Maryland does not have the luxury to hope 
that the native oyster will recover or that they should be given more 
time to recover, or that even larger-scale efforts should be 
undertaken. The Bay's future is dependent on a robust oyster 
population, and the risk is too great to base the entire Bay 
restoration strategy on a idea that is significantly contingent on the 
re-emergence of the native oyster.
    When considering the future of the native oyster population and the 
efforts to restore it, we must be realistic and base our strategy on 
what we know. There is no cure for the diseases MSX and Dermo that are 
killing the native oyster population. The areas where disease becomes 
entrenched never see the disease abate, and the oyster beds never 
improve to pre-disease levels. The best science has been applied to 
restoration with less than positive outcomes. Scientists generally 
agree that it will take decades to make progress in restoring oysters, 
but even they have doubts if it can be done within decades, if at all. 
Everyone does agree that the Bay needs an oyster that can survive and 
multiply. The issue is whether it is to be the native oyster or a 
second oyster species.
    The oyster population, its ecological contributions, and the 
fishery are at record-low levels, and only a dramatic change can 
improve the situation. Oyster populations will continue to decline for 
at least 4 years due to recent low spat sets, continued mortality, and 
the expectation that mortality will occur in the future. The high 
rainfall in 2003 lowered salinity and will deter disease and improve 
survival, but stocks are so low and recent sets so poor that any large-
scale significant increase in stocks will not occur. If a strong set 
occurs in the summer of 2004, it will take about 3 years for the set to 
grow, but even a strong 2004 year class may not produce any significant 
change because MSX and Dermo can easily impact those oysters as it did 
the strong year classes of 1985, 1986, 1991, and 1997.
    The oyster's demise in the Bay is similar to what has happened in 
other East Coast areas. The Delaware Bay has experienced only a remnant 
oyster population and fishery since the 1940s, and MSX and Dermo have 
spread north and south along the Atlantic coast. Around the world where 
oyster diseases have impacted native stocks, there have been no cases 
where the situation has reversed.

NATIVE OYSTER RESTORATION EFFORTS
    During the past 12 to 15 years, many restoration initiatives have 
been undertaken that were based upon recommendations from scientists 
and environmentalists. The Aquatic Reef Habitat Restoration Plan was 
implemented in 1993 to set aside thousands of acres of bottom habitat 
for rehabilitation as oyster reef sanctuaries. The Maryland Oyster 
Roundtable of 1993, which still exists today, recommended shell and 
seed plantings, hatchery development, fishery management, and sanctuary 
creation to reverse the decline.
    The 1999 Scientific Consensus document that was written by 
Maryland, Virginia and other marine scientists supported these and 
other recommendations. It served as the scientific voice and foundation 
of the 2000 Chesapeake Bay Agreement, which made a commitment to 
restore oysters to 10 times the 1994 levels by 2010.
    Progress towards the 2010 oyster goal is measured by an oyster 
biomass index that is calculated by scientists using data from DNR's 
annual Fall Oyster Survey. Biomass is a measure of living oysters in 
the Bay. For Maryland, the biomass index has declined 70 percent during 
the last few years, and it is now below the previous all-time-low 
baseline of 1994. In spite of the tremendous commitment to oyster 
restoration, the Bi-state efforts under the Chesapeake Bay Program have 
not increased the number or biomass of oysters in the Chesapeake Bay.
    The native restoration program costs have exceeded tens of millions 
of dollars. Maryland and federal dollars will total about $8 million 
for Fiscal Year 2004. A few years earlier, it ranged between $4 million 
and $5 million annually. Every opportunity currently known has been 
attempted or made available to increase the biomass of C. virginica, 
but so far, we have been unsuccessful.
    Restoration efforts have and continue to include:
    <bullet>  Establishing a network of sanctuary and reserve areas 
where oysters are protected from harvest in order to protect brood 
stock, maintain ecological function, and ``jumpstart'' recovery;
    <bullet>  Planting shell for habitat and setting of young oysters;
    <bullet>  Cleaning silted bars;
    <bullet>  Planting natural seed oysters on old and new shell 
habitat; and
    <bullet>  Planting potentially resistant strains of hatchery-
reared, disease-free oysters.
    Some of the major initiatives of the native oyster restoration 
include:

1. Sanctuaries and Reserve Areas
    Sanctuaries, or non-harvest areas, are the foundation of the 
restoration initiative. They are designed to protect brood, deliver 
ecological benefits, and yield recovery in non-sanctuary areas as 
oysters spread through larval dispersal. Reserve areas are also 
designated for these purposes, but they are also opened for periodic, 
limited harvest; then the area is closed again to achieve the 
ecological benefits. Together with reserve areas, they allow scientists 
to monitor oysters that are free from harvesting pressure and to 
evaluate their experiments and the concept of controlled harvesting as 
a recovery method. Maryland presently has 29 sanctuary areas, ranging 
in size from entire tributaries, such as the Severn River, down to 
about 10 acres, and 4 major reserve areas.
    To date, some sanctuaries have received good natural sets of spat 
on planted shells, indicating a strong start for the restored sites. 
Other sanctuaries in lower setting areas were planted with hatchery 
seed, and these populations too have experienced good initial growth 
and survival. Unfortunately, most of these sanctuaries were impacted 
over time by the diseases and have suffered high oyster-mortality rates 
in both the planted seed and natural oysters. The net total of the 
oyster populations have not increased under a sanctuary strategy: They 
have decreased.

2. Hatchery Seed Oysters
    Hatchery seed oysters are a key component of the restoration 
program for sanctuaries and reserves. The seed oysters that are disease 
free when they leave the hatchery are planted to stock restoration 
sites. At times, natural spat set occurs to populate a site, but 
hatchery seed is the dominant source of oysters for restoration sites. 
Seed plantings in lower salinity areas, which are also low-disease 
areas, have survived and grown well, while the hatchery seed placed in 
higher-disease areas have been infected and essentially lost to 
disease. In 2003, Maryland planted more than 100 million hatchery seed 
compared to less than 15 million about 5 years ago. To achieve the 
ultimate goal of restoring the Bay, hundreds of billions of oysters are 
needed. This requires oysters to successfully reproduce and survive in 
the wild in all areas of the Bay.

3. Habitat
    Habitat improvement has been the foundation of oyster restoration 
for more than 100 years. Oysters need clean habitat on which to set and 
grow. Habitat improves a spat set, so in an effort to increase the spat 
set and the overall oyster population survival, shell plantings have 
been made in restoration areas. However, spat-setting areas are also 
disease-prone areas, and we are seeing high mortality rates in the 
third and fourth years. The habitat strategy does not address disease; 
therefore, habitat initiatives are helpful but not the answer for total 
oyster restoration.
    Currently, about 100 acres of habitat are shelled each year for 
restoration goals compared to less than 20 just a few years ago. 
Thousands of acres still need improvement.
    A variation on the habitat theme was the construction of 3-D 
habitat in the form of large shell piles to elevate oysters in the 
water column, thereby encouraging a healthier stock. The theory was 
that such habitat would aid restoration, but thus far, the diseases 
also impact these oysters, showing that 3-D habitat alone is not a 
viable solution. Another variation was using non-shell materials. They 
have been planted on restoration sites, but they do not attract spat as 
effectively as shell. Even if they equaled or surpassed shells, disease 
would undermine the populations.

4. Harvest Control
    Reducing or ceasing harvest has been recommended and reviewed as a 
viable method to restore Bay wide stocks. Sanctuaries are a form of 
harvest reduction, as are limitations on the harvesting season, the 
daily bushel limit, and the gear that is used. During the past 10 
years, though sanctuaries have increased, we have not seen improvement 
in oyster abundance in closed areas that have been off limits to 
harvesting. In wide areas of the Bay, including most of Virginia's and 
Maryland's waters, there has been a de facto moratorium on harvesting 
due to disease impacts, yet oysters have not recovered in the absence 
of a fishery. One could conclude that harvesting is not the cause of 
the problem and therefore not the solution.
    A method related to controlling harvest that was implemented and 
monitored was to buy back large oysters harvested by watermen and 
replant the oysters in sanctuaries to encourage these disease survivors 
to produce better progeny for the Bay. The buyback oysters that were 
purchased and returned to the waters were themselves highly infected, 
and they quickly died.

EFFORTS TO CONSIDER AND INTRODUCE A NON-NATIVE OYSTER
    Due to the lack of ecologically and economically significant 
results and the inability of current strategies to mitigate and address 
the diseases, a new approach must be considered to restore the entire 
Bay--the solution must enable oysters not only to survive but also to 
reproduce successfully and thrive. Hundreds of billions of oysters are 
required to help restore the Bay.
    Maryland is currently reviewing a proposal to introduce a second 
oyster species, the Oregon strain of the oyster Crassostrea ariakensis 
(C. ariakensis) to the Chesapeake Bay.
    This oyster, also known as the Asian Oyster, has been in U.S. 
waters since 1957 and was imported again in 1972 to Oregon for 
aquaculture and has since been under evaluation in Virginia and North 
Carolina. The current West Coast brood stocks are in their fifth 
generation since the original stocks were imported. Our proposal would 
use only the Oregon strains of C. ariakensis. The ICES protocols have 
been met, and the introduction of diseases, viruses, or pathogens from 
outside the United States has already been addressed and minimized in 
accordance with the NAS recommendation. To date, no significant 
mortalities due to diseases or other causes were noted during the 
sustained commercial production on more than 100 acres of beds in 
Oregon.
    Its environmental requirements are much like our native oyster, 
indicating it is a good candidate for consideration to restock the Bay. 
Results from Virginia show that the Crassostrea ariakensis is not 
infected by MSX, but is by Dermo. However, it survives well even though 
it has Dermo. Mortality rates are extremely low, as the native oyster 
was before disease appeared in the Bay. The C. ariakensis filters water 
a little less efficiently than a same-sized native oyster, but because 
it grows twice as fast and given its expected longer life span, the 
population would still filter more water than the native population. 
Tests in Virginia also confirm that native spat will set upon the 
shells of C. ariakensis and grow, indicating that large populations of 
C. ariakensis could provide the needed clean, hard-bottom habitat to 
assist native oyster populations.
    In July, 2003, the Secretaries of Virginia's and Maryland's 
Departments of Natural Resources submitted a request to the U.S. Army 
Corps of Engineers in Norfolk, Virginia, to coordinate the evaluation 
of an introduction of this second species of oyster to the Bay by 
preparing an Environmental Impact Statement (EIS). Since that time, 
both Departments have been working with the Corps to do the preparatory 
work necessary for this comprehensive and extensive public review of 
our proposal.
    A formal planning meeting will convene October 15 and 16, 2003, 
with the U.S. Army Corps of Engineers, U.S. Environmental Protection 
Agency, U.S. Fish and Wildlife Service, National Oceanic and 
Atmospheric Administration, Virginia, and Maryland to begin the process 
of preparing an EIS for public review and comment. Preparation of this 
EIS will be aided by the recently issued report by the National Academy 
of Sciences, including the funding of specific research directed at the 
questions and uncertainties identified in the NAS report. DNR would 
like to complete the EIS in 12 to 18 months, an ambitious but doable 
time frame

POTENTIAL EFFECTS OF INTRODUCING A NON-NATIVE OYSTER
    A central feature of the Environmental Impact Statement to be 
developed is to analyze the risk of unknown or unanticipated 
consequences in introducing a non-native oyster in the Chesapeake Bay. 
Many of the potential effects are not currently known and will be 
addressed in the EIS, including:
    <bullet>  Where will the C. ariakensis grow in the Bay, and how 
might the oyster affect other resident species, especially the native 
Eastern oyster?
    <bullet>  Will C. ariakensis provide ecosystem services to the Bay 
similar to those provided by the native oyster?
    <bullet>  Will C. ariakensis become a nuisance species, which would 
result in negative impacts on the Bay ecosystem?
    <bullet>  What are the chances of the non-native oyster dispersing 
to regions outside the Bay?
    <bullet>  If an illegal introduction of C. ariakensis occurs, is 
there an increased concern that disease agents or other species that 
may be attached to the oysters would be introduced into the Bay?
    The NAS report that will be discussed shortly includes discussion 
on each of these questions and on possible economic and social effects. 
A table included in the NAS report assesses the short-term (1-5 years) 
potential outcomes for biological and social factors likely to be 
affected by selection of three options presented in the report, a 
caveat being that there are uncertainties associated with each outcome.
    Using ICES protocols, the NAS report identifies positive and 
negative factors (see chart below) associated with a large, managed 
diploid (reproducing) introduction of C. ariakensis. These initial 
assessments will be a point of reference as the EIS is prepared.
[GRAPHIC] [TIFF OMITTED] T9844.005


REGULATORY ISSUES SURROUNDING THE INTRODUCTION OF A NON-NATIVE OYSTER
    The primary concern regarding the introduction of a non-native 
oyster is that it could be considered an invasive species. The National 
Invasive Species Act of 1996, which governs the introduction of non-
native species through ballast water, defines ``aquatic nuisance 
species'' as a ``nonindigenous species that threatens the diversity or 
abundance of native species or the ecological stability of infested 
waters, or commercial, agricultural, aqua cultural or recreational 
activities dependent on such waters.'' 16 U.S.C. 4702 (1). Ultimately, 
the EIS will address this issue in detail, but evidence is not 
available to conclude that C. ariakensis would be an invasive species:
    1.  No harmful effects have been observed after more than 30 years 
of C. ariakensis being in Oregon waters. Oyster stocks have been 
tracked and raised from brood stock, which were imported to Oregon from 
Ariake Bay, Japan, in 1969-71. No other imports have been recorded 
since then.
    2.  No diseases have been reported in these stocks since their 
importation to Oregon or in studies conducted by Virginia. No natural 
spawning occurs in these stocks due to high (near full sea water) 
salinities in the region. No setting occurs in larvae from these stocks 
at 35 ppt (full-strength sea water). The oyster requires moderate (15-
20 ppt) salinities and high temperatures (>60 F) for successful 
spawning and larval survival.
    3.  From East Coast field studies and other sources, C. ariakensis 
eats algae, which is overabundant and a serious problem in the 
Chesapeake Bay. C. ariakensis provides hard-shell habitat, which the 
Bay has lost by the thousands of acres and which many organisms need. 
C. ariakensis provides habitat for native oyster spat as documented in 
Virginia studies.
    To virtually eliminate foreign disease risks, oysters will NOT be 
brought from Asia but from Oregon stocks. Virginia Institute of Marine 
Sciences brood stock and would be the parentage for large-scale 
introductions to the Bay.

NATIONAL ACADEMY OF SCIENCES (NAS) REPORT
    On August 14, 2003, the Committee on Non-native Oysters in the 
Chesapeake Bay, Ocean Studies Board, and National Research Council of 
the National Academy of Sciences released the prepublication version of 
their report on Non-native Oysters in Chesapeake Bay.
    The Academy was asked to examine the ecological and socioeconomic 
risks and benefits of open-water aquaculture and the direct 
introduction of the non-native oyster Crassostrea ariakensis in the 
Chesapeake Bay. The report reviews how C. ariakensis might affect the 
ecology of the Bay, including effects on native species, water quality, 
habitat, and the spread of human and oyster diseases and possible 
effects on recovery of the native oyster. The Committee assessed 
whether the breadth and quality of existing research on oysters and 
other introduced species is sufficient to support risk assessments of 
three management options: 1) no use of non-native oysters; 2) open 
water aquaculture of triploid (non-reproducing) oysters; and 3) 
introduction of reproductive diploid oysters. Where current knowledge 
was considered inadequate, the committee recommended additional 
research priorities.
    In brief terms, the executive summary of the report states that, 
because relatively little is known about C. ariakensis, it is difficult 
for scientists and resource managers to decide whether this oyster has 
the potential to help or hurt conditions in the Chesapeake Bay, either 
for the industry or the ecosystem. Hence, opinions range from the hope 
that this oyster will revive a threatened industry and restore some of 
the filtering capacity of the original oyster population to the fear 
that it will be an invader that outgrows the commercial demand for 
oysters and upsets the ecology of the Bay. The report addresses a wide 
range of issues and concludes, given the present state of knowledge, 
that they are currently unable to predict the long-term impacts of this 
oyster if it is introduced to the Bay.
    Even though the Committee rejected the option of ``no use of non-
native oysters,'' they warned that there is a risk of a rogue 
introduction. The report further concluded, ``Our review of the case 
studies clearly indicates that greater ecological or economic harm 
typically arises from organisms that are inadvertently introduced with 
the foreign oyster.''
    The NAS report sums up the situation we face: ``...nevertheless, a 
decision must be reached about whether or not to proceed with the use 
of the non-native oyster despite uncertainty in the type and magnitude 
of the potential risks involved.'' It will only be through an 
Environmental Impact Statement that a final decision will be made and 
that the risks will be weighted against the benefits.
    DNR appreciates the advice and guidance offered by the NAS report 
and will be utilizing that guidance in determining research priorities 
and in preparing the Environmental Impact Statement. We have already 
begun, in cooperation with the University of Maryland and Virginia 
research institutions, to prioritize the needed research and have 
identified funds to begin this research.

CONGRESSIONAL ACTION NEEDED
    One issue examined in the NAS report dealt with ``the regulatory 
framework for managing proposed introductions'' and local, national, 
and international jurisdiction. The report points out that ``...EPA 
does not consider `a non-native organism' a `pollutant' for NPDES 
permitting purposes, and that the U.S. Army Corps of Engineers approval 
is required only if an introduction involves structures or fill.''
    We are uncertain why jurisdiction should be a matter of concern or 
needs to be further debated. The states will, as indicated in the joint 
letter to the Norfolk District of the Corps, prepare a full EIS in 
accordance with federal guidelines and in cooperation with the federal 
agencies, including consideration of possible impacts beyond the 
Chesapeake Bay. We will conform to the ICES protocols regarding 
introductions of non-native species to minimize the introduction of any 
``hitchhikers.'' Furthermore, we will be inviting the Atlantic States 
Marine Fisheries Commission to be the interstate forum where interstate 
interests can be addressed as we proceed with the EIS.

CONCLUSION
    Our priority is the restoration of the entire Chesapeake Bay. That 
restoration has many facets because the Chesapeake Bay is important in 
so many ways. Maryland's comprehensive approach to restoring the Bay 
includes: nutrient reduction, SAV restoration, and oyster restoration. 
The Oyster is the cornerstone of Maryland's restoration strategy 
because it is an absolutely essential element of the Bay's ecology.
    While Maryland will continue native oyster restoration efforts, the 
catastrophic levels of this specie demand that we consider alternative 
efforts. Our only alternative is whether the naturalized Oregon strain 
of C. ariakensis should be introduced into the Chesapeake Bay. To that 
end, it will take full cooperation and support of the federal 
government to ensure that all necessary steps are taken to ensure the 
decision process is comprehensive and expeditious.
    The key decision points we will be focusing on are:
    1.  Will an introduction cause harm to the ecology of the Bay;
    2.  Are there ecological and economic benefits to be derived from 
an introduction;
    3.  Will introduction interfere with efforts to recover the native 
oyster; and,
    4.  If introduced in Chesapeake Bay, will there be impacts on other 
coastal areas outside of Chesapeake Bay?
    We estimate the costs of the EIS and non-native research to be 
approximately $3 million over the next 12 to 18 months. A longer-term 
research program may be required to investigate whether different 
strains of C.a. brought in from outside the U.S. would be a feasible 
alternative.
    We also believe there is some urgency. While the outlook for the 
native oyster from both an ecological and economic perspective is 
bleak, it will take time to do the EIS and conduct the necessary 
research. Nevertheless, time is of the essence, and it is our hope that 
the EIS can be completed within a 12 to 18 month time frame. The 
situation is urgent and we are prepared to assist in a way deemed 
necessary--to protect the health of the Chesapeake Bay.
    Thank you for the opportunity to explain our rationale and need for 
a decision on oysters. We look forward to a full and informative public 
dialogue on our proposal and a balanced decision that furthers the 
restoration of Chesapeake Bay.
                                 ______
                                 
    Mr. Gilchrest. Dr. Franks.
    Mr. Franks. Yes, sir.
    Mr. Gilchrest. As Maryland moves along to consider the 
Asian oyster ariakensis, as part of a solution to the 
restoration of water quality in the Chesapeake Bay, and I think 
it is my understanding that Maryland, more so than Virginia, at 
this time is considering the introduction of diploid as opposed 
to triploid oysters; is that correct?
    Mr. Franks. We are after the EIS. If it shows that it is 
possible to do that with minimal risk.
    Mr. Gilchrest. And Dr.--so Dr. Wesson, oh, I am sorry. I 
missed--OK. Let me hold off on the questions until Dr. Wesson 
is done. Thank you.
    Mr. Franks. Yes, sir.

  STATEMENT OF JAMES A. WESSON, DEPARTMENT HEAD, CONSERVATION 
 REPLENISHMENT DEPARTMENT, VIRGINIA MARINE RESOURCE COMMISSION

    Dr. Wesson. Thank you, Mr. Chairman, for allowing the 
Commission to testify today. Everybody has mentioned the 
keystone value of the oyster to the Chesapeake Bay. But they 
are also extremely important to the health of the Commonwealth, 
and they provided livelihoods for untold numbers of Virginians, 
especially in the rural and the Bay shore communities.
    In the 1890's, because of their significant economic value, 
the Commonwealth actually set aside more than 200,000 acres of 
bay bottom for public use. But all the rest of the acreage was 
made available for private leasing, and we have had an 
aquaculture industry in continuous use for more than a hundred 
years. Oyster production in Virginia declined dramatically 
around the turn of the century into the early 1920's as it did 
in Maryland before we knew that the shells were so valuable to 
the oyster, and we had to put them back overboard.
    But once the public and the private industry began 
returning shells back to the Bay, from the 1920's to the 
1950's, the oyster production was actually increasing in 
Virginia's part of the Bay. In the late 1950's, as we have all 
heard, that was when the disease was introduced to the Delaware 
and Chesapeake Bays, there was a rapid and sustained decline in 
oyster production and population levels to the lowest point 
that now exist in Virginia. The newly introduced disease MSX, 
in combination with the native disease Dermo, have almost 
totally decimated the oyster industry and reduced the current 
populations in Virginia to less than a half a percent of what 
it was just 45 years ago.
    The small oyster processing industry that remains in the 
Commonwealth survives almost exclusively on the processing of 
imported oyster shell stock. The industry remains at a 
competitive disadvantage in the marketplace due to the cost of 
importation and more shucking houses close with each passing 
year. In the late 1950's, there were 400 shucking houses in 
Virginia, and currently there are less than 15 that actually 
have any significant shucking activity at all.
    The Virginia Institute of Marine Science, along with the 
Virginia Marine Resources Commission, have implemented 
countless strategies, research products and restoration 
programs to combat the disease-induced decline in the oyster 
population since the 1950's. The private oyster industry has 
invested and lost millions of dollars using various strategies 
to grow oysters within the disease-dominated conditions in the 
Bay.
    Private investment has mostly been suspended because of the 
inherent risks and losses. State restoration activities have 
continued throughout the decline and have included the best 
science and management strategies that were available at any 
given time. The oyster restoration effort has been especially 
ambitious since the early 1990's with the combination of 3-D 
oyster reef restoration projects, the setting aside of large 
acreages of sanctuaries, the strict control of the wild 
harvest, and the implementation of quantitative statistically 
sound oyster monitoring programs. The 3-D oyster reef 
restoration and sanctuary program that was implemented at the 
VMRC has become the model for Bay-wide restoration efforts. The 
3-D sites that we have built, they duplicate the conditions 
that the oysters were in before harvesting began, and we have 
found that the reefs improve the juvenile spat, juvenile 
survival and spat set because they protect the oysters from 
predation.
    The oysters on the reefs grow faster which increases the 
fecundity, and we know that on the reefs we have improved their 
fertilization rates because the oysters are close to one 
another. The broodstock oyster population on these reefs have 
either been allowed to develop naturally, or in many cases, 
have been augmented with the best genetic stocks that we had at 
the time. And since we have begun this work, it has become the 
Bay-wide consensus that the restoration of the 3-D reefs and 
the establishment of sanctuaries is throughout the Bay is the 
best way to achieve the 2000 tenfold increase in the native 
oyster population goal by 2010.
    And there has been a significant influx of the State, 
Federal and private monies to rebuild these reefs in Virginia 
and, in fact, we have built more than 70 of these reefs in the 
Commonwealth throughout the Bay, and there has been a 
significant outlay of money and effort to build these reefs, 
and we have not seen any increase in oyster populations 
associated with this effort, nor have there been any increase 
in oyster harvests.
    In fact, since we began this work in 1993, the population 
of oysters are actually only 40 percent of where we began. 
Oyster disease still dominates the survival and can be seen 
from the minor results on the restored reefs. Once we build the 
reefs, we get a large spat set. We see the populations grow 
quickly. But within 2 to 3 years, the number of large oysters 
has returned to the levels that we see throughout other parts 
that we haven't restored in the local areas. There has been all 
sorts of research efforts to understand the diseases and to 
selectively breed tolerant oysters and we have been working on 
this for more than 40 years, and there has been some progress 
in disease tolerance, but the risks still remain too great for 
any significant private investment.
    To date, the selective genetic improvement of disease 
tolerance did not appear to transfer into the wild populations. 
And Virginia began this work on considering the non-native 
oyster in the late 1980's. It has not been a new process for 
us. We have been slow and deliberate in the efforts that we 
have done through private industry and research institutions 
and the government entities.
    We filed an international protocol for testing of non-
native aquatic species and all the, as you have heard, all the 
broodstock has been quarantined throughout these projects. The 
tests have been--we started off with actually the Pacific 
oyster, and found very quickly that they didn't like the Bay 
very much and, actually, the industry is not very interested in 
using them because of the taste.
    But in the mid 1990's, with the results that we have seen 
with the second oyster, the ariakensis that we are talking 
about now that have been done, the research the Virginia 
Seafood Council petitioned the Commission to do some industry 
trials, and the results on those trials have been excellent, 
whether we have worked in low middle or high salinity areas and 
that the oysters grew fast.
    They had a very similar taste to the Chesapeake Bay 
oysters, and we didn't see any problems with diseases in them 
in all the areas that they were tested. These projects have 
grown as we started with 600 oysters, then we went to 6,000--
600 oysters per site, and about 6,000 oysters, and then we went 
to 60,000 oysters in the second project, and now we are into 
the project that we have been hearing about today where we are 
testing a million oysters, but you still have to keep in mind 
that the million oysters are still not even one week's worth of 
material for a moderately large shucking house in Virginia.
    VMRC is currently monitoring the project closely and all 
future requests that would come to VMRC for regulatory approval 
also must be approved through the Corps of Engineers. We are in 
the process of completing the environmental impact statement or 
beginning that process. And VMRC will be an active participant. 
It is critically important to the survival of the beleaguered 
industry to move this process as quickly as possible.
    Congress can be instrumental to the success of these 
efforts by fully funding the process to allow the projects to 
occur simultaneously and quickly. Currently, nearly all the 
important functions of oyster and Chesapeake Bay area are 
either lost or severely diminished. Oysters are critically 
important to filter the Bay's waters as we heard to provide 
this complex habitat for the oyster as well as other species, 
and to provide sustainable economically viable product for the 
historic industry. All available resources that the Congress 
can possibly bring to bear on this effort would be immensely 
important to the citizens of the Commonwealth of Virginia.
    Mr. Gilchrest. Thank you, Dr. Wesson.
    [The prepared statement of James Wesson follows:]

  Statement of James A. Wesson, Ph.D., The Virginia Marine Resources 
      Commission, Division of Fisheries Management, Department of 
                     Conservation and Replenishment

    Oysters are keystone contributors to the ecological health of the 
Chesapeake Bay and barrier island/lagoon system of Virginia. They also 
have been extremely important to the health of the economy of the 
Commonwealth, as they have provided livelihoods for untold numbers of 
Virginians, especially in rural, bayshore communities. In the 1890s, 
because of the significant economic value, the Commonwealth of Virginia 
surveyed and set aside more than 200,000 acres of oyster ground for 
public use. The remaining areas of bay bottom are available for private 
lease and have been in continuous use for private oyster production, 
for more than a century.
    Oyster production in Virginia has declined dramatically, since the 
turn of the century, owing to several factors. From 1880 through the 
1920's, the decline in harvest was directly related to harvesting 
activities. The value of the harvested shell, as a building commodity 
on land, resulted in lost reef volume, as the reef shells were not 
returned to the bay. These activities resulted in a significant decline 
in oyster populations. Oyster restoration began when the Commission of 
Fisheries (currently the Virginia Marine Resources Commission) and the 
private oyster industry in Virginia started returning harvested shells 
to the oyster ``rocks'' or reefs in the late 1920's. At that time, the 
value of the shell as a building material had declined, due to the 
availability of quarry stone and a better highway transportation system 
to the bayshore communities. As shells were returned to the oyster 
rocks, oyster production actually increased significantly between the 
late 1920's and the late 1950's. Oyster management and private oyster 
husbandry maintained and increased oyster production and Virginia 
became a worldwide leader in oyster production.

[GRAPHIC] [TIFF OMITTED] T9844.006


    In the late 1950's, a new oyster disease was introduced to the 
Delaware and Chesapeake Bays, and this disease caused a rapid, and 
sustained decline in oyster production and population levels to the 
lowest point that currently exists in Virginia's waters. The newly 
introduced disease called MSX, in combination with the native disease 
called DERMO, have totally decimated the oyster industry and have 
reduced current population levels of oysters in Virginia to less than 
one half of one percent of levels only 45 years ago. The small oyster 
processing industry that remains in the Commonwealth survives almost 
exclusively from the processing of imported oyster shellstock. The 
industry remains at a competitive disadvantage in the marketplace, due 
to the costs of importation, and more oyster shucking houses close with 
each passing year. There were more than 400 shucking houses in Virginia 
in the late 1950's, while currently no more than 15 still continue any 
significant amount of shucking activity.
    The Virginia Marine Resources Commission (VMRC) and the Virginia 
Institute of Marine Science (VIMS) have implemented countless 
strategies, research projects, and restoration programs to combat the 
disease-induced decline in oyster populations since the 1950's. The 
private oyster industry has invested and lost many millions of dollars, 
using various strategies to grow oysters within the disease-dominated 
conditions in the Bay. Private investment has mostly been suspended 
because of the inherent risks and losses. State restoration activities 
have continued throughout the decline and have included the best 
science and management strategies that were available at any given 
time. The oyster restoration effort has been especially ambitious since 
the early 1990s, with a combination of 3-dimensional (3-D) oyster reef 
reconstruction projects, the setting aside of large acreages of 
sanctuary areas, the strict control of wild oyster harvest, and the 
implementation of a quantitative, statistically sound oyster-monitoring 
program.
    The 3-D oyster reef restoration and sanctuary program implemented 
by VMRC has become the model for baywide oyster restoration efforts. 
These 3-D reef restoration sites duplicate oysters reefs that were 
observed prior to any significant harvesting activities. These 
constructed reefs improve juvenile oyster survival (resulting in 
improved spatset), allow oysters to grow faster (resulting in improved 
fecundity or reproductive capacity), and physically position oysters in 
the most optimal configuration for spawning success (resulting from 
improved fertilization rates). Broodstock oyster populations on these 
reefs have been allowed either to develop naturally, or, in many cases, 
have been augmented with genetically selected oyster broodstock. Since 
there has been baywide consensus that the restoration of 3-D reef 
structures and the establishment of oyster sanctuaries throughout the 
Bay is the best way to achieve the Chesapeake Bay 2002 goal of a 10-
fold increase in native oyster populations by 2010, there has been an 
extremely significant influx of State, federal and private monies to 
rebuild these reefs in Virginia. Since 1993, more than 70 of these 
reefs have been constructed throughout the Bay. The significant outlay 
of money and effort to rebuild oyster reefs has not increased oyster 
populations in the Bay or provided any increase in the associated and 
direly needed oyster harvest in the Commonwealth. Since the reef 
restoration effort began in 1993, the standing stock of oysters in 
Virginia's portion of the Bay has actually decreased by almost 60 
percent. Oyster diseases still dominate oyster survival, as can be seen 
from the monitoring results from all of the restored reefs.

[GRAPHIC] [TIFF OMITTED] T9844.007

[GRAPHIC] [TIFF OMITTED] T9844.008

[GRAPHIC] [TIFF OMITTED] T9844.009


    Newly-constructed reefs are rapidly populated by oysters, and the 
oysters grow very fast for the first one to 2 years, but most oysters, 
even on the ideally constructed reefs, succumb to disease within 2 to 4 
years. The very expensive, constructed, 3-D reefs lose their value as 
clean, oyster habitat, as the oysters die off on the reefs, and quickly 
return to the background population levels of the surrounding, 
unrestored areas.
    Significant efforts by research institutions, such as the Virginia 
Institute of Marine Science, have been made to understand oyster 
diseases and selectively breed disease tolerant native oysters. After 
more than forty years, MSX is still poorly understood, especially its 
method of transmission from oyster to oyster, and there is no 
dependable selected strain of genetically improved, disease tolerant 
oysters that can sustain a commercial aquaculture industry in Virginia. 
Some progress has been made in disease ``tolerance'', but the risks 
remain too great to entice significant private investment. To date, the 
selected, genetic improvement in disease tolerance does not appear to 
transfer into wild populations of oysters.
    In the late 1980s, Virginia began discussing a non-native oyster 
introduction, as possibly the only strategy to counteract the impacts 
of disease on native oyster populations and as a way to save the 
associated, valuable industry. The process of considering a non-native 
introduction has been slow and deliberate, with much input from private 
industry, research institutions, and governmental entities. 
International protocols for the testing of non-native aquatic species 
have been followed during this time period. Introduced broodstock has 
been quarantined during all projects, and only sterilized oysters have 
been tested in the waters of the Commonwealth. The earliest tests were 
always conducted under research protocols by VIMS. The Pacific oyster 
(Crassostrea gigas), the most widely used and introduced oyster in the 
world, has been tested and found not acceptable in the Chesapeake Bay, 
in both performance and industry acceptance. In the late 1990s, another 
closely related and similar looking species called the Suminoe or 
Chinese oyster (Crassostrea ariakensis) was tested in Virginia's 
portion of the Chesapeake Bay and coastal bays. Research results were 
very good, with this oyster exhibiting significant resistance to 
disease and exceptional growth rates, at a number of sites. Taste tests 
for the oyster were also very positive.
    Based on these results, the Virginia Seafood Council petitioned the 
Virginia Marine Resources Commission in 1999 to allow industry tests 
with the Suminoe oysters using very controlled methods. The first tests 
involved a direct, ``on-bottom'' comparison between the Suminoe oyster 
and the native oyster at 6 locations. All of the oysters were triploid 
(sterile) and contained within bags and cages. In low, mid, and high 
salinity areas, C. ariakensis grew to market size faster than the 
native oysters (most of the native oysters never reached market size), 
with most of the oysters reaching market size in one year or less.
    Only 600 oysters were grown at each of the six sites in this 
project, and the results were so positive that a second, larger growout 
project was requested in 2000. In the second Virginia Seafood Council 
trial, 60,000 triploid (sterile) oysters were deployed by various 
methods at 10 sites throughout Virginia's portion of the Bay and 
coastal bays. This test was designed specifically to evaluate market 
acceptance of the new oysters by the industry participants. Growth 
rates were exceptional again. There was no evidence of any significant 
mortality, and the consumers found the oyster very acceptable as a food 
product. With the poor condition of our native oyster in the Bay, 
bushels often shuck less than 5 pints of oyster meat. In the winter, 
local oysters can shuck up to 10 pints per bushel. The Suminoe oyster 
consistently shucked more than 12 to 13 pints per bushel, so the 
attractiveness to the industry cannot be overstated.
    Concurrent with the exceptional results with the non-native oyster 
were the disappointing results with the native oyster. Imported 
shellstock from the northeast and Maryland has been unavailable because 
of poor oyster survival. Competition in Virginia markets from west 
coast oyster imports is much more severe than previously, as local Bay 
shellstock has become unavailable and many long-held accounts have been 
lost by the local industry. Processors from the Gulf Coast States have 
become more competitive, as they have been processing more oysters 
locally and taking markets away from the Chesapeake Bay industry. The 
processors in Virginia's portion of the Bay must import shellstock, 
with all of the attendant transportation costs, and compete with oyster 
producers nationwide. The combination of the dire situation of a 
continued lack of local shellstock and the impressive results with the 
non-native oyster trials have resulted in a desperate situation for the 
remaining industry and its need to move this project along as quickly 
as possible.
    The Virginia Seafood Council has continued with requests to test C. 
ariakensis with a proposal to use 1,000,000 triploid oysters in the 
current project. This appears to be a large project; however, this 
quantity of oysters is used by one moderately large shucking house in a 
single week. This project, now underway, triggered the review process 
that has led to this hearing and triggered the National Academy of 
Sciences study that was completed this summer. An exhaustive State and 
federal review has resulted in significant modifications to the 
originally proposed project. The Virginia Seafood Council has been 
persistent in moving this project forward and has made modifications 
and coped with the associated delays. The National Academy of Sciences 
review has supported the conservative direction of the studies using 
the sterile triploid, non-native oyster that have been approved by VMRC 
and other federal agencies.
    The VMRC is monitoring the current project closely. All future 
project requests will require VMRC regulatory approval, as well as 
approval from the Army Corps of Engineers. The process of completing an 
Environmental Impact Statement (EIS) is beginning, and VMRC will be an 
active participant in that effort. It is critically important to the 
survival of the beleaguered oyster industry to move this process as 
quickly as possible. Congress can be instrumental to the success of 
these efforts, by fully funding the EIS process, to allow all of the 
projects to occur simultaneously and quickly. It is also important that 
non-native oyster species be exempted from House Bill 1080, the 
National Aquatic Invasive Species Act, so that no unnecessary 
regulatory hurdles are added to the process.
    Currently, nearly all the important functions of the oyster in the 
Chesapeake Bay are either lost or severely diminished. Oysters are 
critically important in their ability to filter the Bay's waters, to 
provide a complex habitat for other species in the Bay, and to provide 
a sustainable, economically viable product for an historic industry. 
All available resources that Congress can apply to this effort are 
immensely important to the citizens of the Commonwealth of Virginia.
                                 ______
                                 
    Mr. Gilchrest. Dr. Wesson, Virginia's goal as far as 
ariakensis is concerned, now I know that it is complicated. 
There is myriad of multiple things to do. Is the essence at 
this point though the goal of the State of Virginia with 
ariakensis to continue working with triploid oysters over a 
certain timeframe before considering the introduction of 
diploid oysters in Virginia waters?
    Dr. Wesson. Yes, sir. That is the current state that we are 
in. Where all the projects that have been considered this far 
have been with triploids and none have come before the 
Commission as a request to do triploids to date.
    Mr. Gilchrest. Are you going to have, or has there been, a 
discussion on a timeframe for experimentation research with 
diploids, or is it all dealing right now with triploids?
    Dr. Wesson. Well, some of the research is going on with 
triploids in quarantine. But all the end water testing that we 
are considering right now is with triploids, and there is 
really not a time schedule that has been set up per se, but the 
clock is ticking on the industry if we have any hope that they 
will be able to survive through the effort. So there is a sense 
of urgency.
    As the industry has seen their ability to compete in the 
marketplace where now the west coast oysters are in our 
marketplace almost everywhere. The Gulf industry has become 
much more active in marketing their own product rather than 
sending it to the Chesapeake Bay for us to shuck. And the 
ability for the industry in Virginia and Maryland to compete 
will only depend on the availability of local shell stock.
    Mr. Gilchrest. Now, are you looking at local shell stock 
being triploid? Do you see in a year or two, in 10 years that 
triploid oyster being replaced with diploid? Do you think the 
oyster industry in Virginia can be saved with triploid 
ariakensis?
    Dr. Wesson. It is impossible to know at this point. It is 
very hard to imagine that no other industry in the world has 
been--had a hand tied behind its back and told that you can 
only use sterile oysters and compete in a world marketplace. 
So, if you would ask the industry, I think they are certainly 
willing and able to bring their own financial resources to bear 
to move triploid aquaculture along as fast as possible. But for 
our Bay, we have always had an industry that is built on a 
shucking product. And because of that, the costs are set by the 
rest of the world whatever the costs are in the Gulf or what 
the costs are on the west coast.
    And in order for these facilities to survive, they are 
going to have to have a product that they can shuck at a cost 
that is competitive. And a part of that can be made up by the 
fact that the triploid ariakensis is much meatier or fatter and 
that for the Virginia oyster, right now if you shuck a Virginia 
oyster, you get four to five pints per bushel production.
    In the wintertime, when they are really fat, you might get 
up to 8 to 10. With the triploid ariakensis, we have seen 
regularly 13 pints, 12 or 13 pints of meat per bushel. Now, 
when you have that combination of the very meaty nature of the 
oyster, then you can have some slack in the amount of 
production that you have to have and it makes triploid 
aquaculture seem to be possible.
    Mr. Gilchrest. Did you bring some samples for us to taste?
    Dr. Wesson. Unfortunately, our samples have run out. The 
product now has been separated between the last one we had 2 
years ago. The oysters were big, and they are gone. You 
wouldn't want to eat them as big as they are now, the few that 
are left.
    Mr. Gilchrest. I would like to try one of those big ones.
    Dr. Wesson. The new ones have just gone out.
    Mr. Gilchrest. Thank you.
    Dr. Franks, how would you categorize Maryland's approach to 
this issue? Similar to what Virginia is doing? Virginia, if I 
can paraphrase, is looking, at least in the immediate future, 
the timeframe of the next few years, dealing with making 
triploid the priority, and Maryland is looking to make the 
diploid the priority; and, if we are, is it for traditional 
wild harvest, is it for hatchery-raised, farm-raised 
aquaculture, or a combination of the two?
    Mr. Franks. It is a combination of the two, Mr. 
Congressman.
    I think right now we are looking at some triploid 
possibilities that exist currently. They are not large scale, 
but they might offer a little bit of relief to the oyster 
industry that has been devastated so heavily. But the primary 
point of focus for us is conducting a thorough and complete EIS 
to see whether or not it is possible to introduce a self-
reproducing oyster without further detriment to the Chesapeake 
Bay.
    That is the long-term direction that we are taking. We just 
want to be sure that we are not going to introduce something 
that will be harmful to us. If that is the case and if the EIS 
supports that, then I think we are going to move ahead very 
vigorously in introducing a diploid oyster.
    Mr. Gilchrest. Do you have a timeframe for the EIS?
    Mr. Franks. The EIS, I have heard some very interesting 
timeframes, all of the way from a year to 10 years. We are 
trying to do with the most frugal use of time that we can, 
without being reckless. We want to be thorough and complete, 
but we don't want to just establish a time that has 
historically been accepted as a time that it takes to do that 
kind of a project.
    We want to know exactly what needs to be done. We want to 
do it in as frugal a timeframe as we can, because we consider 
the situation that exists in Maryland, and I will say in 
Virginia as well, to be an emergency situation, a situation 
where our oyster population has been reduced to a level that it 
no longer is a filter for the Bay.
    If you combine that with the fact--and I don't want to 
introduce another subject, but if you combine that with the 
fact that menhaden are not or as populated in the Bay as they 
once were or filtering ability is dramatically changing, and we 
do not want to become an algal system where algae dominates and 
not oysters dominate. So we are moving ahead with all of the 
haste that is possible, without being reckless.
    Mr. Gilchrest. Thank you.
    As you move ahead with an EIS, do you see this EIS being 
conducted solely by the State of Maryland? Do you see the State 
of Maryland, through this EIS, partnering with other Federal 
agencies, the Chesapeake Bay program; and, in the end, do you 
see the necessity for a permit being issued before diploid 
oysters are introduced?
    Mr. Franks. Well, let's take the EIS process first. It was 
our original intention to partner with Virginia, and they 
agreed, and we sent the appropriate letter to the Corps of 
Engineers in Norfolk. They--and I can let them answer for 
themselves--evidently did not feel that they had jurisdiction.
    Mr. Gilchrest. The Corps of Engineers?
    Mr. Franks. The Corps of Engineers felt that they did not 
have jurisdiction. Recognizing that, we came to a point where 
we had to make a decision. So from that point we decided that 
Maryland, and hopefully in partnership with Virginia, would 
move ahead with a State EIS following the exact same guidelines 
you would follow if you did a Federal EIS.
    We have invited all of the appropriate agencies to be 
partners with us, to look over our shoulder, to be there to ask 
questions, to make sure that the EIS meets the criteria that we 
have set for it. So at that point, we have taken it on 
ourselves in Maryland, and hopefully with Virginia, to move 
ahead with a State EIS with Federal partners.
    Mr. Gilchrest. And this would be an EIS for the 
introduction of diploids?
    Mr. Franks. Correct.
    Mr. Gilchrest. OK. I have some other questions, but I will 
yield to, if she has any questions, Delegate Eckart for the 
panel.
    Ms. Eckart. Thank you very much. I appreciate the 
opportunity to be here with you. I had a welfare reform update, 
so that is where I was. So I just wanted to commend you not 
only for your work in this area but I think for the fact that 
we all appreciate the urgency of what we are about.
    I guess my comment--I guess my question would be, you 
certainly--for Dr. Wesson, you have worked on this for a long 
time in Virginia; and, as I understood your testimony, you said 
that, in fact, you have not seen a significant impact of the 
non-native oysters in your waters. Is that correct? Did I hear 
that clearly or not?
    Dr. Wesson. You are talking about non-natives then?
    Ms. Eckart. The ariakensis.
    Dr. Wesson. The non-native tests that we have done thus far 
have been highly controlled, everything in cages, sterile 
oysters. So, no, we have not seen any impact on anything else 
because they have all been retrieved.
    Ms. Eckart. OK. But the other efforts that you have made in 
restoring your oyster population have not been beneficial or 
productive. That you have--I thought I heard you say you 
continued to see a decline in the population despite efforts to 
turn that around?
    Dr. Wesson. That is correct. As we have spent more money, 
the numbers have actually gone down.
    Ms. Eckart. That is what thought I heard. I think we are 
all concerned about the impact of our efforts, that we want to 
make sure that we do make a good investment, a good return on 
our dollar; and I would hope, Mr. Secretary Franks, that we 
would move forward with the EIS study and, as you said, be 
deliberative with that but not careless or reckless.
    So I appreciate those efforts. I look forward to hearing 
more.
    Mr. Gilchrest. Thank you, Ms. Eckart.
    Ms. Hanmer, Dr. Wesson and Secretary Franks--and Dr. Wesson 
and Secretary Franks, if I misconstrued your earlier statement 
by paraphrasing it wrong as far as the tenfold increase program 
for native oysters, please correct me.
    Ms. Hanmer, it appears that Dr. Wesson and Secretary Franks 
have alluded to the fact that the process and the policy and 
the program to increase the native oysters tenfold by 2010 has 
not been successful at all. Would you agree with that 
assessment? And, as a result of that, if you agree, based on 
the 1993 policy, would you also agree with Virginia, but 
especially Maryland, that we should move forward with 
ariakensis?
    Ms. Hanmer. First, I can't say that the efforts to date to 
restore--that there is universal agreement, obviously, on the 
success or nonsuccess of the efforts to date. If you look at 
the broad picture and count the numbers, I have no reason to 
disagree with the numbers that Dr. Wesson has given you or Dr. 
Franks has given you. Those are the numbers. If you talk to 
other people in smaller operations, they say, well, we are 
beginning to learn a lot more at the individual technique 
basis. Things are becoming more successful. So I don't think 
that it is appropriate at this time to say that we want to pull 
the plug on the native oyster restoration program. I think it 
is just beginning to show us what we can do.
    As I mentioned in my prepared testimony, I also think that 
evaluation of native oysters aquaculture--and this is not 
universally shared, so I will say it is EPA's opinion that 
evaluation of native oyster aquaculture does have a place in 
the native oyster restoration program and should be looked at 
in a more concerted manner than it has to date.
    Mr. Gilchrest. Now, you say the evaluation of native oyster 
aquaculture?
    Ms. Hanmer. Yes. As you heard the description of the native 
oyster restoration activities to date, that has not been a 
focus. I am suggesting that we could focus more attention on 
native oyster aquaculture as a part of a host of approaches 
that the last panel discussed. So perhaps we have been too 
narrow in our discussion of what we mean by native oyster 
restoration.
    The second part of your question was, would we abandon the 
precautionary approach? And the answer is no. I think that--I 
don't want to make a hackneyed saying, but, you know, act in 
haste, repent in leisure is actually--
    Mr. Gilchrest. Say that again.
    Ms. Hanmer. Act in haste, repent in leisure has certainly 
been the history of some of our activities where agencies have 
introduced non-native species.
    I just wrote a grant request just the other day for money 
to try to eliminate zebra mussels in a quarry in Virginia. So 
the issue of getting rid of invasive species is very serious, 
and that is why we think that it is extremely important to 
approach the deliberate introduction of a possibly invasive 
species with great care. That is why we are committed to the 
environmental impact statement and to working kind of 
cooperatively with our Bay program partners on the research.
    Mr. Gilchrest. Would you want to be a part of the Maryland 
EIS process? And are you a part of the Maryland EIS process?
    Ms. Hanmer. Yes. The U.S. Environmental Protection Agency 
championed the idea of the development of an environmental 
impact statement.
    Mr. Gilchrest. Now, the development of an environmental 
impact statement on the introduction of diploid oysters?
    Ms. Hanmer. On the introduction of non-native oysters 
generally--generally.
    Mr. Gilchrest. If you do an--I apologize for interrupting. 
But if you do an EIS statement and you are in support of an EIS 
statement of the introduction generally of non-native oysters, 
does that specifically mean diploid oysters and then 
ariakensis?
    Ms. Hanmer. It means reproductively capable oysters; and 
under certain circumstances, triploid oysters introduction 
could be--also produce a reproducing population in the Bay.
    Mr. Gilchrest. What is the status now with that as far as 
you, Maryland and Virginia are concerned?
    Ms. Hanmer. The status is this spring the--we went through 
the ad hoc panel process of our Chesapeake Bay panel policy, 
and the Federal agencies got together with Virginia and 
Maryland in connection with working on our recommendations for 
the research proposals, the research marketing proposals in 
Virginia. So that in the context of working out conditions for 
the permit that was issued to the Virginia Seafood Council by 
the Norfolk District this spring, a number of safeguards were 
built into that permit at the instigation of the Federal 
agencies like our own Fish and Wildlife Service, National 
Marine Fisheries Service. So we reached agreement on the types 
of precautionary practices that should be associated with the 
current research on triploid oysters.
    As the years progressed, there may be proposals for a much 
larger scale triploid oyster aquaculture. Depending on how 
those proposals are framed and also how the safeguards are 
carried out, those could introduce a reproducing population, 
and therefore we will have to subject those to the same kind of 
review as diploid oysters.
    It is a question of time. The general scientific agreement 
was that, over time, triploid oyster populations placed in the 
Bay could, over time, if not controlled, become reproducing 
diploid populations. That is why we don't make as fine a 
distinction.
    So the issue is, do we have to introduce a non-native 
species in the Bay in order to have both a naturally viable 
oyster population and an economically viable oyster population? 
That is the question we see at the heart of the environmental 
impact statement.
    Mr. Gilchrest. So, EPA is or isn't a part of that EIS?
    Ms. Hanmer. At the time we proposed the environmental 
impact statement, it was clear that there was a Section 404 
jurisdiction. We were in Virginia, we were talking about a 
particular situation, and, in that context, then it was clear 
Federal jurisdiction and therefore an environmental impact 
statement under the Federal jurisdiction.
    A question has since been raised whether all--whether any 
and all methods of introducing diploid oysters would also be 
subject to Section 404. And that has been a question.
    Mr. Gilchrest. That hasn't been answered yet?
    Ms. Hanmer. It depends on exactly what the method is.
    Mr. Gilchrest. So Section 404 applies to triploid 
introduction to aquaculture?
    Ms. Hanmer. It would apply to any method that could be 
viewed as the discharge of fill material. So if you use a 
method that could be defined as fill material, then Section 404 
of the Clean Water Act would apply. In the meantime, however, I 
think--
    Mr. Gilchrest. But you are not sure whether it applies to 
the introduction of diploids?
    Ms. Hanmer. It is a--it could apply to the introduction of 
diploids. It depends on how it is done. Whether shell are used, 
whether shell are placed on the bottom, whether shell are 
placed on a reef would be one of the considerations.
    Mr. Gilchrest. So Section 404 doesn't apply to the spat, it 
only applies to the shell?
    Ms. Hanmer. Possibly, yes.
    Mr. Gilchrest. Colonel Prettyman-Beck, do you have a 
comment on the Federal role in the EIS based on the Clean Water 
Act? 
    Colonel Prettyman-Beck. Well, sir--
    Mr. Gilchrest. Now you issued a permit, it is my 
understanding, to--I don't want to use the word allow, but to 
enable Virginia to pursue the triploid research they are doing 
right now, correct?
    Colonel Prettyman-Beck. That is correct, sir. Virginia 
Seafood Council back in, I believe, April of this year. With 
the issuance of that particular permit, we put very stringent 
conditions upon that permit pending the release of the National 
Academy of Science's report. Those particular conditions were, 
if there was anything that came out of that report that was 
recommended or would change the avenue or the information we 
gave to Virginia Seafood Council, that we would make those 
changes. But when the report was released we did not have to 
modify or make any particular changes because everything was 
consistent with the way that we issued that particular permit.
    With regards to the EIS, Congress has to authorize and 
appropriate us as a Federal agent to conduct the EIS. We are 
standing ready, if approved and appropriated, to be a lead 
member in that particular study.
    Back prior to the permit process, or when this was ongoing, 
it is my understanding--and I just came on board in the past 2 
months--but it is my understanding the Federal Committees Group 
that Ms. Hanmer has mentioned all met and decided that an EIS 
was the way to go.
    Mr. Gilchrest. The EIS was the way to go for?
    Colonel Prettyman-Beck. For additional study in terms of 
whether or not the outcome would be to introduce additional 
triploid oysters, the C. ariakensis or just do additional study 
for that.
    Mr. Gilchrest. Was there discussion about an EIS on 
diploids?
    Colonel Prettyman-Beck. Sir, I was not there, so I would 
have to defer to someone who was at that particular meeting and 
discussion.
    Mr. Gilchrest. I guess what I am trying to pull together 
here in my mind so I understand this, the Corps of Engineers 
issued permits for Virginia to pursue this research with the 
triploid ariakensis. That is not now, or is it, an EIS? That is 
just research on triploids?
    Dr. Wesson. They permitted the structures themselves to do 
the project.
    Mr. Gilchrest. Now, in your mind, Secretary Franks, you 
made a comment that the State of Maryland, while the Feds 
looked over your shoulder, would pursue its own EIS as far as 
understanding the ramifications of the introduction of 
ariakensis diploids.
    Mr. Franks. Yes, sir.
    Mr. Gilchrest. And as far as EPA and the Corps of 
Engineers, you don't yet know the status of your regulatory 
jurisdiction in that EIS?
    Ms. Hanmer. We would participate with the environmental 
impact statement development process, whether it was termed as 
a Federal environmental impact statement under the lead of the 
Corps of Engineers, because the jurisdiction was clear, whether 
it was a Federal EIS because the Corps was authorized to do it, 
or whether or not it is an environmental impact statement 
carried out cooperatively by Maryland and Virginia, in which 
case I would characterize it as an environmental impact 
statement carried out cooperatively under the aegis of the 
Chesapeake Bay program.
    That would be one way to do it, to bring all of the 
agencies together.
    Mr. Gilchrest. Now, given that statement, Ms. Hanmer or 
Colonel Prettyman-Beck, is there--is it clear or unclear who 
has the authority to introduce non-native oysters in the form 
of diploids to the Chesapeake Bay? Who has the authority to 
issue that permit?
    Colonel Prettyman-Beck. The State of Maryland.
    Mr. Gilchrest. The State of Maryland can do it without EPA 
and the Corps?
    Ms. Hanmer. There is a way--the discussion has been that 
there is a way in which the oyster could be introduced, spat 
with no shell, simply off the back of the boat, that might not 
conform to the regulatory definition of fill under Section 404. 
EPA's position is that we really need to look at the details.
    And, of course, we also have been asked whether or not 
Section 402, which is the discharge of pollutants from a point 
source, might be applicable. Unfortunately, our answer would 
have to be the same, and that is these are very--these are 
considerations that are based on a set of facts. We would need 
to see the specific proposal for how the work was to be done in 
order to determine whether 404 or 402 jurisdiction applied in a 
case like that.
    In almost all cases I can envision, our opinion would be 
that Section 404 would apply. In other words, that the 
introduction would be subject to 404 as a discharge or fill 
material.
    Mr. Gilchrest. I have no doubt in my mind, based on my 
relationship with Secretary Franks and the State of Maryland 
and also the past history of Virginia, that there will--that 
there would be no problem with full cooperation between the Bay 
program, the Corps of Engineers and any research understanding 
of ariakensis.
    I would like, Secretary Franks, just--I think I asked 
this--I asked a question earlier, in which you said, or you 
made--I asked a question about whether we were pursuing 
diploids for traditional harvest, hatchery raised or a 
combination of the two and you made a comment that it would be 
a combination of the two.
    If and when Maryland and then subsequently, I am sure, 
Virginia pursues ariakensis, whether it is in aquaculture with 
triploids or whether it is in introduction with the diploids 
Bay-wide, do you envision us continuing to work on the tenfold 
increase of native oysters? Would we continue to do that in the 
form of creating sanctuaries around the Bay or would the 
program of increasing the native oysters by tenfold with 
sanctuaries be abandoned?
    Mr. Franks. No, it would not be abandoned. We see, if the 
EIS goes as we think it should go and will go, that we will be 
able to introduce--
    Mr. Gilchrest. Or hope goes.
    Mr. Franks. Or hope goes. We will be able to introduce 
reproducing diploid ariakensis. We see them as self-limiting, 
as far as their spread is concerned; and we see a symbiotic 
relationship between the ariakensis as well as virginicus in 
the Bay--virginicus having a home where they are less affected 
by the diseases which have ravished them over the years.
    We would certainly hope that both of them would thrive in 
their particular area, as conditions allowed. We do not see one 
replacing the other.
    Mr. Gilchrest. The gentleman from Connecticut seemed to 
raise some concern about the introduction of ariakensis in the 
Chesapeake Bay in which he said it would be inevitable before 
they were--became a part of their ecosystem. Is there anything 
you can say--and maybe, Dr. Wesson, you might comment on this--
to allay the fears of--I think it was Dr. Whitlatch that made 
that comment?
    Mr. Franks. I am not an expert in their spread, so I am 
going to move this microphone over here and hope that he can 
answer that question.
    Dr. Wesson. Well, one thing to keep in mind is, when he was 
talking about the Connecticut industry thriving, you have got 
to keep it in perspective. The thriving Connecticut industry 
has moved itself to a half-shell, high-end, market-type oyster; 
and the quantities of oysters that they produce are not 
acceptable to us in the Chesapeake Bay. They are just too 
small.
    We used to buy oysters in Virginia to shuck from the 
Northeast, Connecticut, New Jersey. Now they are so expensive 
because of the problems they have with diseases and growing 
oysters and all of the effort they have to put into growing the 
oyster out, they are only imported to our processing facilities 
now for half-shell product; and then most of them don't even 
mess with those.
    There is no way--you have to know that if a reproducing 
animal is introduced in the Chesapeake Bay that it has the 
likelihood that it will move farther, both accidentally and 
because that industry, if they see us making progress, is going 
to be interested in having it in their waters just so they have 
oysters to produce again.
    Mr. Gilchrest. Can you tell us the difference between 
virginica and ariakensis as far as its growth rate, its size, 
its marketability, its taste, is concerned?
    Dr. Wesson. Well, again, the work that has been done to 
date has been done with oysters that have been grown in 
intensive aquaculture situations where they have been allowed 
to grow in floats, which is the optimum place for either our 
oyster or that oyster; and in all cases ariakensis outgrows, in 
those aquaculture facilities, the virginica. They are much 
faster, much more meat, they don't die from diseases, which a 
lot of the same oysters, side by side of our oyster, would have 
died from.
    On the bottom, in the limited amount of work that we have 
done in some controlled tests, it is not as obvious, the growth 
rate differences between the two species, because it is--they 
are not in the optimal place for them to grow in a tray. That 
is some of the work that we need to do very quickly, to 
evaluate how they do on the bottom.
    Mr. Gilchrest. Would there be any difference in the growth 
rate between a triploid and a diploid?
    Dr. Wesson. We don't know that yet. We certainly suspect 
that there would be differences between triploids and diploids.
    Triploids generally grow throughout the summer, where 
diploids do not, because diploids are putting body effort into 
reproducing. So the triploids are used in other places in the 
United States, so that they are fat in the summer, because they 
don't put any effort into reproduction, so they grow faster. 
They are meatier through the summer.
    So you would not imagine that a triploid would not grow 
faster than a diploid.
    Mr. Gilchrest. Where in the U.S. are there ariakensis right 
now that are successful in being harvested both in the wild 
form and aquaculture?
    Dr. Wesson. In the United States, they are not being used. 
That is one of the unique things about using them in the Bay in 
some ways.
    But as they were tested in the West Coast, as was mentioned 
earlier, they do not do as well with their husbandry methods 
that they have that are very, very successful on the West Coast 
of doing 5 and 6 million bushels of oysters per year, as the 
workhorse that they have in the Pacific oysters.
    It is just a better aquaculture species for them, likes 
cold water, likes clean water. But that oyster did not like 
living in the Chesapeake Bay, where we have more turbid water 
and warmer water. So that oyster was really not available to us 
as a product, unless we used it on our coastal bays or had some 
applicability.
    Mr. Gilchrest. I see.
    Ms. Hanmer, you made some--in your testimony, you made 
reference to something called the precautionary approach as far 
as pursuing--specifically as far as pursuing this policy of 
introducing either triploid or diploid oysters. Can you give us 
some specifics as to what the precautionary approach is, and 
are there general scientific parameters to this concept that 
you would like to see used in an EIS?
    Ms. Hanmer. I think that the essential difference--and I am 
not an invasive species expert, so I will describe it as a 
political scientist understands it. That is, that you do a lot 
of studying up front, and the burden of proof is shifted so 
that in the precautionary approach you assume that the 
introduction of a nonindigenous aquatic species could cause a 
problem and the burden of proof is to demonstrate that the 
risks will be minimized and are acceptable.
    Mr. Gilchrest. I see.
    Ms. Hanmer. Whereas the other way around would be to say 
that studies would be done of certain species, and they would 
only be controlled after they were lifted. That is the opposite 
approach.
    Mr. Gilchrest. I guess maybe my last question would be to 
Colonel Prettyman-Beck. Is the Army Corps positive--do you have 
a positive perspective on the restoration of native oyster? It 
seems that Maryland and, to some extent, Virginia are fairly 
pessimistic about restoration of native oysters.
    Would you care to comment? Does the Corps have a--is the 
Corps positive about some day restoring the native oysters in a 
tenfold capacity by 2010?
    Colonel Prettyman-Beck. The first part of that question I 
could say absolutely yes, sir. Tenfold capacity in 2010, not 
quite sure.
    As you--as I stated earlier in my testimony, on the 
Virginia side, we recently, in the year 2000, have implemented 
restoration--native restoration projects within the 
Commonwealth of Virginia and in coordination with VIMS, who 
will be analyzing, looking at the data that is coming in, will 
provide us feedback so that we can produce that in a public 
forum.
    Our Baltimore District has been doing this for a longer 
period, I believe since 1997; and we have been informed that 
there has been some positive results in terms of the native 
oyster program which we are executing. So we feel positive with 
that particular program and would recommend that that program 
continue.
    Mr. Gilchrest. Thank you very much.
    Ms. Eckart, any further questions?
    Ms. Eckart. No.
    Mr. Gilchrest. Dr. Wesson, Secretary Franks, Ms. Hanmer, 
and Colonel Prettyman-Beck, thank you all for your testimony. 
We look forward to continuing to work on this issue with all of 
you.
    The Subcommittee will now take a 10-minute recess.
    [Recess.]
    Mr. Gilchrest. The hearing will come to order.
    We appreciate the patience of the last panel. Mr. 
Goldsborough said it is always nice to have the last word.
    We have today Mr. Larry Simns, President of Maryland 
Watermen's Association. Welcome, Larry. Ms. Frances Porter, the 
Executive Director, Virginia Seafood Council. Welcome. And Mr. 
Bill Goldsborough, Senior Fisheries Scientist, Chesapeake Bay 
Foundation. Thank you all for coming and attending.
    Mr. Gilchrest. We will start with Mr. Larry Simns.

             STATEMENT OF LARRY SIMNS, PRESIDENT, 
                MARYLAND WATERMEN'S ASSOCIATION

    Mr. Simns. Thank you for this opportunity to testify before 
the committee. My name is Larry Simns. I am President of the 
Maryland Watermen's Association, and my testimony today relates 
to the issue on introduction of non-native oyster species to 
the Chesapeake Bay.
    Millions of dollars have been spent over the past 50 years 
trying to figure out a way to get around the two parasites that 
have attacked the Chesapeake Bay oyster resource, MSX and 
Dermo. Today, in a waterman's humble opinion, we are no closer 
to solving that problem of how to grow more oysters in the wild 
than we were when we started.
    If we are going to come close to reaching a tenfold 
increase in oysters in the Bay by the year 2010, as set forth 
in the Chesapeake Bay agreement in 2000, the only chance we 
have is to bring in an oyster that disease is not going to 
kill. Five years of that time frame have already gone by, and 
we have made no progress.
    The ariakensis oyster is not an exotic species. It has been 
in this country for over 40 years, being bred in hatcheries in 
the USA and raised in Oregon waters. No adverse effects have 
been determined in placing it with and/or growing it with other 
species, such the problems found with the introduction of 
gigas.
    We need to be cautious, working with closed systems 
studies, and we need Congress to help us get moving on these 
studies. We need funding to start and then to continue the 
studies that will either prove or disprove the potential 
effects of the introduction of the ariakensis oyster into the 
Maryland portion of the Chesapeake Bay.
    This oyster would not only help the industry but, as 
oysters are filter feeders, an abundance of healthy oysters 
would help clean the Bay waters. Septic system runoff is a big 
problem in the Bay right now, along with sewage treatment plant 
overflows, development and population growth. Left in the state 
it is now, without assistance, the Bay dead zones will become 
larger and larger until the Chesapeake Bay is nonproductive.
    It is imperative that Federal funds become available to 
bring sewer treatment plans up to grade. As long as we continue 
to have overflows and sewage spills that load waterways with 
nutrients, we cannot expect to have a healthy Bay. Good water 
is essential to reproduction of our resources; and no matter 
what steps we take to help the oyster stocks recover, without a 
healthy environment they will not prosper.
    The studies anticipated would work with the diploid and the 
triploid ariakensis oyster, the ariakensis which are treated so 
as to be unable to reproduce. However, we need to have an 
oyster that is capable of reproducing in the wild, as no amount 
of hatcheries will be able to take the place of natural oyster 
reproduction.
    At first glance, we know the ariakensis tastes as good and 
looks much like our virginica. It grows fast, and MSX and Dermo 
doesn't kill them before they grow to market size. Also, to 
date no harm has been shown to exist in areas where it is being 
grown.
    We are not saying we want to give up on our virginica 
oyster. In some areas they will continue to grow and prosper 
but not in the numbers to sustain the oyster industry or to be 
an effective tool in cleaning the water, both of which are 
equally important.
    I will use this picture that was presented to you earlier 
of the successful--and you heard a lot of about successes of 
the virginica. But I want to caution you on those successes. 
That is a very narrow view at certain areas. We are fortunate 
that the Congressman and myself are living in an area that 
oysters virginica will grow and prosper, and that is the 
Chester River area. That is where this picture was taken.
    They have lived for 5 years, and they have grown to lengths 
of 6 to 8 inches. If you put that same effort in the lower 
Choptank River or the lower portion of the Chesapeake Bay or 
the 90 percent of the Bay that has diseases in it that kill the 
oysters, they wouldn't be there. They would be small shells 
that died before they reached maturity.
    I heard all of the testimony here, and everybody has got 
blinders on. They are looking at a specific area or their 
specific expertise. They are not looking at the broad range. We 
heard the gentleman from Connecticut--the scientist from 
Connecticut saying that aquaculture was the way to go because 
they had oysters, and the disease didn't seem to bother them 
that much, only at certain times.
    I would invite those aquaculturists and that scientist to 
come to Maryland and try to have an aquaculture culture product 
here with virginica. He will fail like all of our other 
aquaculturists have. Because no matter who grows it, whether 
Mother Nature is growing it or man is growing it, the disease 
wipes it out.
    So we have to be very careful when you listen to all of 
those success stories that you put them in the right context. 
They are not in the Chesapeake Bay. They work where they are. 
But they won't work here.
    So we need to focus our virginica studies or efforts to 
restore the oysters back in areas that we know they grow. That 
is what we are doing with the ORP. With other parts of the Bay, 
every time we try, it is not successful. So I just need to 
point that out.
    Just want to point out--I will speed up here a little bit--
in France, when they lost their native species, which was the 
flat oyster, we took a trip over there and talked to the 
scientists and the bureaucrats and the oyster growers. And I 
asked them one question. I said, when the disease, which was 
MSX, came in and wiped your oysters out, how long did it take 
you to introduce a non-native species, which is the Japanese 
oysters? They said 2; and I said, 2 years? They said, no, 2 
months; and they was up and running that year and producing 
oysters. Right now, they have a full-blown industry of non-
native oysters.
    We went to Ireland, same thing. When they lost their native 
oysters, and they are--99 percent of their oysters produced in 
Ireland are non-native oysters. They only produce 5,000 bushels 
of their native oysters.
    So we have to look at these things. The West Coast right 
now, the oysters that they produce, they have got 50 percent of 
their market or better in the whole country, are non-native 
species. So we have to put this in perspective; and what we 
want to do is speed these studies up to find out, to disprove 
or prove this oyster so we can get on with it.
    Because we don't have time. Forget the industry, if you 
would for a minute, for just thinking of--we don't have time 
for the environment to wait to see if the scientists will come 
up with a virginica that will live here.
    In my lifetime alone, I have seen 5,000 licensed oystermen 
go down to less than 200 right today. I have seen harvests of 5 
million bushels go down to 50,000 bushels last year. That tells 
me we have gone past the time of waiting and looking. We need 
to do something drastic now. If it is proved that this oyster 
is terrible and is harmful, then we don't want to do it. But we 
need to find that answer out. We need to do it within a year. 
We don't need to wait 5 years, 3 years. We need to do it within 
a year. There is no reason with the knowledge that we have 
today that we can't do that.
    Thank you for this opportunity.
    Mr. Gilchrest. Thank you, Mr. Simns.
    [The prepared statement of Mr. Simns follows:]

  Statement of Larry Simns, President, Maryland Watermen's Association

    My name is Larry Simns, President of the Maryland Watermen's 
Association and my testimony today relates to the issue of introduction 
of a non-native oyster species to the Chesapeake Bay.
    Millions of dollars have been spent over the past fifty years 
trying to figure out a way to get around the two parasites that have 
attacked the Chesapeake Bay oyster resource--MSX and Dermo. Today, we 
are no closer to solving the problem of how to grow more oysters in the 
wild than we were when we started.
    If we are going to come close to reaching a tenfold increase in 
oysters in the Bay by 2010, as set forth in the Chesapeake Bay 
Agreement in 2000, the only chance we have is to bring in an oyster 
that diseases are not going to kill. Five years of that time frame have 
already gone by and we have made no progress.
    The Ariakensis oyster is not an exotic species. It has been in this 
country for over forty years being bred in hatcheries in the U.S.A. and 
raised in Oregon waters. No adverse effects have been determined in 
placing it with and/or growing it with other species, such as the 
problems found with the introduction of Gigas.
    We need to be cautious, working with closed system studies, and we 
need Congress to help us get moving on these studies. We need funding 
to start and then to continue the studies that will either prove or 
disprove potential effects of the introduction of the Ariakensis oyster 
into the Maryland portion of Chesapeake Bay.
    This oyster would not only help the industry but, as oysters are 
filter feeders, an abundance of healthy oysters would help clean the 
Bay waters. Septic system runoff is a big problem in the Bay right now, 
along with sewage treatment plant overflows, development, and 
population growth. Left in the state it is now, without assistance, the 
Bay dead zones will become larger and larger until the Chesapeake Bay 
is nonproductive.
    It is imperative that federal funds become available to bring 
sewage treatment plants up to grade. As long as we continue to have 
overflows and sewage spills that load the waterways with nutrients, we 
cannot expect to have a healthy Bay. Good water is essential to 
reproduction of our resources and no matter what steps we take to help 
the oyster stocks recover, without a healthy environment they will not 
prosper.
    The studies anticipated would work with the diploid and triploid 
Ariakensis oyster, which are treated so as to be unable to reproduce. 
However, we need to have an oyster that is capable of reproducing in 
the wild, as no amount of hatcheries will be able to take the place of 
natural oyster reproduction.
    At first glance, we know that the Ariakensis tastes as good and 
looks much like our Virginica. It grows fast, and MSX and Dermo doesn't 
kill them before they grow to market size. Also, to date no harm has 
been shown to exist in areas where it is being grown.
    We are not saying we want to give up on our Virginica oyster--in 
some areas they will continue to grow and prosper but not in numbers to 
sustain the oyster industry, or to be an effective tool in cleaning the 
water. Both of which are equally important.
    We do need the studies but we all know that scientists can study 
data for many years and still not come to a conclusion. Time is crucial 
to the livelihoods of our watermen, dealers, shuckers and packers. 
Maryland is all but out of the oyster business and now is the time to 
look to the future. Maybe Ariakensis is the future, but we will not 
know that for sure until funding is in place and the studies are done. 
The one thing that we don't need is for this issue to get bogged down 
in scientific studies and bureaucratic jargon that could delay the 
introduction of this oyster.
    In France they were able to get a non-native oyster species 
introduced in only two months. The West Coast was not far behind that 
time frame. With the right funding level and the right people in place, 
Maryland should move ahead in working with the diploid and triploid 
species. We need to determine the environmental impact of introducing 
this non-native oyster into the Chesapeake Bay, with a time frame of no 
more than one year of study before actual introduction of the 
Ariakensis oyster into Chesapeake Bay.
                                 ______
                                 
    Mr. Gilchrest. Ms. Frances Porter. Welcome.

       STATEMENT OF FRANCES PORTER, EXECUTIVE DIRECTOR, 
                    VIRGINIA SEAFOOD COUNCIL

    Ms. Porter. Mr. Chairman, I am Frances Porter of the 
Virginia Seafood Council. The Seafood Council is a trade 
association, nonprofit and incorporated, which represents the 
interests of the commercial fishing industry in Virginia; and I 
appreciate the opportunity to be here to represent the industry 
today.
    The Seafood Council is a strong advocate for a clean and 
healthy Chesapeake Bay. Membership in the Seafood Council 
includes packers, processors, shippers, harvesters and 
aquaculturists.
    Dr. Franks and Dr. Wesson have done a thorough job of using 
my script today and leaving me not a lot to say that hasn't 
already been said. But I would like to try to put a face on the 
industry, the oyster industry in Virginia.
    You asked, Representative Gilchrest, earlier if someone had 
sampled or if you could sample an oyster. I had the 
opportunity, just 10 days ago, to shuck and cook and eat four 
ariakensis about this size. No, I beg your pardon, two. It was 
adequate for a meal, a very substantial meal, very tasty, very 
tender. So that is a face to this ariakensis.
    Then if I could have with me today one of the second or 
third generation oyster packers from Virginia, they would say 
to you in a very impassioned way how this industry continues in 
a downward spiral. They would give you numbers that would say, 
from a high in the mid-1980's of a million bushels a year, they 
are down in 2002 to less than 20,000 bushels.
    I am going to try to tell you how Virginia is working to 
restore the oyster industry. The Virginia Seafood Council 
approached the State Legislature in 1990 to seek help with the 
industry, at that time primarily with restoration of the native 
oyster, though we had already been engaged with VIMS in 
research on the gigas oysters.
    Since 1990, private industry and the State of Virginia has 
spent millions of dollars in restoration efforts, but the 
return of the native oyster is not happening. Oysters survive 
one or two summers, but then they become victims of the 
disease, and they just cannot reach market size.
    In 1995, the Virginia State Legislature mandated that VIMS, 
and I quote, begin the process of seeking approvals in 
conformance with State, Federal and international laws and 
protocols for the in-water testing of oyster species not native 
to Virginia waters. And at that time, we really geared up the 
process. The Seafood Council helped to secure funds for VIMS to 
hire world-class geneticist, Dr. Allen, and to build their 
aquaculture genetics and breeding technology center.
    Today, Virginia is on a parallel track to restore an oyster 
industry with three resources: the native oyster, the 
aquaculture triploid ariakensis, and eventually the diploid 
ariakensis.
    Virginia has not abandoned native restoration, nor does it 
have any intention to do that. We continue to plant shells, 
move seeds, work the beds. But the process is stalled, and the 
industry is dying. The oyster industry has great value to the 
Commonwealth in its economic impact, as a part of the heritage 
and culture of the State and, most important, its ecological 
action in filtering the Bay.
    It seems so simple. If the native oyster cannot overcome 
the forces of the diseases in the Bay, then we need to find a 
species that can. We believe we have found that in the 
ariakensis, and so we are seeking permission to grow it in the 
Chesapeake Bay. But it seems to me that all around us there is 
great focus on the risk of introducing the oyster, with 
inadequate focus on the benefits of introducing a non-native 
oyster.
    You are aware that we have had two generally successful 
projects in 2000 and 2001 with small numbers of the oysters. 
From those projects we learned that it is disease-resistant, 
that it grows rapidly, that it tastes real good, and that it is 
marketable. We also know theoretically that it is filtering the 
Bay.
    We know these things about the ariakensis now, so we need 
to have them in quantities sufficient to have an impact on a 
faltering industry. This fall we have put close to a million 
ariakensis in the Bay, operating under a permit issued by the 
Virginia Marine Resources Commission and the United States Army 
Corps of Engineers. The permit includes numerous conditions 
that were requested by State and Federal agencies and 
environmental organizations.
    The Seafood Council is appreciative of the National Academy 
study and believes it has opened the door for more aggressive 
support for contained aquaculture or ariakensis, and we 
anticipate in Virginia proceeding aggressively with larger and 
larger projects of contained triploids until we create a 
significant impact on the packing and processing industry.
    The State of Virginia and the Seafood Council support the 
environmental impact statement; and I, like you, don't know 
exactly where that stands today. But the Seafood Council in the 
last 2 weeks has effectively lobbied our United States 
Senators. We have met with both of them. We believe that the 
money has been appropriated. We know it has been placed in the 
budget for the Corps of Engineers to proceed rapidly with the 
EIS.
    Now I may be a little behind the times in understanding 
what that situation is now. But perhaps the most important 
thing I can tell you today is how the Virginia Seafood Council 
in its pilot projects has consistently and precisely followed 
all of the laws, regulations, protocols and conditions to 
safely conduct the grow-outs. The Virginia Seafood Council has 
no desire to proceed with any non-native introductions outside 
existing guidelines and legal constraints. Rather, we would 
favor modifying and improving the guidelines.
    There is very little time left to salvage this important 
industry. Only about 20 processing houses remain in Virginia, 
and so much of the infrastructure has been lost. Inadequate 
resource will force the closure of more shucking houses in the 
very near future.
    So VFC requests the rapid completion of the EIS and any 
additional research deemed necessary, and I will be most 
appreciative if you can help to solve the mystery of how to 
move forward with the EIS. When that is completed, the Virginia 
Seafood Council will request permission to grow more non-
natives and eventually in the open waters of the Commonwealth 
even as a self-sustaining stock.
    Mr. Gilchrest. Thank you very much.
    [The prepared statement of Ms. Porter follows:]

          Statement of Frances W. Porter, Executive Director, 
                        Virginia Seafood Council

    The Virginia Seafood Council is a trade association, non-profit and 
incorporated, which represents the interests of the commercial fishing 
industry in Virginia. VSC membership includes packers, processors, 
shippers, harvesters, and aquaculturists of seafood.
    Virginia Seafood Council, recognizing the stead and drastic decline 
in Virginia oyster harvest, approached the Virginia State Legislature 
in 1990 to seek help for the restoration of a native oyster population 
in Chesapeake Bay. That beginning has resulted in innovative attempts 
to restore native oyster populations while also pursuing the newest and 
best technologies of a non-native resource.
    With restoration of the native oyster stalled, the State 
Legislature passed a resolution in 1995 mandating that the Virginia 
Institute of Marine Science ``begin the process of seeking approvals in 
conformance with State, Federal and International laws and protocols 
for the in-water testing of oyster species not native to Virginia 
waters.''
    Today, Virginia is on a parallel track to restore the oyster 
industry with three different resources--the native C. virginica, the 
triploid C. ariakensis, and the diploid C. ariakensis. Virginia has not 
abandoned, and has no plan to abandon, the native oyster. In fact, she 
continues to aggressively plant shells, move seeds and work existing 
beds.
    The oyster industry has great value to the Commonwealth. First, it 
has significant impact on the state's economy. That economic impact now 
comes from oysters brought in for shucking from the Gulf Coast, 
Maryland, Delaware and New Jersey, most of whom are also experiencing 
declining resources.
    Next, the oyster industry is valued for its heritage and tradition; 
people come to Virginia to eat Virginia seafood, including the famous 
Virginia oyster. There is an important cultural tradition in harvesting 
and shucking the oyster and sharing the stories of great oyster reefs 
rising above the surface of creeks and rivers in colonial times.
    Third, the oyster industry is very, very important to the health of 
the Bay. It is an integral part of the Bay's ecosystem and is 
constantly filtering the Bay of nutrients and sediments. Basically, 
Virginia has not benefitted from the ecological action of a healthy 
oyster population in the past ten years.
    As the Virginia Seafood Council worked with the Legislature, we 
helped to secure funds to bring a world-class geneticist to the staff 
of the Virginia Institute of Marine Science and to secure funds to 
build the Aquaculture Genetics and Breeding Technology facility at 
VIMS.
    It is the genius of VIMS that has brought us to the threshold of a 
new commercial oyster industry in Virginia. It has been a tedious road 
and Virginia is keenly aware that its project with triploid C. 
ariakensis is under very close scrutiny from many State and Federal 
agencies, environmental oversight organizations and individuals.
    The science of the project is best explained by the scientists, who 
will probably precede me with testimony during the hearing.
    Virginia Seafood Council has been aware for more than fifteen years 
of the national and international protocols related to non-native 
species introductions. Virginia has proceeded cautiously and 
meticulously with its non-native project. Seafood Council members 
selected to be growers of the C. ariakensis have been versed in the 
necessity to follow every known rule regarding non-natives and to 
follow precisely a11 the conditions of the Virginia Marine Commission/
U.S. Army Corps of Engineers permit.
    In 2000 and 2001, Virginia Marine Resources Commission permitted 
the Council highly controlled introductions of C. ariakensis. Valuable 
information has been learned. This non-native species is disease 
resistant, grows rapidly and is flavorful. We also know, theoretically, 
that it benefits the Bay with its filter-feeding habits. Marketable, 
healthy, rapid growth, disease resistant able to filter the Bay--an 
excellent combination.
    With his knowledge available, the next step is to introduce large 
enough quantities of C. ariakensis to make a significant impact on a 
faltering industry.
    The 2003 ``Economic Analysis and Pilot-scale Field trials of 
triploid C. ariakensis Aquaculture'' proposed the introduction of 
1,000,000 oysters in the spring of 2003. Some delays were experienced 
as the scientists worked to produce a million oysters with a diploid 
rate of no more than one in one thousand. That was accomplished in the 
summer and 800,000 oysters have been placed in the water between 
September 29 and October 9. Two growers experienced extensive damage on 
September 18 from hurricane Isabel and were unable to participate in 
this year's field trials.
    Virginia Seafood Council is appreciative of the National Academies' 
study. The Academies have opened the door for more aggressive support 
for contained aquaculture of triploid C. ariakensis. We anticipate 
proceeding aggressively with much larger quantities of triploids in 
containment to create a significant economic impact on the Virginia 
oyster industry.
    At the same time, the Commonwealth of Virginia supports the 
Environmental Impact Statement and has joined the State of Maryland in 
triggering the study. Virginia Seafood Council had effectively lobbied 
the Virginia Congressional delegation to release up to $500,000 to the 
U.S. Army Corps of Engineers this month to fund the EIS.
    It is important to note that Virginia Seafood Council, in its pilot 
projects, has consistently and precisely followed all laws, regulations 
and conditions to safely conduct the grow outs. VSC has no desire to 
proceed with any non-native introductions outside existing guidelines 
and legal constraints.
    It is also important to note that Virginia oyster growers and 
processors have very little time left to salvage an important industry. 
With only 21 processing houses now operating in Virginia, much of the 
infrastructure has been lost and inadequate resources will force the 
closing of more shucking houses in the near future.
    Virginia Seafood Council requests rapid completion of the 
Environmental Impact Statement and any additional research deemed 
necessary. Completion of these projects should culminate with the 
permission to grow non-native Crassostrea ariakensis in the open waters 
of the Commonwealth as a self-sustaining stock.
                                 ______
                                 
    Mr. Gilchrest. Mr. Goldsborough.

    STATEMENT OF WILLIAM J. GOLDSBOROUGH, SENIOR SCIENTIST, 
                   CHESAPEAKE BAY FOUNDATION

    Mr. Goldsborough. Thank you, Mr. Chairman, for the 
opportunity to address the Subcommittee on this important 
issue. My name is Bill Goldsborough. I am a scientist on the 
staff of the Chesapeake Bay Foundation, a nonprofit 
conservation organization.
    As an environmental organization that supports oyster 
restoration, CBF is confronted with quite a dilemma on this 
issue. If the Asian oysters hold the promise that some believe 
it does, it could dramatically help the Bay ecosystem as well 
as the commercial oysters fishery.
    Native oyster stocks in the Bay are at about 1 percent of 
what they were historically, and the Bay suffers for lack of a 
dominant filter feeder and a building block for rich reef 
communities. The oyster fishery, well, it was the most valuable 
fishery in the Bay for over a hundred years and as recently as 
1980 contributed over half of the Nation's production of 
oysters. Now, as has been said, it is suffering dramatically.
    However--and this is the flip side of our dilemma--as a 
non-native species, the Asian oyster also has potential to 
cause ecological havoc in the Chesapeake Bay and Atlantic Coast 
waters. The introduction of exotic species into new 
environments is second only to habitat loss as a contributor to 
species depletion and extinction.
    It has been estimated that exotic species that become 
invasive cost the United States $137 billion annually, more 
than earthquakes, floods and fires combined--not to suggest 
that this issue necessarily is in that kind of a category but 
to put a perspective on the abstract issue of these potential 
impacts that have been discussed. It is a real issue that has 
to be considered.
    This serious dilemma is compounded by the fact that very 
little is known about the Asian oyster, even in its native 
waters. Thus, we have the National Research Council report--
study and report--which we fully supported from the beginning; 
and I am happy that there is consensus across the Chesapeake 
Bay community in support of that work.
    In CBF's view, the NRC report offers a responsible road map 
to oyster restoration in the Chesapeake Bay. In our view, the 
primary message in that report was that more needs to be known 
about this oyster.
    I chose one brief quote to make that point from the report: 
Quote, it is impossible, given the present state of knowledge, 
to predict whether the Asian oyster will be a boon or an 
ecological disaster. Unquote.
    The report goes on to list a sequence of priority areas of 
research that might address this problem of lack of information 
and allow us to make more responsible public policy decisions 
in the future. Addressing these information needs by the 
development and the implementation of a research plan is, in 
our view, the number one priority before us now.
    CBF strongly recommends that the Scientific and Statistical 
Advisory Committee of the Chesapeake Bay program be tasked with 
developing this research plan. In our view, they are the most 
qualified and appropriate body for doing this. We have written 
the Chesapeake Bay program in support of this action.
    Another key finding of the NRC report is that the 
regulatory framework applicable to marine introductions is, 
quote, a patchwork with significant gaps. I think this is quite 
clear from the fact that nobody seems to know where we stand 
with an EIS now and who would have authority over it. There is 
a lack of Federal jurisdiction over marine introductions, which 
is an astounding thing to realize. Many of us did not realize 
that until recent deliberations on this issue.
    The nonbinding nature of the regional review processes also 
seems to hamper the ability to get hold of this issue.
    So CBF supports establishing the appropriate mix of 
increased Federal and/or regional authority over marine 
introductions, would defer to the NRC report for more detail on 
what those options might be and for a variety of other people 
with various expertise to contribute to that deliberation.
    But I would note that the NRC report did mention the 
Chesapeake Bay program in particular as appropriate for 
increased authority on this matter with respect to the 
Chesapeake Bay, and I would support that. But I would also want 
to note that the Atlantic States Marine Fisheries Commission 
should be considered as a possible vehicle, because it is a way 
that other coastal States could bring their views to bear on 
this issue; and they do have various concerns and interests at 
stake as well.
    I would also note that the NRC report has a very important 
chapter entitled Unrealistic Expectations and Common 
Misconceptions. I won't go into the details of that but would 
refer folks to that.
    The basic message is that there are no quick fixes for 
either the Chesapeake or the oyster fishery embodied in either 
the native or the Asian oyster. Progress in reversing long-term 
declines in oyster populations will take a long time. It took a 
long time to get where we are now, and there are a lot of 
stressors out there.
    As to whether or not we approach oyster restoration with 
native or non-native oysters, CBF's view is that native oyster 
restoration continues to have promise if it is funded 
sufficiently for a sustained period of time.
    With respect to non-native oysters, CBF believes that, at 
some point in the future, the Asian oyster might be judged 
appropriate for use in Chesapeake Bay, but in the near term it 
should only be used in controlled aquaculture using sterile 
oysters, and this is the view point that is reflected in the 
NRC report.
    I do also want to point out that--and I was happy to hear 
both Dr. Boesch and Secretary Franks mention this--the 
Chesapeake Research Consortium in 1999 put forth a document 
which I can provide a copy of--I was not able to find an 
electronic copy to submit--which basically provides a consensus 
of scientific experts on a road map or formula for oyster 
restoration in the Bay. In our view, this is still 
scientifically supported and is beginning to show positive 
results in the record spat sets around sanctuary reefs in 
Virginia and the modest disease levels found on harvest 
reserves in Maryland. It is our view that, to fully evaluate 
and investigate the potential for the native oyster, we need to 
scale up these approaches. It is a matter of scale.
    You noted that Colonel Prettyman-Beck from the Corps of 
Engineers described one initial effort to do this with their 
Tangier Sound/Pokemoke Sound Project. We need more of that. We 
need to scale up these strategies that seem to be showing some 
success.
    The CRC reports basic principles of permanent reef 
sanctuaries combined with proper disease management can show 
some success in the long term, in our view, if support is 
sustained for their application.
    I also want to say that the Bay Foundation supports a 
collaborative, federally led environmental impact statement. I 
say ``federally led'' because there are implications for the 
whole coast, indeed for the whole country. We are bringing in 
an oyster to the Atlantic Ocean that is not there now 
potentially. So whether it--or where the Federal jurisdiction 
should be, I am not sure. I am hearing that EPA may be 
interested in taking on that jurisdiction, if the 
interpretation supports it; and we would support that.
    In the short term, though, this seems like the most viable 
approach is for the authorization language that Ms. Porter 
referred to to pass through Congress authorizing the Corps of 
Engineers and funding the Corps of Engineers to undertake that 
process; and we fully support that.
    Beyond the questions of whether the Asian oysters' life 
history would be compatible with the Chesapeake system, I just 
want to leave you with this one thought. Nobody knows how it 
would respond to the low-dissolved oxygen conditions prevalent 
in Chesapeake Bay in the summer due to massive nutrient 
pollution. The Chesapeake dead zone, where water commonly is 
completely devoid of oxygen and no fish or shellfish can live, 
expanded to be 150 miles long in 2003, the largest such habitat 
depletion on record. No attempt to rehabilitate the biota of 
the Bay will be fully successful until steps are taken to stem 
the nutrient pollution from sewage effluent, agriculture runoff 
and atmospheric inputs.
    Now, one final note, Mr. Chairman, to answer the question 
in the letter about testifying at this hearing. It was asked 
whether or not there are any recommendations on Congressional 
action on this issue. I noted one already, that the 
authorization language for the Corps of Engineers be passed. It 
is enclosed in the Senate version of the energy and water 
appropriations bill, which as of last week, I understand, was 
in conference committee. I don't know the status today, so we 
would support quick passage of that authorization language.
    Also, funding to support the research recommendations by 
the NRC studies is important; and again, in our view, that 
should be begun with a stack committee under the Bay program 
developing a research plan. Funding for that could come through 
the authorization for an EIS through the Corps of Engineers, 
but it appears that the next cycle for that mechanism will take 
too long.
    In the short term, we recommend consideration of the NOAA 
Chesapeake Bay studies program as a logical funding vehicle. 
This program is designed to support mission-oriented fishery 
research.
    On a somewhat longer timeframe, Federal legislation will 
clearly be needed to fill the gaps in oversight for marine 
introduction. Several options for that are mentioned in the NRC 
report.
    I will also just mention that native oyster restoration 
programs again must be expanded. Congress has stepped up as a 
key partner in this endeavor over the last 3 years. We are in 
the third year of a 10-year program which grew from the CRC 
report, the formula for restoration; and it is way premature to 
judge that effort, I would offer. But I suggest that, given the 
feedback so far, that the stage is set for a very appropriate 
scaling up of native oyster restoration; and Congress can play 
a key role in supporting that effort.
    Finally, again, nutrient pollution. We will not get 
anywhere with restoring Chesapeake Bay biota if we don't 
address that problem on a large scale as well.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Dr. Goldsborough.
    [The prepared statement of Dr. Goldsborough follows:]

        Statement of William J. Goldsborough, Senior Scientist, 
                       Chesapeake Bay Foundation

    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to address you on an issue of critical importance to the 
future of Chesapeake Bay: the potential introduce of non-native 
oysters. My name is Bill Goldsborough. I am a staff scientist and 
director of the fisheries program for the Chesapeake Bay Foundation 
(CBF). CBF is a private, non-profit conservation organization dedicated 
to saving the Chesapeake Bay. We have been ardent advocates for oyster 
restoration as a key element of Bay restoration since the mid-1980s, 
and I have served on several oyster management committees in both 
Maryland and Virginia during that time. I also serve as Chairman of the 
Habitat Committee of the Atlantic States Marine Fisheries Commission 
(ASMFC), which co-sponsored a workshop on the use of Asian oysters in 
Chesapeake Bay in May of 2002.
    As an environmental organization that supports oyster restoration, 
CBF is confronted with quite a dilemma with the proposed introduction 
of the non-native Asian oyster into Chesapeake Bay. If the Asian oyster 
(Crassostrea ariakensis) holds the promise that some believe it does, 
it could dramatically help the Bay ecosystem as well as the commercial 
oyster fishery. With the Bay's native oyster stocks at about 1% of 
their historic abundance, the Bay suffers from the lack of a dominant 
filter feeder and a building block for rich reef communities. The 
oyster fishery was the most valuable fishery in Chesapeake Bay for over 
100 years and as recently as 1980 contributed half the nation's 
production of oysters.
    However, as a non-native species, the Asian oyster also has the 
potential to cause ecological havoc in Chesapeake Bay and Atlantic 
coast waters. The introduction of exotic species into new environments 
is second only to habitat loss as a contributor to species depletion 
and extinction. It has been estimated that exotic species that become 
invasive cost the United States $137 billion annually-- more than 
earthquakes, floods and fires combined.
    This serious dilemma is compounded by the fact that very little is 
known about the Asian oyster, even in its native waters. Fundamental 
aspects of life history, such as its reproductive ecology, are very 
poorly understood. Given this reality, a broad consensus was reached 
among agencies, institutions and oyster interests in this region almost 
two years ago that an independent, technical assessment of the issue 
was needed, and the National Research Council (NRC) study was 
commissioned.
National Research Council Report
    CBF believes that the NRC report, ``Non-native Oysters in the 
Chesapeake Bay,'' released in August 2003, offers a responsible roadmap 
for oyster restoration. Its recommendations mirror the approach 
embodied in CBF's position statement on non-native oysters first 
released in December 2001 (updated version attached). The report 
clearly indicates that more needs to be known about the Asian oyster:
        ``It is impossible, given the present state of knowledge, to 
        predict whether the [Asian] oyster will be a boon or an 
        ecological disaster [if introduced to Chesapeake Bay]...''
    It goes on to provide a detailed listing of priority areas of 
research to develop the information necessary for making responsible 
public policy decisions about how to utilize the Asian oyster. 
Addressing these information needs through the development and 
implementation of a research plan is the single most important action 
now before us. CBF strongly recommends the Scientific and Statistical 
Advisory Committee (STAC) of the Chesapeake Bay Program (CBP) as the 
most qualified and appropriate body for developing a research plan 
based on the NRC recommendations. CBF has written the CBP (attached) in 
support of this action, and at its last meeting STAC indicated a 
willingness to make this a priority. Additional funding will be 
necessary to support this research.
    Another key finding of the NRC report is that the regulatory 
framework applicable to this issue is a ``patchwork with significant 
gaps.'' Most noteworthy are the lack of federal jurisdiction and the 
non-binding nature of regional review processes under some 
circumstances. CBF supports action to address these weaknesses by 
identifying and establishing the appropriate mix of increased federal 
and/or regional authority over marine introductions. The ASMFC should 
be evaluated as a possible avenue for binding deliberation among 
coastal states for any marine introduction that has implications for 
multiple states.
    The NRC report also perfectly characterizes the ultimate source of 
political contention regarding the Asian oyster in a section entitled, 
``Unrealistic Expectations and Common Misconceptions.'' The basic 
message is that there are no quick fixes for either the Chesapeake or 
the oyster fishery embodied in either the native or the Asian oyster.
        ``Progress on reversing the long-term declines in oyster 
        populations and water quality will be achieved only when 
        unrealistic expectations for a quick fix are replaced with a 
        long-term commitment to systematic approaches for addressing 
        the Bay's complex, multi-dimensional problems.''
    It goes on to describe the ``myths'' that native oyster restoration 
will not work and that the Asian oyster will rapidly populate the Bay.
Native vs. Non-native Oysters
    CBF believes that native oyster restoration continues to have 
promise if it is funded sufficiently for a sustained period of time. 
This sentiment is echoed in the NRC report:
        ``Although restoration efforts have made limited progress in 
        establishing sustainable oyster populations, there remains some 
        optimism that a more comprehensive management approach will 
        ultimately achieve recovery of the oyster resource.''
    In 1999 the Chesapeake Research Consortium (CRC) convened a meeting 
of the Chesapeake area's top oyster scientists and charged them with 
developing a formula for native oyster restoration based on the best 
available science. Their report (CRC 1999) remains a viable, if 
unfulfilled, guide for oyster restoration. This consensus document 
played a major role in convincing Congress to expand the Federal 
funding for oyster restoration in 2000. And in the same year the CBP, 
based in part on the same scientific consensus, adopted a ten-year 
commitment to expand native oyster stocks tenfold. We are only in the 
third year of that initiative. In fact, record reproduction around 
sanctuary reefs in Virginia and modest disease levels in harvest 
reserve areas in Maryland are measures of success that suggest these 
strategies should be applied on a larger scale. The CRC report's basic 
principles of permanent reef sanctuaries combined with proper disease 
management continue to be supported by science, and large scale plans 
for applying them have been proposed (Allen, et al. 2003).
    In CBF's view, the Asian oyster may, at some point in the future, 
be judged appropriate for use in Chesapeake Bay, but in the near term 
should only be used in controlled aquaculture using sterile oysters 
until its biology and the risks of its introduction are much better 
understood. This viewpoint is consistent with a key conclusion of the 
NRC report:
        ``[Contained aquaculture of sterile Asian oysters] ... should 
        be considered a short term or interim action that provides an 
        opportunity for researchers to obtain critical biological and 
        ecological information on the non-native oyster required for 
        risk assessment ... [and] allows for more management 
        flexibility in the future depending on the status of the native 
        oyster and the success of restoration efforts.''
    CBF supports the development of a collaborative, federally-led 
Environmental Impact Statement (EIS) to thoroughly assess the risks and 
benefits of introducing Asian oysters to the Chesapeake Bay and 
Atlantic Ocean. The EIS should incorporate the research plan developed 
by STAC (see above) and should fully evaluate the available 
alternatives for native oyster restoration. Authorization and funding 
for the Army Corps of Engineers (ACE) to take on the lead role in an 
EIS should be a high priority.
    The information about the Asian oyster that has ignited so much 
interest from the oyster industry is that field trials have shown that 
it grows faster and survives better than the native oyster under some 
circumstances. This knowledge tells us that the Asian oyster could 
possibly be a good aquaculture animal, but it is a huge leap of faith 
to assume that it would also reproduce, multiply effectively, and 
establish substantial wild stocks in Chesapeake Bay. Beyond the 
questions of whether its life history would be compatible with the Bay 
system, no one knows how it would respond to the low dissolved oxygen 
conditions prevalent in Chesapeake Bay in the summer due to massive 
nutrient pollution. The Chesapeake ``dead zone,'' where water commonly 
is completely devoid of oxygen and no fish or shellfish can live, 
expanded to be 150 miles long in 2003, the largest such habitat 
depletion on record. No attempt to rehabilitate the biota of the Bay 
will be fully successful until steps are taken to stem the nutrient 
pollution from sewage effluent, agricultural runoff and atmospheric 
inputs.
Congressional Action
    Congress has been a key player in oyster restoration and must 
continue to be engaged if restoration goals are to be met. The 
deliberations about introducing the Asian oyster into Chesapeake Bay 
have highlighted several ways that Congress can assist:
    1.  Statutory authorization and appropriations for the ACE to 
conduct an EIS are needed. Language currently in the Senate version of 
the Energy and Water Appropriations bill should be adopted into the 
final version of the bill. While this language is sufficient to start 
the process, subsequent years' appropriations should stand alone and 
not be co-mingled with native oyster restoration funding.
    2.  Funding to support the research recommended by the NRC study 
and described in the proposed STAC research plan is urgently needed. 
Such funding could be part of the EIS appropriation for the ACE, 
however, the next cycle for that statutory mechanism will not provide 
the needed funds soon enough. CBF recommends consideration of the NOAA 
Chesapeake Bay Studies program as a logical funding vehicle. This 
program is designed to support mission-oriented fishery research.
    3.  On a somewhat longer time frame, federal legislation will 
probably be needed to fill the gaps in oversight for marine 
introductions. As identified in the NRC report, two possibilities are, 
amending existing legislation, such as the Lacey Act or the Invasive 
Species Act, and vesting authority in a regional body, such as ASMFC or 
CBP.
    4.  Funding for native oyster restoration programs should be 
expanded. The potential for restoration success is embodied in larger 
scale application of certain approaches now showing promise. NOAA and 
ACE are both important partners through which federal funding for 
native oyster restoration is dedicated.
    5.  Congress should seek ways to address nutrient pollution in the 
Chesapeake watershed as an integral part of programs to restore the 
Bay's biota. The Bay's dead zone represents severe habitat loss for 
oysters, blue crabs and finfish. State-federal cooperation in funding 
sewage treatment plant upgrades should be the first priority.
    Thank you for the opportunity to address the Subcommittee on this 
important issue.
References
Chesapeake Research Consortium, 1999. ``Chesapeake Bay Oyster 
        Restoration: Consensus of a Meeting of Scientific Experts.''
Allen, S.K., R. Brumbaugh, & D. Schulte, 2003. ``Terraforming the 
        Chesapeake.'' Virginia Marine Resource Bulletin, Volume  5, 
        Number 1.

    NOTE: The following attachments to Mr. Goldsborough's statement 
have been retained in the Committee's official files.
    <bullet>  Chesapeake Bay Foundation Position Statement On The Use 
of Non-native Oysters in Chesapeake Bay, August 2003.
    <bullet>  Letter from Theresa Pierno (CBF) to Rebecca Hanmer (CBP), 
September 12, 2003.
                                 ______
                                 
    Mr. Gilchrest. Dr. Goldsborough, do you agree--does the 
Chesapeake Bay Foundation agree with the program now under way 
in Virginia as far as the ariakensis oysters are concerned?
    Mr. Goldsborough. Yes, in a word. Given the biosecurity 
safeguards that have been applied--and I would note that we 
have been involved monitoring the non-native research that has 
gone on in Virginia during the last 10 years, started with the 
Pacific oyster, and so we have been involved in those 
deliberations. Each step of the way we have ended up supporting 
the research that was undertaken. That includes the latest 
proposal by the Seafood Council with those safeguards, and I 
would--
    Mr. Gilchrest. Do you see ariakensis being--do you see the 
Asian oyster as being a definite part of the oyster industry in 
the Chesapeake Bay?
    Mr. Goldsborough. I think it is premature to say a definite 
part. We simply don't know enough about it; and that, again, is 
the primary recommendation from the NRC report.
    Mr. Gilchrest. I guess as far as the triploid fish hatchery 
aquaculture part of this is concerned, is it likely that the--
in your mind, that ariakensis will be or can be a significant 
part of the economy of the aquaculture in the Chesapeake Bay.
    Mr. Goldsborough. I don't think you can say that it would 
at this time. I think all you can say is that it would be a 
very small part. Because the contained, small-scale aquaculture 
using triploids that is suggested as a possible interim action 
in that report simply would not be a major part of the 
industry. I am sure it would be important for many folks, and I 
think we ought to go somewhat down that road and look at that a 
little bit further as long as we are able to minimize risk 
while we learn more about that animal and its prospects and its 
life history and while we attempt further scaling up of the 
native oyster restoration work.
    Mr. Gilchrest. Are you still positive about the restoration 
of disease-resistant native oysters in the Bay?
    In the context of that question, I think it was Dr. Allen 
who said earlier, and he can tell me if I paraphrase his 
comment wrong, that it is not a matter of ariakensis or native 
oysters. It is a matter of we are genetically altering, if I 
can use that correctly, that term correctly, we basically to 
some extent, from a layman's perspective, we have given up on 
the native oysters, and we are now looking for genetically 
altered native oysters.
    Mr. Goldsborough. I do think that is a fair 
characterization. I think it is a useful perspective to put on 
all this.
    Mr. Gilchrest. So are you optimistic to increasing tenfold 
the genetically altered native oysters?
    Mr. Goldsborough. I believe it is possible. And I believe, 
and I think most folks that were involved in that commitment 
believe, that that restoration on that 10-year timeframe would 
not be linear. It would come slow at first, and it would 
increase in rate later during the 10-year period by virtue of 
biological multipliers kicking in. You do see some application 
of that strategy, particularly in Virginia, and some results 
from it and in several of the tributaries where they are 
getting record spat sets around the sanctuary reefs.
    Mr. Gilchrest. Ms. Porter, how do you see the triploid 
oyster being used in Virginia and in the context of 
aquaculture? Do you see that as the very beginnings of the 
restoration of the oyster industry so that eventually it would 
move to diploid oysters being used for aquaculture or diploid 
oysters being used in the traditional wild harvest way?
    Ms. Porter. Well, I certainly see great promise for the 
oyster industry with the ariakensis oyster. It will be very 
difficult in the aquaculture setting to grow a million bushels 
a year. It would be a very long time before we could reach that 
goal. Not that that has been defined as a goal, but that is 
where we were in the mid-80's.
    I really don't know about the diploid. We are cautious 
about the diploid. Certainly, the processors are anxious to 
find a product that will be plentiful in the Bay; and it would 
seem that a diploid in the wild would be--if in fact it is 
adaptable to the Bay, that it would be the best way to get the 
greatest number. But we are still very much on an aquaculture 
triploid track until we know the risk and the benefits.
    Mr. Gilchrest. Do you think Virginia is moving more in the 
direction that Connecticut--Connecticut apparently is almost 
exclusively hatchery-raised oysters in Long Island Sound; and 
they changed that some I don't know, several decades ago. Is 
Virginia moving in that direction, more toward an industry that 
relies on hatchery-raised aquaculture type business, as opposed 
to the traditional wild harvest?
    Ms. Porter. I believe that--yes, I believe that we are 
moving in that direction. That is not particularly good news 
for the traditional watermen, and they are not supportive of 
that. It would be relatively good news for the packinghouses.
    Mr. Gilchrest. Would that be the--similarly to what they do 
in Connecticut where the--where someone would lease a certain 
area, a certain bottom and that would be their area for raising 
oysters?
    Ms. Porter. Well, there are many private growers in 
Virginia leasing bottom today, yes.
    Mr. Gilchrest. Mr. Simns, what direction do you see 
Maryland watermen going in as far as the oyster industry is 
concerned? Do you envision aquaculture becoming a small part of 
the industry? Do you see us moving in that direction, 
especially if we introduce ariakensis?
    Mr. Simns. If we had an oyster that would live, whether it 
is ariakensis or hybrid generic or one that is disease-
resistant, you would see almost overnight--the 10,000 acres 
that is leasable today in the State of Maryland, you would see 
a good portion of that being leased and being worked and jump 
into production. The reason it is not being used is because you 
can't afford to invest your money and put seed out there and it 
is going to die. If we were--
    Let's use the ariakensis, for example. What we see is both 
would come up together. The aquacultures and the public rock 
system would come together, especially if we--the diploid were 
to reproduce on its own.
    And just a clarification about Connecticut. Connecticut, 
the major part of their oyster, if I am correct, is not 
produced in hatcheries. It is produced in the wild and 
harvested by the oystermen and sold to the--or planted on the 
leaseholder's bottom. So it is a wild aquaculturist type of 
thing. They do have some hatchery-based oysters, but I can tell 
you that there is not--
    Mr. Gilchrest. Is the wild harvest sold?
    Mr. Simns. The leaseholders hire the local watermen, and 
sometimes they are also using harvest gear to go on the public 
seed bottom and harvest the seed and put it on their lease 
bottom. So it is a combination.
    Mr. Gilchrest. It is a collaborative effort between the 
wild harvest and the hatcheries.
    Mr. Simns. Right. And the same thing in the Gulf of Mexico. 
When those--they get their seed, well, they have a natural-
producing seed on their lease bottom, but they also get their 
seed off of State bottom. They are allowed to harvest it and 
put it on their bottom. So almost anyplace where the 
aquaculture are surviving it is subsidized somewhat by the 
State because they are allowed to use the public rock to 
subsidize the seed.
    There is not too many areas that I know of that get their 
total production from hatcheries. They actually get a lot of it 
from the natural reproduction. I mean, there might be some 
people that do just depend on hatchery-raised seed. But if you 
look at the bulk of the oysters coming out of the Gulf of 
Mexico, most of them are naturally reproduced, but they are 
grown on private tracts of bottom. There is not a whole lot of 
difference from growing it aquaculturally on a large tract of 
bottom that you, as an individual, own or a company owns, 
versus the State owned it and it being harvested. The only 
difference is that they rotate.
    We could do the same thing. That is what we see coming in 
the State of Maryland. We are experimenting with on the 
reserves. You heard a little bit about the reserve part.
    What we are doing is we are cleaning these bars off and the 
same way they do in Connecticut. They go in, and they take 
every existing oyster off of it, because it has diseases in it. 
They take all the big oysters off, all the little oysters. They 
take them all ashore. They shuck what they can. They leave it 
on the shell pile until it dies and it cleans itself up before 
they put the shells back in the water. They leave them there 
about a year or so. So there is no disease on that bar.
    Then when you plant your disease-free oysters there, 
whether they come out of the hatchery or they come from 
somewhere else, it has a better opportunity of growing to 
maturity before it catches disease.
    Now, this is just a plain waterman's example. It is not 
scientific. But we are doing the same thing with the ORP and 
the reserve areas. We go in. We hire the watermen to clean 
these areas off. We catch all the existing oysters on the area 
and take them to another place. Then we go down and plant 
shells or hatchery seeds, and we are seeing good results of 
that.
    But I have to remind you that these areas we are seeing 
good results are areas that we have the least amount of problem 
with disease. In areas that we have tried to where disease is 
pretty heavy, the oysters will go longer without catching the 
disease because you cleaned it off, but eventually they get it. 
So the success in Connecticut has been because they cleaned the 
bars off and they plant either natural seed or hatchery seed.
    In Maryland, we see the same thing happening. If we start 
rotating our bars where we have cleaned them down to, you know, 
after you harvest them, get all of your harvestable out, then 
you go in and clean up all the existing oysters and get the 
disease away from there before you plant anything else back. 
They seem to last longer before they catch the disease, which 
gives them time to mature and be harvested again.
    Leaving them lay there for long periods of time until they 
die, in the watermen's perspective--and the scientists would 
disagree with me--we think you are harboring disease, and you 
have got a place that is infested with disease, and it keeps 
the disease there. We think, although there is places for 
sanctuaries that we should experiment with, we feel that 
sanctuaries is probably going to be where the disease comes 
from if you leave them there and don't ever harvest them.
    Mr. Gilchrest. So you are saying that sanctuaries might not 
be a good idea because there is not enough rotation.
    Mr. Simns. Yeah, and that is a debatable issue. I don't 
want to say that sanctuaries aren't good, because there are 
some other things that they might produce of oysters that are 
more resistant to the disease.
    Mr. Gilchrest. Would sanctuaries be OK for diploids?
    Mr. Simns. Yes, I think so.
    Mr. Gilchrest. Do you have an opinion of oyster bar versus 
oyster reef?
    Mr. Simns. Well, it is not a lot of difference. You know, 
you heard testimony that Chester Bay doesn't have enough reefs 
to support an oyster system. Well, it does. We don't have as 
many as they had in the 1800's, probably, because a lot of them 
silted over; and the upper Bay is no longer productive because 
it is too fresh water. But there is a lots of oyster bars or 
oyster reefs in the Chesapeake Bay. They don't have many 
oysters on them now, but the substrate is there, and they could 
be, you know, put back to life.
    In fact, that is what we are doing at ORP. We are putting 
oysters in places that is not producing many oysters. We are 
taking off what few oysters are there, and then we put shells 
back down and put seed oyster on top of them, and that works.
    What I see, whether it is ariakensis or virginica--I would 
love for it to be virginica, but I don't see that happening 
over 100 percent of the Bay. What I see is how an aquaculture 
industry that both uses triploids and diploids--because they 
will use triploids because in the summertime they will have a 
good marketable oyster when the season is out because the 
triploid doesn't reproduce and in the summertime when the other 
oysters are reproducing they are not a very good oyster to 
sell. So they will use triploids for specific times of year 
when the season is closed to sell. They will use diploids so 
they don't have to continually be buying oysters from a 
hatcher.
    Mr. Gilchrest. So you do see Maryland moving toward--
    Mr. Simns. I see it being parallel. I don't see it doing 
more. Because in my life history again, when we had 10,000 
acres of oyster bottom as leaseholders, I would say in my 
lifetime over 50 percent of them are very productive.
    Mr. Gilchrest. Would the Maryland Watermen's Association be 
receptive to similar ideas that Virginia has as far as--not 
only as far as aquaculture is concerned, but as far as the 
process Virginia is following pursuing first the triploid 
process and then, later on down the road, diploids? Or do you 
feel that the Watermen's Association thinks that that interim 
step of dealing specifically with triploids is not necessary?
    Mr. Simns. Well, I think there is a short--I think in their 
mind that should be a shorter time span than what I was saying, 
because I am not going to live long enough or the rest of my 
people I represent.
    Mr. Gilchrest. We should have this done in 40 or 50 years.
    Mr. Simns. Yeah. That is what I am talking about.
    Mr. Gilchrest. So you will still be around.
    Mr. Simns. I am not going to live long enough to see the 
diploid being enough production out there to keep my people 
alive.
    Mr. Gilchrest. On that issue, if we find that the diploid 
is suitable and does not become invasive and does not become an 
environmental catastrophe, what is your sense of a realistic 
timeframe for diploids revitalizing the oyster industry and 
becoming an important, positive aspect in restoring the ecology 
of the Bay? Is it 5 years, 10 years, decades?
    Mr. Simns. If we were allowed today to both use the diploid 
and the triploid, then I would say in 5 years time we would see 
definite improvement. Because we wouldn't want to harvest the 
triploid right away, even when it reached maturity, because we 
want to let it reproduce once at least so that it is helping 
spread. You wouldn't want to go in there and harvest it all.
    Mr. Gilchrest. Would you need sanctuaries in the beginning?
    Mr. Simns. I think we would need sanctuaries. I am talking 
about with the ariakensis because you are not worried about the 
disease. I think that you should have places in each area of 
the Bay where you have some sanctuaries for reproduction 
purposes, and then you should have your harvestable areas. And 
I wouldn't just say harvestable area like we see it today. I 
would say that you should have what we are talking about in the 
reserve.
    What we are doing in the reserves is, when we put those 
oysters there, we don't open them up to harvest right away. We 
wait until pretty close to 50 percent of them are four inches 
or longer, and we also put a bigger size limit on them so that 
we are getting two for the price of one. You know, you take a 
three-inch oyster and let it go to four, you get two bushels 
for one.
    So that is what our strategy is on the reserve areas with 
virginica.
    On the ariakensis, because it grows faster you might not 
need to do that. But I still would say I think you have got to 
do different with the virginica than you do with ariakensis 
because you don't have the disease to worry about. So you might 
just be able to have sanctuaries for reproduction purposes and 
then open areas and then your leaseholders, also.
    The other thing about having the leaseholders is, if you 
allow them to do diploids too, then you have got another influx 
of reproducing oysters in there, that they are not just going 
to reproduce on the lease bottom, they are going to reproduce 
all over the Bay. So I think if we work that altogether, then I 
see us really doing--really doing well.
    I think the other thing is, if we had the ariakensis, then 
we could take our resources that we are spending on virginica 
now and hopefully get more resources for that. But you would 
concentrate that money into areas that you know the virginica 
is going to have a better chance of living and not spread it 
all over the Bay doing little experiments where you know they 
are going to die. Because what you are doing right now with the 
little bit of money we have, half of it gets spent in areas 
that we know they are going to die.
    So you know if you put all your efforts, say, in Chester 
River to upper Choptank River in the upper Bay and kept that 
just for virginica, you could have a specialized oyster that 
people would be willing to pay a whole lot more money for 
because it is a local specialized oyster; and you could have 
the ariakensis in the other 90 percent of the Bay for the 
shucking business and for the countrywide market.
    But in other countries, in Ireland, for instance, they 
produce 5,000 bushels of their native oysters, and they get a 
premium price for them, and they spend a lot of money to have 
them there. They have a co-op that works on that, and then the 
rest of the oysters are sold to the rest of the world.
    Mr. Gilchrest. Well, that is an interesting idea.
    Mr. Simns. So we are looking at this thing not from a 
narrow perspective, keeping everything like it is. We are 
looking at the future of expanding it so everybody is included 
and so that we really have a viable industry from all aspects 
of it.
    Mr. Gilchrest. Thank you very much, Mr. Simns.
    Just a couple of more quick questions. I know everybody's 
probably ready to go have dinner since you skipped lunch.
    Mr. Goldsborough, in this research that has been done for 
ariakensis or triploids/diploids, the native oysters, and based 
on your understanding as a scientist, these kinds of incidents 
that have happened around the world, whether it is Oregon, 
France, New Zealand or whatever, can you give us some--I am 
going to focus as a pessimist for a second. I want to leave 
this hearing, though, as an optimist. Is there some 
understanding of the type of havoc that an invasive oyster 
could cause in the Chesapeake Bay? Can you give us some 
examples of that? And how do we go about finding out whether 
those examples that you are going to give us will actually 
happen, and how long might that research take?
    Mr. Goldsborough. Well, on the last point, I would have to 
defer to some of the scientific community as to how long it 
would take. I believe the Co-Chair of the NRC report suggested 
on the order of 5 years, but I can't verify that, not being a 
research scientist. But you have put your finger on the million 
dollar question, no doubt about it. The experience worldwide 
have been varied, and in some cases imported oysters have 
become invasive and others not.
    Mr. Gilchrest. Now could you explain for us ``they have 
become invasive''? Now an oyster doesn't move. So what kind of 
invasive havoc is--give us some possibilities that could happen 
in the Chesapeake Bay.
    Mr. Goldsborough. Well, what that means is, as a new 
organism to a local ecosystem, it has not evolved within that 
system with a series of checks and balances. It comes in and as 
those things get sorted out it does not have limiting factors 
to control its growth and distribution. So it goes wild, and 
the end result is you see plenty of terrestrial examples like 
fragmites. You end up with a monoculture that does not have 
anywhere near the habitat value of the native ecosystem, so the 
possibility is that it overruns native organisms and 
communities. And I must say--
    Mr. Gilchrest. So would a zebra mussel in the Great Lakes 
be an example of that--
    Mr. Goldsborough. Yes.
    Mr. Gilchrest.--or would that be beyond the parameters of 
what could happen here?
    Mr. Goldsborough. I don't think that we can say that it is 
beyond the parameters now. And this is quite a dilemma, no 
doubt about it. Because who wouldn't like to see more oysters 
in the Bay filtering the water? But there are downsides that we 
have to factor into this as well, and the main thing about it 
is that it is unpredictable and probably irreversible.
    Mr. Gilchrest. I see. Thank you.
    I think what we hope to--I guess the next step as far as 
the Congress is concerned is to collaborate in a very rigorous 
way with the scientists, with the industry, with the other 
Federal agencies, certainly with the State agencies to move 
along in as harmonious a fashion and with all deliberate speed 
that is reasonable under the circumstances.
    Now that is easier said than done. But I think all of us, 
if we can agree with an opening statement that we want to 
restore the Chesapeake Bay--and one of the ways to do that is 
to restore the oyster population, not forgetting, like Larry 
said in the beginning, septic tanks, air deposition, 
construction, development, agriculture, probates in sensitive 
shallow areas, overharvesting. So all of these things I think 
we need to collaborate together on. I would hope that, as we 
continue to pursue this, that each of us that has a certain 
area of interest become as responsible and as knowledgeable as 
we can to move along.
    I don't have any other questions, I don't think, at this 
particular point. If any of you want to make a closing comment 
or a recommendation to us, we are open for that.
    Larry.
    Mr. Simns. Yeah, if I may.
    One thing I would like to--
    Mr. Gilchrest. Larry gave me some good recommendations in a 
shopping plaza in Chestertown a couple of days ago. So I still 
remembered those, Larry.
    Mr. Simns. One thing I would like to point out, and what 
Bill is talking about, you know, if we were to be fortunate 
enough to have a catastrophe that we had a bloom of these 
oysters in the Chesapeake Bay, there is one predator out there 
that that oyster would have a hard time keeping up with, and 
that is the Maryland watermen. We would keep that stock down so 
that they didn't overrun. So that is one thing I would like to 
see us have, a problem of too many oysters.
    Somebody said, what will happen if the oyster gets so big 
that, you know, it is not good for market? Well, I can tell you 
we would develop a market for it, because Campbell soup would 
love to have an oyster to grind up and make oyster chowder out 
of. So I don't think the problem of an overabundance of oysters 
is going to be a problem like the zebra mussel is because the 
zebra mussel doesn't have a predator of a Maryland watermen and 
the oystermen--the oyster does. So keep that in mind.
    Mr. Gilchrest. Well, Larry, you are sitting next to 
somebody from Virginia. So now she's going to say something 
about the Virginia watermen.
    Mr. Simns. Well, Virginia, too. We will take care of the 
overabundance.
    But I would just say that time is of the essence, and 
certainly we don't want to do anything wrong here. We don't 
want to do anything that we can't turn around. So we need to be 
cautious. But I don't think that being cautious means we have 
got to take 5 years to find out. Because if you put the money 
and the effort you can find out in a year what you can find out 
in 5 years. We found out in 50 years that we haven't been able 
to get a disease-free oyster yet that will work in the wild. So 
I don't want to wait 50 years to find out whether this oyster 
is going to work or not.
    And thank you.
    Mr. Gilchrest. Thank you very much, Larry.
    Mr. Goldsborough.
    Mr. Goldsborough. Thank you for the opportunity for a final 
comment, Mr. Chairman.
    I guess I would just refer to science and say that I would 
certainly support conducting the science as expeditiously as 
possible and get the answers we need. No question about it.
    But I would note that the history of oyster management, 
starting with Dr. William Brooks, who was mentioned earlier in 
the late 19th century, all the way through some of the recent 
committees during the last decade that were mentioned, during 
that history, in virtually every case, science has in one way 
or another been compromised. So I guess my final comment is, 
let's just not let the science be compromised this time and 
let's see what it can do. I think the NRC report is a big 
foundation for that, the CRC document I mentioned is another, 
and the science that we have yet to conduct in the next couple 
of years pursuant to the NRC report as well.
    Mr. Gilchrest. Thank you very much.
    Ms. Porter, you have the last word.
    Ms. Porter. I don't have a last word. I guess more than 
anything I would encourage you to do whatever you can to get 
this EIS on track and under way.
    Mr. Gilchrest. All right. Well, thank you very much, Mr. 
Goldsborough, Ms. Porter and Mr. Larry Simns. We appreciate 
your testimony. It has been very enlightening.
    This hearing is adjourned.
    [Whereupon, at 2:52 p.m., the Subcommittee was adjourned.]


</pre></body></html>
